<html>
<title> - NOMINATION OF MARY SHEILA GALL, TO CHAIR THE CONSUMER PRODUCT SAFETY COMMISSION</title>
<body><pre>[Senate Hearing 107-735]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-735
 
 NOMINATION OF MARY SHEILA GALL, TO CHAIR THE CONSUMER PRODUCT SAFETY 
                             COMMISSION
=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 25, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Jeanne Bumpus, Republican General Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 25, 2001....................................     1
Statement of Senator Allen.......................................    20
Statement of Senator Boxer.......................................    17
    Prepared statement...........................................    18
    Article, USA Today, dated October 12, 1999...................    53
Statement of Senator Breaux......................................    57
Statement of Senator Burns.......................................    66
Prepared statement of Senator Carnahan...........................    22
Statement of Senator Edwards.....................................    20
Statement of Senator Ensign......................................    18
    Prepared statement...........................................    19
Statement of Senator Hollings....................................     1
    Prepared statement...........................................     1
Statement of Senator Hutchison...................................    55
Statement of Senator Kerry.......................................    16
Statement of Senator Lott........................................    45
Statement of Senator McCain......................................     2
    Prepared statement...........................................     4
Statement of Senator Nelson......................................    64
Statement of Senator Smith.......................................    62
Statement of Senator Wyden.......................................     6
    Letter to Senator Wyden with attachments, dated May 15, 2001, 
      from Mary Sheila Gall......................................     7

                               Witnesses

Statement of Mary Sheila Gall, Commissioner, Consumer Product 
  Safety Commission..............................................    22
    Prepared statement...........................................    24
    Biographical information.....................................    34

                                Appendix

DeLauro, Hon. Rosa L., U.S. Representative from the State of 
  Connecticut, prepared statement................................    77


 NOMINATION OF MARY SHEILA GALL, TO CHAIR THE CONSUMER PRODUCT SAFETY 
                               COMMISSION

                              ----------                              


                        WEDNESDAY, JULY 25, 2001

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 

SR-253, Russell Senate Office Building, Hon. Ernest F. Hollings 
[Chairman] presiding.
    Staff members assigned to this hearing: Moses Boyd, 
Democratic Chief Counsel; Aisha Pearson, Democratic Assistant 
to the Chief and General Counsel; Jeanne Bumpus, Republican 
General Counsel; and Virginia Pounds, Republican Professional 
Staff Member.

         OPENING STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    The Chairman. Good morning. This morning we will hold a 
hearing on the nomination of Commissioner Mary Sheila Gall to 
serve as Chairperson of the Consumer Product Safety Commission.
    Ms. Gall, we welcome you this morning. I understand two of 
your children are with you, and if they would stand the 
Committee would welcome them and recognize them. Good. That is 
Walter Gall and Rosa Gall.
    Ms. Gall. Thank you, Mr. Chairman.
    The Chairman. Glad to have you both here with the nominee.
    I have a statement, but I will just file it for the record 
and yield to Senator McCain.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina
    Let me begin by welcoming Commissioner Gall to the Committee and to 
thank her for her appearance today.
    I am sure she is well aware of the seriousness of today's hearing. 
It has been called to consider her nomination to be Chairperson for the 
Consumer Product Safety Commission. There is a great deal of interest 
in this nomination. To get right to the point, a number of nationally 
recognized consumer organizations have voiced strong concerns about 
Commissioner Gall's appropriateness to serve as Chairperson of the 
CPSC, and on that basis are opposing her selection.
    As Commissioner Gall will properly acknowledge, she has served as a 
Commissioner on the CPSC now for 10 years. She was first appointed in 
1991 by President Bush, renominated and appointed in 1999 by President 
Clinton, as she was paired with the then and current Chairman Ann Brown 
for renomination. In recent times, the Commission has been functioning 
with three Commissioners. The law requires that at least one of those 
persons be a member of the opposite party of the President's party. 
This law is necessary to provide a balance of viewpoints on federal 
commissions and at independent agencies. Thus under President Clinton, 
Ms. Gall served as the Minority Commissioner, and was selected by the 
Republican Members of Congress to maintain and fulfill that role--a 
deference a President, and members of the other party generally honor. 
I, along with other members of this Committee, and the Senate supported 
this effort to have Commissioner Gall re-confirmed for another term.
    Commissioner Gall, however, has now been nominated for a different 
position, which will require her to play a different role and to 
fulfill different responsibilities. Unlike being a Commissioner, as the 
Chairperson she will be required to serve as the number one government 
official in the country on product safety.
    Additionally, she will be required to be the head administrator at 
the Commission; in charge of setting its agenda, determining its 
direction and the actions it will pursue; in charge of overseeing and 
directing the Commission's staff, and maintaining their morale; and 
lastly, in charge of educating the American people about the role their 
government is playing protecting them from hazards associated with 
consumer products.
    The question before the Committee is whether Commissioner Mary 
Sheila Gall is the appropriate individual to fulfill this role and 
these responsibilities.
    As I noted, several outside organizations have voiced concerns 
about Ms. Gall's record. Specifically, they claim that she has a 
tendency to:

        (1) require excessive evidence before promulgating safety 
        standards;

        (2) blame consumers for their injuries rather than considering 
        possible defects in products or seeking reasonable ways to 
        minimize potential product hazards; and

        (3) oppose the adoption of mandatory standards, even when 
        evidence exists either of industry's noncompliance with a 
        voluntary standard or of serious deaths and injuries associated 
        with a product.

    These groups claim that Ms. Gall often takes such positions even in 
cases involving children. From their point of view, Ms. Gall proceeds 
from the theory that parents are to be held responsible substantially 
for their children; thus any time the CPSC considers a case involving 
children, the first issue to be addressed is parental behavior--has the 
parent been irresponsible--regardless of whether the product is 
defective or can be made to be safer.
    As I mentioned Commissioner Gall will be given ample opportunity to 
respond to these charges as I am sure she is prepared to do.
    There are two additional points I would like to make before turning 
to my colleague, John McCain. First, let me make clear that this 
hearing will be conducted fairly and that Commissioner Gall will be 
given the opportunity to state her case on the record and in follow-up.
    Second, in closing, I would like to make a few comments about the 
CPSC. It is an agency that is dear to me. The agency was officially 
created in 1972. Its mission was clear: it was to protect the American 
public from unreasonable dangers associated with consumer products. 
That mission is still important, in fact it may be even more so today. 
Product-related injuries today contribute to more than 20,000 deaths 
and close to 30 million injuries every year; they cause the death of 
more children than any health-related disease. We must find a way to 
protect our children from these kinds of dangers. Losing thousands of 
children like this every year is uncalled for. This is the charge of 
the CPSC.
    Again, the task before us is deciding whether Mary Sheila Gall is 
the ideal person to uphold this mission. Her record, and the answers 
she gives today will be important in that determination.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Well, thank you, Mr. Chairman, and thank 
you for holding this hearing on this important position.
    In 1991 Mary Sheila Gall was nominated to the Consumer 
Product Safety Commission by President George Bush. The task of 
the CPSC is an important one, to protect the public against 
unreasonable risks of injuries and deaths associated with 
consumer products.
    Between 1991 and 1999, Commissioner Gall voted with the 
majority of the three-member Commission the vast majority of 
times, supported the Commission's enforcement actions, and 
sought substantial fines and criminal penalties against 
companies that violated the Consumer Product Safety Act and 
other statutes enforced by the CPSC. During this time, 
Commissioner Gall also cast a number of votes that have since 
become the focus of efforts to derail her nomination. Let me 
recite this parade of horribles.
    In 1992, Commissioner Gall voted with both of her 
colleagues against a rulemaking to put choking hazard labels on 
marbles, balloons, and small toys. One year later she voted, 
again unanimously, not to begin a rulemaking on baby walkers, 
opting instead to urge the continued improvement of the product 
through voluntary standards.
    In 1994, Commissioner Gall voted, again with the majority, 
not to begin a rulemaking on baby bath seats after a petition 
to ban them was filed. Also in 1994, in response to a petition 
filed by the National Association of State Fire Marshals, 
Commissioner Gall voted not to begin a rulemaking on 
upholstered furniture flammability standards. Despite this, the 
State Fire Marshals endorsed her chairmanship earlier this 
year.
    In 1996 Gall cast another vote with the majority for which 
she is now being vilified. That time it was to modify the 
standards for children's sleepwear so as not to require 
sleepwear for children under 9 months or snug-fitting sleepwear 
to be flame resistant. Gall reasoned that parents were putting 
their children in untreated, more comfortable loose cotton 
garments rather than the fire-resistant fabrics and that it was 
safer for children to sleep in snug, untreated pajamas, which 
were less likely to catch fire. Commissioner Moore agreed with 
her. Since then, Chairman Brown has agreed that the CPSC should 
not expend additional resources to reconsider this 1996 action.
    That same year, Commissioner Gall voted, this time in the 
minority, not to initiate a rulemaking on crib slats, 
commenting that the voluntary standards process had not been 
given time to work, but cautioning that regulation might still 
be required if the voluntary process proved inadequate. 
Voluntary standards have since been adopted and the CPSC's 
regulatory work is stalled.
    After casting all of these votes, for which she is now 
being portrayed as a cold-hearted industry pawn, in 1999--in 
1999 Commissioner Gall was renominated to a second 7-year term 
by President Bill Clinton. The nomination was sent to the 
Senate on May 8, 1999. On June 17th, 1999, the Commerce 
Committee held a hearing on the nomination, during which I was 
the only member of the Committee to pose questions. On June 
23rd, 1999, the Committee recommended by voice vote, with no 
audible dissension, that Ms. Gall's nomination be favorably 
reported to the full Senate.
    On July 1, by unanimous consent and without a single 
statement of opposition or concern being entered into the 
record, Mary Sheila Gall was reconfirmed to a second full term 
at the CPSC.
    Earlier this year, President Bush indicated his intent to 
nominate Commissioner Gall to Chair of the CPSC. The Senate has 
already unanimously concurred on Ms. Gall's qualifications to 
be the CPSC Commissioner. I believe that the President is 
entitled to his prerogative to select the Chairman and that the 
Senate should in most instances defer to his judgment.
    I also believe the President has made a good choice with 
Commissioner Gall, who during her tenure at the CPSC has 
demonstrated her commitment to reason, to fair process, and to 
safety.
    What I do not believe, however, is the line that 
Commissioner Gall's opponents have developed recently to 
justify their opposition to her, and this line is that Mary 
Sheila Gall, while perfectly fine as a CPSC Commissioner, is 
not qualified to chair the Commission.
    The CPSC, like other independent agencies, is not 
autocratic. It is a collegial body whose agenda and budget are 
set by all three Commissioners, all of whom have an equal vote 
in rulemakings and enforcement actions. It is because the 
Commissioners must work so closely that Commissioner Thomas 
Moore, a Democrat who has been at the CPSC since 1995, has come 
to know her philosophy and work intimately. It is Commissioner 
Moore who offers what is in my mind the most persuasive 
commentary on her nomination.
    In response to an article that appeared in USA Today 
earlier this year, Commissioner Moore wrote: ``I was dismayed 
to read the article in the April 25th USA Today giving an 
unfairly negative slant to the record and beliefs of Mary 
Sheila Gall, my fellow Commissioner at the Consumer Product 
Safety Commission.''
    He continued: ``During my 6 years at the agency, I have 
been impressed by Commissioner Gall's hard work, the thoughtful 
consideration of every issue, and been persuaded on occasion by 
her arguments. For her part, she has been willing to change her 
views after hearing her colleagues on certain matters. But 
whether we agree on an issue of note, I can find nothing in her 
views or her voting record to cause me any alarm about her 
assuming the chairmanship of the agency.''
    Finally, he said: ``While I may have a different opinion 
from Commissioner Gall on some aspects of Commission business, 
I have no doubt she will listen to my views and that, however 
she votes, her decision will be well-reasoned and give 
expression to a valid viewpoint shared by many, perhaps the 
majority of Americans.''
    I commend Ms. Gall for her service to the CPSC and to this 
country and I commend her also for her willingness to face the 
tough, but I hope fair, questions she will be asked today.
    Thank you, Mr. Chairman, for holding this hearing.
    [The prepared statement of Senator McCain follows:]

                Prepared Statement of Hon. John McCain, 
                       U.S. Senator from Arizona
    In 1991, Mary Sheila Gall was nominated to the Consumer Product 
Safety Commission by President George Bush. The task of the CPSC is an 
important one--to protect the public against unreasonable risks of 
injuries and deaths associated with consumer products.
    Between 1991 and 1999, Commissioner Gall voted with the majority of 
the three-member commission the vast majority of times, supported the 
Commission's enforcement actions, and sought substantial fines and 
criminal penalties against companies that violated the Consumer Product 
Safety Act and other statutes enforced by the CPSC.
    During this time, Commissioner Gall also cast a number of votes 
that have since become the focus of efforts to derail her nomination. 
Let me recite this ``parade of horribles'': in 1992, Commissioner Gall 
voted with both of her colleagues against a rulemaking to put choking 
hazard labels on marbles, balloons, and small toys. One year later she 
voted, again unanimously, not to begin a rulemaking on baby walkers, 
opting instead to urge the continued improvement of the product through 
voluntary standards. In 1994, Commissioner Gall voted, again with the 
majority, not to begin a rulemaking on baby bath seats after a petition 
to ban them was filed. Also in 1994, in response to a petition filed by 
the National Association of State Fire Marshals, Commissioner Gall 
voted not to begin a rulemaking on upholstered furniture flammability 
standards. Despite this, the State Fire Marshals endorsed her 
Chairmanship earlier this year.
    In 1996, Gall cast another vote with the majority for which she is 
now being vilified--that time it was to modify the standards for 
children's sleepwear so as not to require sleepwear for children under 
nine months, or snug-fitting sleepwear, to be flame resistant. Gall 
reasoned that parents were putting their children in untreated, more 
comfortable loose cotton garments rather than the fire resistant 
fabrics, and that it was safer for children to sleep in snug, untreated 
pajamas which were less likely to catch fire. Commissioner Moore agreed 
with her. Since then, Chairman Brown has agreed that the CPSC should 
not expend additional resources to reconsider this 1996 action.
    That same year, Commissioner Gall voted, this time in the minority, 
not to initiate a rulemaking on crib slats, commenting that the 
voluntary standards process had not been given time to work but 
cautioning that regulation might still be required if the voluntary 
process proved inadequate. Voluntary standards have since been adopted 
and the CPSC's regulatory work is stalled.
    After casting all of these votes for which she is now being 
portrayed as a cold-hearted industry pawn, in 1999, Commissioner Gall 
was re-nominated to a second seven-year term by President Bill Clinton. 
The nomination was sent to the Senate on May 8, 1999. On June 17, 1999, 
the Commerce Committee held a hearing on her nomination, during which I 
was the only member of the Committee to pose questions, and on June 23, 
1999, the Committee recommended by voice vote, with no audible 
dissension, that Ms. Gall's nomination be favorably reported to the 
full Senate. On July 1, by unanimous consent, and without a single 
statement of opposition or concern being entered into the Record, Mary 
Sheila Gall was reconfirmed to a second full term at the CPSC.
    Earlier this year, President Bush indicated his intent to nominate 
Commissioner Gall to Chair of the CPSC. The Senate has already 
unanimously concurred on Ms. Gall's qualifications to be a CPSC 
Commissioner. I believe that the President is entitled to his 
prerogative to select the Chairman, and that the Senate should, in most 
instances defer to his judgment. I also believe that the President has 
made a good choice with Commissioner Gall, who, during her tenure at 
the CPSC, has demonstrated her commitment to reason, to fair process, 
and to safety.
    What I do not believe, however, is the line that Commissioner 
Gall's opponents have developed recently to justify their opposition to 
her, and this line is that Mary Sheila Gall, while perfectly fine as a 
CPSC Commissioner, is not qualified to Chair the Commission. The CPSC, 
like other independent agencies, is not autocratic. It is a collegial 
body whose agenda and budget are set by all three Commissioners, all of 
whom have an equal vote in rulemakings and enforcement actions.
    It is because the Commissioners must work so closely that 
Commissioner Thomas Moore, a Democrat who has been at the CPSC since 
1995, has come to know her philosophy and work intimately. And it is 
Commissioner Moore who offers what is in my mind, the most persuasive 
commentary on her nomination. In response to an article that appeared 
in USA Today earlier this year, Commissioner Moore wrote:

        ``I was dismayed to read the article in the April 25th USA 
        Today giving an unfairly negative slant to the record and 
        beliefs of Mary Sheila Gall, my fellow Commissioner at the 
        Consumer Product Safety Commission.''

    He continued:

        ``During my six years at the agency, I have been impressed by 
        Commissioner Gall's hard work, her thoughtful consideration of 
        every issue and been persuaded, on occasion, by her arguments. 
        And for her part, she has been willing to change her views 
        after hearing her colleagues on certain matters. But whether we 
        agree on an issue of note, I can find nothing in her views of 
        her voting record to cause me any alarm about her assuming the 
        Chairmanship of the agency.''

    And finally,

        ``While I may have a different opinion than Commissioner Gall 
        on some aspects of Commissioner business, I have no doubt she 
        will listen to my views and that, however she votes, her 
        decision will be well-reasoned and give expression to a valid 
        viewpoint shared by many (perhaps the majority) of Americans.''

    I commend Ms. Gall for her service to the CPSC and to this country, 
and commend her also for her willingness to face the tough, but I hope 
fair, questions she will be asked today. Thank you Mr. Chairman, for 
holding this hearing.

    The Chairman. Thank you, Senator.
    Let me as Chairman recoup a minute of my time. Yes, I did 
vote, Ms. Gall, for you in 1991. In all candor, it was for 
minority member's position on the Consumer Product Safety 
Commission. I did not look at any particular record at that 
time. I am convinced over the 30-some years that we do not as 
Senators really study in any in-depth manner the record 
because, as the Senator has pointed out, nominations are the 
President's prerogative and we give tremendous weight to that.
    Incidentally, in 1999, I remember it well because I wanted 
Ann Brown, and we made a deal. They wanted you; I wanted Ann 
Brown.
    Now I have had occasion to review your record and there are 
serious misgivings about your votes, in the sense that you will 
be the Chairman and you will lead that Commission, as Ann Brown 
has done a magnificent job in my opinion. So let me just say 
that the reason for the hearing is to make up our minds and 
have you make a record here with respect to your particular 
record and answer any questions that we may have.
    Let us see, Senator----
    Senator McCain. Could I just say, Mr. Chairman, you have 
always treated every nominee in my knowledge in my years of 
experience with you in a fair and objective fashion, and I 
appreciate that and I know that the witness does today.
    I thank you, Mr. Chairman.
    The Chairman. Thank you, too.
    Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman, and I am 
going to be brief.
    Mr. Chairman, taking a hands-off approach to hazardous 
products that endanger the public is not what the American 
people expect their government to do. I am here to listen this 
morning because I think that this is an especially important 
appointment. This appointment is an early signal of where this 
Administration stands on basic consumer protection issues and 
that is why it is so important that we review this record that 
Chairman Hollings talked about carefully.
    I was particularly troubled, Ms. Gall, and we talked about 
it when you came to my office, about your comments referring to 
the government's role in the consumer protection area as 
creating a ``federal Nanny State.'' You and I talked about 
that. You wrote me a letter on that subject.
    Mr. Chairman, I would ask unanimous consent that that 
letter Ms. Gall wrote me be a part of the record.
    The Chairman. It will be included.
    [The material referred to follows:]

                   U.S. Consumer Product Safety Commission,
                                      Washington, DC, May 15, 2001.

Hon. Ron Wyden,
United States Senate,
Washington, DC.

Dear Senator Wyden:

    I am following up from our meeting on Friday, May 11, 2001, in 
which you asked me for additional materials in connection with my 
reference to the ``Federal Nanny State.'' That reference was made in a 
letter to the editor that I wrote to USA Today in connection with a 
press release that the Commission issued about the practice of ``co-
sleeping.'' (Co-sleeping is the practice of adults sleeping in the same 
bed with infants.) I characterized the press release as a proclamation 
on behalf of the Federal Nanny State because its basis was not a 
product over which the Commission has jurisdiction, but rather a 
cultural practice. It is appropriate for the Commission to warn the 
public about defective products, but warnings about cultural practices 
are not within its purview.
    So that you may better understand the background against which I 
made my remark, I am enclosing the press release that prompted the 
letter, and an associated Commission warning document. You will note 
that both documents refer to the risks associated with placing infants 
alone in adult beds, which is a genuine product hazard, because infants 
may become trapped between the mattress and the wall. Those references 
were added at my insistence. I am also enclosing a number of press 
stories that were critical of the Commission press release.
    The letter to the editor refers to a ``procession of 
proclamations.'' In addition to the press release on co-sleeping, I 
have been critical of Commission press releases that state obvious 
hazards, such as falling off of snowboards (press release enclosed). 
Finally, I am enclosing a press article reporting that the General 
Counsel of the Commission had intimated that motion pictures might be 
within the Commission's jurisdiction for purposes of depicting safe 
practices associated with all-terrain vehicle riding.
    It was press releases or statements such as these, which seek to 
lecture people about either practices (co-sleeping) or products 
(movies) over which the Commission has no jurisdiction, or which 
lecture people about obvious hazards (such as falling down while moving 
forward) that prompted my remark about the Federal Nanny State. I hope 
that this letter has better explained the origins of and reasons for my 
use of those words
    The Commission, of course, has done excellent work and accomplished 
genuine safety results when it has focused on its core mission of 
product safety. For example, Commission regulations requiring that 
cigarette lighters be child-resistant saved an estimated 130 lives and 
prevented 950 injuries and 4,800 fires between 1994 and 1998 (the last 
year on which we have complete data). Commission regulations on child-
resistant packaging for prescription and over-the-counter drugs have 
saved an estimated 700 children's lives since enactment of the Poison 
Prevention Packaging Act. The numbers of injuries per 100,000 pounds of 
fireworks shipped was cut in half from 1976-78 to 1991-93, at least 
partially as a result of Commission fireworks regulations. These 
results show what the Commission is capable of achieving when it 
concentrates on the mission Congress gave it.
    If you desire further information, or if you have additional 
questions, please feel free to have your staff call Patsy Semple or 
Dennis Wilson.
        Sincerely,

                                          Mary Sheila Gall,
                                                      Commissioner.
Enclosures (10)

        Infant-Sleeping Study a Case of Agency's `Over-Reaching'
     Mary Sheila Gall, Vice Chairman, U.S. Consumer Product Safety 
                      Commission, Washington, D.C.
                      USA Today, October 12, 1999
                (Copyright 1999, Gannett Company, Inc.)
    USA TODAY's article addressing the latest warnings from the U.S. 
Consumer Product Safety Commission (CPSC) on the perilous hazards of 
children co-sleeping with their parents requires that I respond 
(``Study advises against parent-infant `co-sleeping,' '' Life, Sept. 
30).
    Philosophically, I am troubled by an official report in which this 
agency instructs mothers on whether they should be ``co-sleeping'' with 
their children.
    Frankly, as the only current Republican member on the commission, 
it has been increasingly frustrating, in recent years, to witness the 
procession of proclamations issued by this agency on behalf of the 
federal Nanny State.
    Specifically, I was unable to find a defective consumer product 
identified in our ``study'' as the causation of this hazard. Quite 
simply, there wasn't any product, defect or jurisdiction--just babies 
sleeping with their parents.
    This may well be a controversial practice, but it is apparently a 
practice that many leading authorities have proclaimed actually 
promotes family bonding.
    But the lack of any subject-matter jurisdiction over human behavior 
apparently did not get in the way of this agency's running with an 
attention-grabbing headline.
    In point of fact, this CPSC ``study'' was never intended to be 
issued as an official government research effort. This was originally 
an unofficial, independent effort produced by several employees of the 
consumer product safety agency.
    I should note that I always have supported this sort of independent 
research by members of our staff--but only as their own personal work 
product, produced on their own time, and not as an agency-sanctioned or 
agency-funded effort.
    This staff study was deemed retroactively to be an official CPSC 
study--only after it was completed and written and on the verge of 
publication by a prestigious professional organization. While I 
personally admire these staffers for their initiative, I voted against 
proclaiming this to be an official CPSC study.
    Why? Very simply--it was not.
    I have been a member of this commission for almost eight years and 
am very proud of this agency's diligence on behalf of the American 
consumer. Its agenda does provide a valuable public service.
    Our recent efforts on smoke detectors, child-resistant cigarette 
lighters and fireworks are only a few illustrations of how the consumer 
protection agency can indeed save lives.
    I also should note that I have consistently advocated personal 
responsibility, criticizing attempts to declare a particular product 
defective when the only ``hazard'' has been the bizarre use of a 
product by the consumer. But, here, there simply is no product--
defective or otherwise.
    The only peril I can detect in this particular episode is over-
reaching by a federal regulatory agency.
                             News from CPSC
                U.S. Consumer Product Safety Commission


Office of Information and Public Affairs                            Washington, DC 20207
----------------------------------------------------------------------------------------------------------------
FOR IMMEDIATE RELEASE                                               CONTACT: Ken Giles
September 29, 1999
Release #99-175
 


CPSC Warns Against Placing Babies in Adult Beds; Study finds 64 deaths 
        each year from suffocation and strangulation
WASHINGTON, D.C.--The U.S. Consumer Product Safety Commission (CPSC) is 
warning parents and caregivers about the dangers of placing babies to 
sleep in adult beds. A CPSC study published in the October issue of the 
Archives of Pediatrics and Adolescent Medicine found that placing 
babies to sleep in adult beds puts them at risk of suffocation or 
strangulation. This is a danger of which many parents and caregivers 
are unaware. The study revealed an average 64 deaths per year to babies 
under the age of 2 years placed to sleep in adult beds, including 
waterbeds and daybeds.
    A review of incident data from January 1990 to December 1997 linked 
adult beds to at least 515 baby deaths. Analysis of the deaths revealed 
four major hazard patterns:

  <bullet> Suffocation associated with the co-sleeping of adult and 
        baby.

  <bullet> Suffocation where an infant becomes entrapped or wedged 
        between the mattress and another object.

  <bullet> Suffocation due to airway obstruction when the baby is face 
        down on a waterbed mattress.

  <bullet> Strangulation in rails or openings on beds that allow a 
        baby's body to pass through while entrapping the head.

    CPSC's study is the first to quantify the number of fatalities 
resulting from the practice of co-sleeping with babies. Of the 515 
deaths, 121 were reported to be due to a parent, caregiver or sibling 
rolling on top of or against the baby while sleeping. More than three-
quarters of these deaths occurred to infants younger than 3 months. The 
other 394 deaths resulted from suffocation or from strangulation caused 
by entrapment of the child's head in various structures of the bed. 
Entrapments occurred between the mattress and the wall, bed frame, 
headboard, footboard, bed railings or adjacent furniture.
    One of the most tragic aspects of these deaths is that they are 
largely preventable. In many cases, the adult placing the baby in the 
adult bed was unaware of or underestimated the danger posed. The 
practice of co-sleeping can result in the adult rolling on top of or 
next to the baby smothering him or her. Mothers who breastfeed should 
be alerted to this hazard and should be encouraged to return the baby 
to the crib after breast-feeding.
    ``Don't sleep with your baby or put the baby down to sleep in an 
adult bed,'' said CPSC Chairman Ann Brown. ``The only safe place for 
babies is in a crib that meets current safety standards and has a firm, 
tight-fitting mattress. Place babies to sleep on their backs and remove 
all soft bedding and pillow-like items from the crib.''
    Of the 394 entrapment deaths, 296 were on adult beds, 79 were on 
waterbeds and 10 were on daybeds. Bed rails, which are portable 
railings that can be installed on toddler and adult beds to keep 
toddlers from falling out of beds, accounted for nine baby deaths. CPSC 
is working with the bed rail industry on the design of these products 
to reduce the hazard. The following chart provides more details on the 
fatality scenarios from entrapment and co-sleeping.


----------------------------------------------------------------------------------------------------------------
                                                                        Sleeping Environment
                                                   -------------------------------------------------------------
                 Fatality Scenario                                                       Portable Bed
                                                    Adult Bed    Waterbed      Daybed        Rail        Total
----------------------------------------------------------------------------------------------------------------
Wedging between mattress and wall                   125         3                                      128
----------------------------------------------------------------------------------------------------------------
Wedging between mattress and bed frame, headboard   128         8             6                        142
 or footboard
----------------------------------------------------------------------------------------------------------------
Entrapment between mattress and adjacent furniture   20                                                 20
----------------------------------------------------------------------------------------------------------------
Strangulation between bed railings                   23                       4                         27
----------------------------------------------------------------------------------------------------------------
Entrapment between portable bed rail and mattress                                        9               9
----------------------------------------------------------------------------------------------------------------
Suffocation on a waterbed mattress                             68                                       68
----------------------------------------------------------------------------------------------------------------
Total (entrapment)                                  296        79            10          9             394
----------------------------------------------------------------------------------------------------------------
Co-sleeping death (rolling on top of or against     108        13                                      121
 baby while sleeping)
----------------------------------------------------------------------------------------------------------------
Total (entrapment + co-sleeping)                    404        92            10          9             515
----------------------------------------------------------------------------------------------------------------


    For 1998 and 1999, the Commission is aware of at least 76 
additional deaths, 35 due to suffocation associated with co-sleeping 
and 41 due to entrapments. The Archives of Pediatrics and Adolescent 
Medicine, a member of the Journal of the American Medical Association 
family of journals, study ``Adult Beds Are Unsafe Places for Children 
to Sleep,'' primarily written by CPSC's Suad Nakamura, Ph.D., was co-
authored by Marilyn Wind, Ph.D., (CPSC) and Mary Ann Danello, Ph.D., 
(CPSC). Nakamura gave details about the findings at an AMA briefing in 
New York today.
    CPSC has also issued a Safety Alert warning against placing babies 
in adult beds.
                   Consumer Product Safety Commission
 CPSC Cautions Caregivers about Hidden Hazards for Babies on Adult Beds
             Reports of more than 100 deaths from 1999-2001
    Just as the U.S. Consumer Product Safety Commission (CPSC) has 
alerted parents and caregivers to the hazards of soft bedding in cribs, 
it is now alerting them to the hidden hazards associated with placing 
infants on adult beds. The CPSC has reports of more than 100 deaths of 
children under age 2, most from suffocation, associated with features 
of adult beds. These deaths occurred from January 1, 1999 to December 
31, 2001 and involve an entrapment, a fall, or a situation in which 
bedding or the position of the child was related to the death. Nearly 
all of the children, 98%, were babies under 1 year old.
    Many parents and caregivers are unaware that there are hidden 
hazards when placing babies on adult beds. Consumers often think that 
if an adult bed is pushed against a wall, or pillows are placed along 
the sides of the bed, small babies will be safe as they sleep. However, 
CPSC data shows hidden hazards for babies on adult beds.
                              Safety Tips
<bullet> Wherever your baby sleeps should be as safe as possible. 
    Babies placed on adult beds risk suffocation from several hidden 
    hazards such as:
  --Entrapment between the bed and wall, or between the bed and another 
        object,
  --Entrapment involving the bed frame, headboard or footboard,
  --Falls from adult beds onto piles of clothing, plastic bags, or 
        other soft materials resulting in suffocation, and
  --Suffocation in soft bedding (such as pillows or thick quilts and 
        comforters).

<bullet> Always place the baby to sleep on his or her back, not on its 
    stomach.

<bullet> When using a crib, make sure it meets current safety 
    standards, has a firm, tight-fitting mattress and tight-fitting 
    bottom sheet.

<bullet> When using a portable crib or playpen, be sure to use only the 
    mattress or pad provided by the manufacturer.
                          Baby Doll Simulation
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Entrapment between bed & wall
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    Entrapment between bed & object

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                        Entrapment in footboard

                   Maybe They Shouldn't Sleep at All
                   The New York Post, October 1, 1999
      (Copyright 1999, N.Y.P. Holdings, Inc., All rights reserved)
    No wonder conservatives refer to the federal government as ``the 
nanny state.''
    The Consumer Product Safety Commission stepped in this week to 
issue a warning about children under the age of two sleeping in their 
parents' beds.
    It did so based on one survey--one survey--that attributed 515 baby 
deaths over a seven-year period to sleeping in their parents' bed.
    The first question this raises is: Why is the Consumer Product 
Safety Commission of all agencies conducting this study? Last we 
checked, neither parents nor babies fall under anyone's definition of 
``product.''
    There is no indication that a faulty bed or pillow caused any of 
these cases of early death. Instead, it is unquantifiable actions such 
as ``overlying'' or an adult occasionally suffocating an infant.
    The survey attributes 64 baby deaths a year to sharing the parental 
bed--out of 3.9 million American babies born each year. And it still 
issued its front-page warning despite the fact that this number is 
statistically insignificant from the number of babies in cribs--50 a 
year--who die because they get their heads caught between the slats.
    Now compare these numbers with the hundreds upon hundreds of 
millions of babies born for millennia who have slept close to their 
parents.
    Child safety is vitally important. But it is nothing short of 
irresponsible for the federal government to be terrifying parents based 
on the flimsiest of evidence. And it's nothing short of shocking for 
the Consumer Product Safety Commission to be butting in.
    Here's something of a radical notion--how about letting parents 
decide how best to care for their babies? Uncle Sam, consider yourself 
relieved of this particular baby-sitting duty.
     `Co-Sleeping' Can Be Hazard for Babies, Federal Officials Warn
                The Washington Post, September 30, 1999
           by Caroline E. Mayer, Washington Post Staff Writer
                 (Copyright 1999, The Washington Post)
    . . . old sleep in bed with their parents, setting off a new debate 
over whether the increasingly popular practice puts children at risk of 
suffocating.
    The Consumer Product Safety Commission warning about ``co-
sleeping'' was prompted by a new CPSC study that found the practice 
causes about 15 deaths a year.
    ``There is some evidence to suggest that the practice [of co-
sleeping] may introduce a hazard of death by overlying'' with a parent 
rolling on top of the baby, or next to it and smothering him or her, 
said the CPSC study, which reviewed death certificates nationwide from 
1990 through . . .
    A number of prominent co-sleeping advocates--who encourage bed-
sharing as a way to promote breast-feeding and increase bonding between 
parent and child--immediately criticized the CPSC warning.
    James J. McKenna, a biological anthropologist . . .
    . . . who filled out death certificates. The findings ignore 
studies that show that ``even in the deepest stages of their sleep, 
mothers respond within seconds to a strange noise, sudden movement, 
grunt or cough of their co-sleeping infant,'' McKenna said.
    Pediatrician William Sears, who endorses co-sleeping in his best-
selling guide, ``The Baby Book,'' agreed. ``If you look at the data 
very carefully, you can conclude that more infants die alone in cribs 
than die in a parent's bed,'' Sears . . .
    . . . in their cribs and suffocate, mostly due to defects or broken 
parts in older cribs.
    The study, released yesterday at an American Medical Association 
briefing, is the first to quantify the number of fatalities resulting 
from co-sleeping, said the commission, which has been active in a 
number of issues aimed at decreasing infant deaths, such as improving 
crib safety.
    According to the CPSC data, 515 infant deaths occurred in adult 
beds from 1990 through 1997. Of these, 121 were caused by co-sleeping, 
with 77 percent of these deaths occurring in infants younger than 3 
months old. While earlier studies said most overlying deaths occurred 
on waterbeds, the CPSC study found only 11 . . .
                            Kids in the Bed;
A government pronouncement on the dangers of ``co-sleeping'' deserves a 
                              closer look
                         Time, October 11, 1999
                            by Amy Dickinson
                      (Copyright 1999, Time Inc.)
    You've got to love the Consumer Product Safety Commission, nanny to 
the nation. They're the guys who put those impenetrable safety caps on 
aspirin bottles and rounded off the corners of our furniture; they're 
the original authors of WARNING: CONTENTS HOT and THIS LADDER IS TO BE 
USED FOR CLIMBING. Without the CPSC, Americans wouldn't know the 
dangers of rickety swing sets, toxic crayons or detachable doll's eyes. 
Last week the CPSC announced that parents shouldn't allow infants to 
sleep with them in bed, owing to the risk of suffocation, strangulation 
or death by ``overlying''--when a sleeping parent mistakenly rolls onto 
an infant. This announcement was based on data collected from 1990 to 
1997 showing that on average, 64 American babies die each year while 
``co-sleeping'' with their parents in adult beds.
    The CPSC presented this warning to parents in absolute terms, 
saying that babies should never be allowed to sleep on adult beds, 
daybeds or waterbeds; that doing so exposes the child to a 
``potentially fatal hazard.'' The CPSC acknowledges ``limitations'' 
with its data, in that the reported cause of death in some cases is 
based on ``anecdotal information.'' In some of the cases the babies 
might have been victims of sudden infant death syndrome (SIDS); it is 
also not clear if parents' consumption of alcohol or drugs might have 
contributed to the ``overlay'' deaths. (Interestingly, even safety 
equipment is dangerous if misused: eight infant deaths during this 
period involved baby rails, intended to keep the child from rolling out 
of bed.)
    So consider yourself warned. Now, if you're like me, you're 
thinking about ignoring the CPSC, but you're anxious about the 
consequences (I used to feel like a criminal when I put my baby to bed 
in a non-flame-retardant sleeper). I asked Ann Brown, chairwoman of the 
CPSC, if she thought the co-sleeping warning isn't just a touch 
overblown. Hoarse from defending the CPSC's position on co-sleeping, 
she said the ``huge number of deaths meant it would be wrong for us to 
withhold this information from parents.''
    The fact is, 3,880,894 American babies were born in 1997, the most 
recent year for which we have statistics. Sadly, 28,045 died before 
their first birthday. But only 64 of them died on adult beds, compared 
with 736 who died of other accidental injuries--for instance, 160 
babies under the age of one year died in motor-vehicle accidents.
    Death is quantifiable, as the data sadly show. What can't be 
measured so easily is the benefit of closeness, both for the baby and 
the parent. There is no question that parents and their babies should 
have as much intimate contact as possible. The problem is how to get 
it. Dr. John Kattwinkel, who headed a task force on infant-sleep 
positions and SIDS for the American Academy of Pediatrics, told me that 
if parents can avoid ``loose bedding, pillows, soft surfaces, 
waterbeds, mattresses that might pull away from bed frames, smoking and 
drinking in bed,'' then co-sleeping was O.K. Otherwise they should have 
their infant within reach in a bassinet. ``They have this kind now that 
straps to the bed,'' Dr. Kattwinkel offered. ``Straps? I don't know. 
Sounds like a hazard to me,'' I said. He assured me that there are 
bassinets out there that have been tested and approved by the Consumer 
Product Safety Commission.
    Whew! Now don't we all feel better?
    See our website at time.com/personal for more on child safety and 
nurturing.
                             News from CPSC
                U.S. Consumer Product Safety Commission


Office of Information and Public Affairs                            Washington, DC 20207
----------------------------------------------------------------------------------------------------------------
FOR IMMEDIATE RELEASE                                               CONTACT: Kate Premo
January 24, 1995
Release #95-068
 


CPSC Says Snowboarding Boom Leads To More Injuries
WASHINGTON, D.C.--The U.S. Consumer Product Safety Commission (CPSC) 
today is releasing statistics showing a 42 percent increase in 
snowboard-related injuries from 1993 to 1994. Snowboarding is the 
fastest growing winter sport and is rapidly gaining popularity at ski 
resorts across the country.
    CPSC Chairman Ann Brown said, ``Snowboarding is one of the hottest 
new sports on the slopes and a great way to enjoy the winter outdoors. 
We all know that falling or `wiping out' is inevitable. Snowboarders 
should take lessons to help them enjoy the sport and reduce the risk of 
injury.''
    An estimated 27,000 snowboarding injuries were treated in hospital 
emergency rooms in 1994, up from about 19,000 for 1993, an increase of 
42 percent. Unlike skiing, where the largest number of injuries involve 
the knee, the greatest number of snowboarding injuries involve the 
wrist or arm. About 27 percent of snowboarding injuries in 1994 
involved the wrist or arm and 9 percent involved the knee. Skiers 
experienced more knee injuries (27 percent of injuries) and fewer wrist 
or arm injuries (7 percent). Snowboarders and skiers were equally 
likely to sustain shoulder injuries (20 percent for snowboarders and 21 
percent for skiers).
    Over half the snowboarding injuries in 1994 occurred to persons age 
15-24. Males accounted for about 19,000 of the injuries. Although the 
sport has traditionally been popular among young men, snowboarding is 
quickly catching on as a family sport and is attracting more women each 
year.
    Most snowboarding injuries result from falling. Relatively few of 
the reported injuries involved collisions with trees, other 
snowboarders, or skiers. Factors contributing to snowboarding injuries 
include a lack of skill or instruction for novice snowboarders and high 
risk behavior.
    Since 1991, CPSC has received reports of five deaths from 
snowboarding, all involving males between the ages of 15 and 28. Most 
of the fatalities resulted from suffocation in deep snow.
    As the number of snowboarding participants surpasses 2 million, 
many ski resorts and facilities are offering snowboarding lessons and 
providing guidance on snowboarding etiquette to help prevent injury.
                      The Brakes on Culkin's Ride
                   The Washington Post, May 26, 1994
                             by Lois Romano
                 (Copyright 1994, The Washington Post)
    Warner Bros. might see it as just good fun and box office receipts, 
but the Consumer Product Safety Commission isn't laughing.
    The federal regulatory agency has strongly warned Warner that 
safety procedures had better be followed in scenes where child star 
Macaulay Culkin zooms around on a controversial all-terrain vehicle 
(ATV) in the upcoming ``Richie Rich.''
    And that means the appearance of safety as well. It might not be 
obvious on screen, for example, that 13-year-old Culkin's driving is 
being supervised by adults--or that he is not speeding. ``We want to 
make sure an adult is in the scene--otherwise the wrong impression is 
left,'' said CPSC general counsel Eric Rubel.
    The scene was shot recently, and a spokeswoman for Warner said last 
night that the company ``did its best to meet the guidelines suggested 
by the commission.'' Although the spokeswoman said Culkin wore a helmet 
and did not drive wildly or on pavement, she would not address the 
appearance issue.
    The CPSC claims the recreational vehicles have been responsible for 
more than 2,000 deaths in the past decade, nearly 900 of which were of 
drivers under 16.
    ``Kids don't know the difference between reality and the movies,'' 
Ann Brown, chairman of the CPSC, tells us. ``When they see a role model 
appearing to drive around unsafely, that sets a bad example.''
    The agency, which put guidelines in place in `87, got tipped off by 
a manufacturer contacted by Warner that Culkin would be driving an ATV. 
It is, in fact, the manufacturers that are subject to the regs; the 
CPSC has no enforcement authority over Warner. But, according to Rubel, 
the agency is studying whether it could expand its jurisdiction on the 
grounds that films are consumer products.
    (P.S. The film is based on the popular and very rich comic book 
character.)
          Study: Children at risk when sleeping in adult beds
                The Associated Press, September 29, 1999
    Supporting recommendations that all infants sleep in cribs, a new 
study found that an average of 64 young children die each year while 
sleeping in bed with their parents or other adults.
    Children risk getting their heads trapped or being rolled on by an 
adult when sleeping in adult beds, according to the study by the U.S. 
Consumer Product Safety Commission.
    The study, published in the October issue of the Archives of 
Pediatrics and Adolescent Medicine, found that the greatest number of 
deaths involved children under 1 who became trapped between a mattress 
and a bed frame. Children also can suffocate on waterbeds or in 
depressions in mattresses, the report said.
    Researchers who examined three commission databases found that 515 
children died from 1990 through 1997. They said it is difficult to 
determine whether that number is accurate because the databases do not 
include all bed-related deaths for children under 2. But the 
researchers didn't know of a better source of information than the 
databases.
    James McKenna, a University of Notre Dame professor who has studied 
parent-baby sleeping, took issue with the researchers' warnings that 
mothers who sleep with their infants to encourage breast feeding may be 
putting their children at risk.
    ``The recommendation tries to simplify a very complicated issue, 
and it suggests that all bed-sharing is dangerous, which is not true,'' 
McKenna said.
    He said his studies show that even in the deepest stages of sleep, 
mothers respond within seconds to their baby's slightest noises. He 
said the only time his studies have shown parents to be unresponsive is 
when they are desensitized by drugs, alcohol or some other means.
                      Beware, the Parenting Police
                  The New York Times, October 1, 1999
                           By Penelope Leach
              (Copyright 2002, The New York Times Company)
LONDON--In the Western world, anxious parents love to follow scientific 
studies that tell them what to do with their babies.
    The Federal Consumer Product Safety Commission played into this 
obsession on Wednesday when it issued a stern warning: parents who 
sleep with their babies and toddlers are at risk of accidentally 
smothering or strangling them.
    Before making such a stark declaration of cause and effect, a 
government agency should make its case very carefully. In this 
particular instance, one would expect the commission to establish 
beyond a doubt that some babies died solely because they were sleeping 
in their parents' beds.
    But it did nothing of the kind, and its dire warning could end up 
hurting, rather than helping, parents and their babies.
    First, as its authors admit, the study did not adequately account 
for other risk factors. It found that from 1990 to 1997, 515 children 
under the age of 2 died as a result of sleeping in their parents' beds. 
How did the study determine this? It looked at the death certificates 
of infants, coroners' reports and news accounts.
    But death certificates often don't mention other risk factors. Did 
the parents drink? Did they smoke or take drugs? Above all, were the 
babies lying on their stomachs? All these elements have been shown to 
play roles in sudden infant death syndrome.
    Three other studies, in the United States, New Zealand and Britain, 
reported no direct risk to babies from sleeping in parents' beds. The 
studies, published in medical journals in 1996, 1997 and 1999, blamed 
other factors for deaths. The New Zealand research found that sudden 
infant death syndrome could be reduced by 35 percent if babies slept on 
their backs instead of their stomachs. This is now accepted advice 
everywhere.
    Even without definitive scientific proof, is there any harm in 
warning parents that it may be dangerous to sleep with their babies? 
Well, yes. We are talking about something that is very important in the 
lives of many parents. Being close at night helps parents bond with 
their babies, and for mothers who aren't at home during the day, bed-
sharing is a vital aid to breast-feeding.
    What happens if mothers are convinced that their duty is to keep 
the baby in the crib? How many will get up night after night when a 
baby cries, nurse the baby, rock the baby to sleep, put the baby back 
in the crib, then go to bed? When a mother nurses an infant in her bed, 
both get more sleep.
    The new study seems to play to the vulnerability of Western 
parents, who, lacking traditional supports like extended families, 
village elders and traditions, rely on experts.
    For instance, an obstetrician says, ``For the sake of the baby, you 
must have a C-section.'' Any woman has to say yes. No wonder more than 
a fifth of all births in the United States are by Caesarean.
    I'm not knocking experts, but I do think we should avoid offering 
advice until we're absolutely sure that it accounts for every variable. 
How many times has one study come out, only to be contradicted by 
another?
    And sometimes experts should trust the parents. As long as the 
parents don't drink, smoke, sleep with thick comforters or put babies 
on their stomachs, there is no real evidence against sleeping with a 
baby, as most people in the world do.

    Senator Wyden. Mr. Chairman, I will wrap up with this, by 
way of saying that certainly, Ms. Gall, there are examples 
where the federal government has overreached in a variety of 
areas, but when you use the words ``federal Nanny State'' in a 
lot of quarters that is code for saying that there should not 
be an activist role for the government in the consumer 
protection area. That is something that I profoundly disagree 
with.
    So I am here to listen. I think there are a number of 
issues that need to be explored, but I will tell you, to vote 
for you I need to be confident that your philosophy is not 
incompatible with the basic mission of the Consumer Product 
Safety Commission to protect the consumer, kids, seniors, and 
others, because otherwise we are talking about bringing a fox 
into the henhouse, and that is something I cannot support. I 
look forward to exploring these issues with you this morning.
    Thank you, Mr. Chairman.
    The Chairman. Very good.
    Senator Kerry.

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Thank you, Mr. Chairman.
    Mr. Chairman, I think there is a distinction between 
membership and leadership as the chairperson of any commission. 
I think it is appropriate for the Committee to measure any 
nomination by a different standard, if you will. That does not 
suggest that there is an automatic difference in capacity of 
the nominee. I do not suggest that at all.
    I do not come here with my mind made up. I do have 
questions, and I want to ask those questions and gain some 
insights on the nominee's thinking about a number of areas. I 
think that is fair. That is precisely what the confirmation 
process is supposed to be about.
    However, the CPSC is an entity that is not very well 
understood and not very visible, yet it has a profound impact 
on the lives of our citizens. There are some 15,000 consumer 
products that it oversees. Among those are thousands of 
products that are available to our children. We have some 
22,000 deaths a year related to consumer products. That is 
half, almost half the deaths a year of the Vietnam War over 10 
years, and we know what that did to this country.
    So every year, 22,000 people, because of some product they 
are using, die and almost 30 million are injured. The CPSC's 
mission that we have charged it with is to reduce the 
occurrence of deaths and injury and to try to find ways to warn 
people about foreseeable consequences of either legitimate use 
or, in many cases, the foreseeable non-legitimate use. There 
are certain products where you know someone might go out and 
use it a certain way and you want to warn them accordingly.
    There are also sometimes incidental things, like the 
question of sudden infant death syndrome and parents sleeping 
in beds with their children, in which the Commission has had 
varying attitudes. Those instances have elicited some of the 
comments that our colleagues have made with respect to 
judgments you have made, and I think we need to explore that.
    The bottom line is that the Chairperson needs to be a 
vigorous advocate on behalf of consumers and especially 
children, and this Committee wants to ensure that the next 
Chair is really going to enforce the Consumer Product Safety 
Act fully, completely, according to the intent of Congress. We 
want a Chair who reinforces the idea that products should be 
designed safe at the outset and that people should be fairly 
notified about the potential consequences of their use.
    Now, none of us want a federal government that is replacing 
parenthood and responsibility and so forth. I think we 
understand that. But, I share my colleagues' concern about code 
words and about people's interpretations, and I look forward to 
exploring with you, and I certainly hope that the Committee can 
find adequate comfort that the consumer product safety law and 
the Commission will continue to do what they are intended to 
do.
    Thank you, Mr. Chairman.
    The Chairman. I believe Senator Allen is next, or maybe it 
is Senator Burns.
    Senator Burns.
    Senator Burns. Pass.
    The Chairman. Very good.
    Senator Boxer.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Mr. Boxer. Mr. Chairman, I ask unanimous consent that my 
entire statement be included in the record, and I will 
summarize in just a moment.
    The Consumer Product Safety Commission was created in 1972 
and its mission is ``to protect the public against unreasonable 
risks of injuries and deaths associated with consumer 
products.'' That is the mission.
    As the committee with jurisdiction over the activities of 
the CPSC, I think it is our responsibility to make sure that 
the head of the Commission is someone consumers can trust 
completely to protect them. I think this hearing clearly gives 
us the opportunity to decide whether this nominee is the right 
choice.
    I had a very pleasant meeting with Ms. Gall, and I was very 
open with her, and I told her I had two areas of concern that I 
will be exploring, and I know others will as well. The concerns 
are these: one, I see a tendency as a member of the Commission 
to blame consumers when injuries occur from products; and two, 
I see an unwillingness to subject industry to mandatory 
regulations even when the evidence indicates that voluntary 
standards are not working to reduce safety hazards and to 
prevent injuries.
    I am also concerned that this philosophy, if I am right on 
thinking that is what we have here, could well victimize 
innocent children and the elderly, who do not have as much 
dexterity or strength as others.
    I believe in the mission of the Consumer Product Safety 
Commission, and I particularly think it is the most vulnerable 
that need to look to the Commission as a leader in this area. 
Call me old-fashioned, but I do believe someone who is chosen 
to head a Commission such as this should be a fierce, fierce 
advocate.
    As a Commissioner, it is a different situation. There may 
be a reason to put someone on the Commission to add a certain 
balance to it, but I do believe the head of this Commission 
should be someone fiercely dedicated to protecting the most 
vulnerable, who are the most likely to be injured.
    So Mr. Chairman, I look forward to this hearing. I thank 
you very much.
    [The prepared statement of Senator Boxer follows:]

               Prepared Statement of Hon. Barbara Boxer, 
                      U.S. Senator from California
    Mr. Chairman, thank you for calling this hearing on the nomination 
of Mary Sheila Gall to Chair the Consumer Product Safety Commission 
(CPSC). The CPSC was created in 1972. Its mission is to ``protect the 
public against unreasonable risks of injuries and deaths associated 
with consumer products.''
    As the U.S. Senate Committee with jurisdiction over the activities 
of the CPSC, it is our responsibility to make sure that the head of the 
Commission is someone consumers can trust to protect them. This hearing 
gives us an opportunity to investigate whether Commissioner Gall is 
such a person.
    In my review of her record, I see two areas of concern that I hope 
Commissioner Gall will address here today:

  <bullet> One--A tendency to blame consumers when injuries occur from 
        products; and

  <bullet> Two--An unwillingness to subject industry to mandatory 
        regulations even when the evidence indicates that voluntary 
        standards are not working to reduce safety hazards and to 
        prevent injury.

    I know that the nomination process is difficult and I expect the 
questioning during this hearing to be rigorous. Like many of my 
colleagues, I am concerned that Commissioner Gall's philosophy is 
contrary to what I believe should be the philosophy of the Chair of the 
CPSC and that is to protect consumers from harm.
    I am also concerned that this philosophy could well victimize 
innocent children and the elderly who do not have as much dexterity or 
strength as others.
    I believe that is why the CPSC was established: to protect 
consumers, particularly the most vulnerable, from death and injury 
caused by dangerous products. I look forward to hearing from 
Commissioner Gall as to why she believes the CPSC was established and 
how she intends to carry out that mission in light of her record on 
products such as bunk beds, baby bath seats, and baby walkers.

    The Chairman. Senator Ensign.

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. Thank you, Mr. Chairman. I also ask 
unanimous consent that my full statement be made part of the 
record.
    The Chairman. It will be included.
    Senator Ensign. Mr. Chairman, thanks for calling this 
hearing today, and I am pleased to lend my support to the 
President's nominee, Mary Sheila Gall, as Chairwoman to the 
Consumer Product Safety Commission. It should be noted that 
Commissioner Gall has a distinguished record of public service, 
having served her country for almost 30 years in many executive 
and legislative branch positions.
    Commissioner Gall has also extensive experience with 
consumer safety issues, having served as Commissioner since 
1991, and as Vice Chairman of the Commission for the past 5 
years. Commissioner Gall also served as Assistant Commission of 
the U.S. Department of Health and Human Services in the first 
Bush Administration, where she worked closely on issues 
affecting children, families, and the disabled.
    Mr. Chairman, I have three small children, deal with safety 
issues all the time, everything from car seats to a pool in our 
back yard that is fenced in and it is a constant fear. I think 
that parents are so much more aware today of the dangers of 
products and we all want the safest products possible.
    But I also understand, because I read so often about 
products being out there in the marketplace, where parents were 
frankly just completely irresponsible. We want the safest 
products as possible, but we also do not want a marketplace in 
which personal responsibility never comes into play. There are 
cases in which parents were unattentive and children drowned. 
Well, if you know anything about having children around water, 
you never leave children unattended, whether it is a pool or 
whether it is a bathtub. You do not answer the phone. You do 
not do anything that would leave the children unattended.
    I think what Ms. Gall has demonstrated is that balance, 
understanding that personal responsibility as parents has to 
come into play as well when we are looking at whether a product 
caused a situation or whether the parents had some culpability. 
As tragic as it is when accidents happen, we can never prevent 
100 percent of accidents from happening.
    So I lend my support to Ms. Gall because I believe that she 
has the interest of parents, the interest of children, in mind, 
but also the interest of some reasonable balance in all of 
this.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Ensign follows:]

                Prepared Statement of Hon. John Ensign, 
                        U.S. Senator from Nevada
    Thank you, Mr. Chairman for calling this hearing today. I am 
pleased to lend my support for the President's nominee, Mary Sheila 
Gall, to Chairwoman of the Consumer Products Safety Commission.
    It should be noted that Commissioner Gall has a distinguished 
record of public service, having served her country for almost 30 years 
in many executive and legislative branch positions.
    Commissioner Gall also has extensive experience with consumer 
safety issues, having served as Commissioner since 1991, and as Vice 
Chairman of the Commission for the past five years. Commissioner Gall 
also served as Assistant Secretary to the US Department of Health and 
Human Services in the first Bush administration, where she worked 
closely on issues affecting children, families, and the disabled.
    At the Commission, Commissioner Gall demonstrates a strong 
commitment to ensuring product safety in the marketplace by balancing 
the interests of consumer safety and private business.
    Commissioner Gall's nomination is supported by the National 
Association of State Fire Marshals, the American Textile Manufacturers 
Institute, as well as by one of her current colleagues, Commissioner 
Thomas Moore.
    The Consumer Product Safety Commission is a vital component in 
protecting the public against harmful or flawed consumer products. It 
is imperative that the Commission adhere to its mission of working with 
the business community to protect the public from risk, injury, or even 
death.
    I believe that Mary Sheila Gall demonstrates the expertise and 
commitment to public safety necessary to achieve the mission of the 
CPSC, and I will support her nomination to be Chairwoman.
    Again, thank you Mr. Chairman.

    The Chairman. Very good.
    Senator Breaux.
    Senator Breaux. I am here to listen and learn, and I will 
pass.
    The Chairman. Thank you.
    Senator Edwards.

                STATEMENT OF HON. JOHN EDWARDS, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Edwards. Thank you, Mr. Chairman. I will be very 
brief because I am looking forward to the opportunity to ask 
the witness questions.
    The Consumer Product Safety Commission, in my judgment, 
plays an enormously important role in this country, providing 
protection for consumers from products that are unsafe and 
particularly providing protection for those who cannot protect 
themselves, young children and babies. Obviously, the Chairman 
of that commission has an elevated responsibility over the 
other commission members. So I am very interested.
    I am still open-minded, still willing to listen to and 
interested in listening to your answers to questions. I do have 
to tell you, Ms. Gall, I have reservations, though, and those 
reservations grow out of some instances in your record where it 
appears that fairly minor changes could have been made in 
products that would have made them safer, would have protected 
kids, and your reaction seems to have been to find the 
responsibility with others--parents, adults.
    I just have to tell you, I do not think--and I agree only 
with part of what my colleague from Nevada just said. I also 
have young children. I have a 1 year old and a 3 year old. 
There is no question that I have an enormous responsibility to 
those children. There is also no question that they cannot 
protect themselves.
    If they are exposed to a product that could by reasonable 
means be made safer, that would keep them from being hurt, I do 
not think that and parental responsibility are mutually 
exclusive. I think in fact we ought to do both. We ought to do 
everything in our power to make sure parents are properly 
educated about the dangers associated with products. But at the 
same time, these kids cannot help themselves. They cannot 
protect themselves.
    I think the Chair of the Consumer Product Safety Commission 
has an enormous responsibility to those children who cannot 
protect themselves, and anything that can reasonably be done to 
make a product safe ought to be done. It appears to me from 
looking at what I have seen so far, but I want us to talk about 
it, that thousands of children have been injured by products 
that you did not believe were defective, that you did not 
believe needed to be changed. Those are the things I think we 
need to talk about during the course of this hearing.
    But I am very interested in your answers. I do have serious 
reservations because of the reasons I have just stated, but I 
look forward to asking questions.
    Thank you, Mr. Chairman.
    The Chairman. The Chair is pleased to recognize our 
distinguished member, Senator Allen.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you. Thank you, Mr. Chairman and 
members of the Committee.
    It is my privilege to introduce an outstanding Virginian 
from McLean, Fairfax County, Mary Sheila Gall, for your 
consideration. I know you already have been considering her for 
Commissioner of the Consumer Product Safety Commission, as 
Chair.
    I know many remarks, Senator Ensign and Senator McCain, 
have mentioned some of the things in here. This is obviously a 
hearing on consumer protection and I want to make sure it is 
not witness protection needed in this.
    Listening to Senator McCain--excuse me--Senator Edwards, I 
think that you will find in Mary Sheila Gall somebody who does 
balance needs. Yes, consumer protection needs to be an issue 
that clearly the government has a role in warning and making 
sure products are safe, and then there is also obviously a 
parental responsibility.
    You see it all over the world with different approaches. 
Listening to Senator Edwards, it struck me. I remember on a 
trade mission trying to promote Virginia peanuts in Great 
Britain. You know, Virginia style peanuts, many of which are 
grown in North Carolina as well, are the best and the largest 
peanuts. It is true, a fact.
    But trying to promote those peanuts in Great Britain with 
KP Foods, they say, we have a hard time getting mothers to buy 
peanuts for their kids. I said, well, what is the reason? They 
say, well, there is a government warning label that we have to 
put on all these packages that says small children may choke on 
these contents, which makes mothers very worried about them 
giving their children peanuts. The Virginia style peanuts grown 
in eastern North Carolina and Virginia, of course, being the 
biggest, are probably even more of a danger.
    This is truly a marketing problem for them. And I said: You 
know, in the United States our mothers and parents tell kids to 
chew their food before they swallow it. But nevertheless, those 
warning labels end up having an impact on the export of our 
products.
    But regardless of all that, that little instruction in 
British consumer protection harming young children, not being 
able to eat nutritious peanuts because of the fear of the 
warning label. Ms. Gall received her bachelor's degree, Mr. 
Chairman, from Rosary Hill College in Buffalo, New York, and, 
more importantly, her master's degree in special education from 
Old Dominion University in Norfolk, Virginia.
    She has called Virginia home for the last 20 years. I am 
also happy to see two members of her family here, daughter Rosa 
and son Walter. If you would please stand up. It is good to see 
you both here. Thank you for coming.
    Mrs. Gall, Mr. Chairman, has had a long, distinguished 
record of public service, including her last 10 years as one of 
the Commissioners of the Consumer Product Safety Commission. 
She was first nominated by President Bush, the first President 
Bush, in 1991, and then nominated again by President Clinton in 
1999. For the last 5 years Ms. Gall has served as Vice 
Chairperson.
    I feel that her judgment, her experience and well-grounded 
philosophy make her an exceptional choice to serve as the 
Chairperson of the Commission. Her long and distinguished 
career in government also includes service as Assistant 
Commissioner of the Human Development agencies in the United 
States Department of Health and Human Services, where she was 
responsible for 55 Federal programs serving children, families, 
people with disabilities, the elderly, and Native Americans.
    She also served as counselor to the Office of Personnel 
Management and chaired President Ronald Reagan's Task Force on 
Adoption.
    Mary has been a very strong proponent of consumer 
protection, especially for children. Her thoughtful and 
exhaustive review is tied closely to the law and the intent of 
Congress, and in trying to figure out what the intent of 
Congress is she tries to utilize reasonable industry standards 
whenever possible.
    Now, when those voluntary standards are not possible, when 
regulatory action is called for, she seeks a reasonable, 
science-based approach, supporting such proposals of regulation 
nearly 90 percent of the time when regulation is indicated.
    Now, I am confident, Mr. Chairman and members of the 
Committee, that Ms. Gall's background and experience, 
especially in the area of product safety, and her concern for 
her fellow human beings will enable her to continue her 
outstanding service and contribution to Americans in her new 
role as Chairperson of the Consumer Product Safety Commission.
    So Mr. Chairman and members of the Committee, it is my 
pleasure to introduce and present to you Mary Sheila Gall, an 
exceptional nominee, this morning and wholeheartedly recommend 
her confirmation.
    Thank you, Mr. Chairman.
    The Chairman. We thank you very much.
    [The prepared statement of Senator Carnahan follows:]

               Prepared Statement of Hon. Jean Carnahan, 
                       U.S. Senator from Missouri
    Thank you Mr. Chairman. The Consumer Product Safety Commission is 
the federal agency principally responsible for protecting the public 
against the unreasonable risk of injuries and death associated with 
consumer products.
    I expect the Chair of this agency to be a vigorous advocate for 
consumers willing to support reasonable health and safety regulations.
    Mr. Chairman, I approach today's hearing, as I approach all 
Presidential nominations, with a predisposition towards supporting the 
President's choice. However a number of serious questions have been 
raised about Commissioner Gall's approach to the CPSC that have caused 
me to have some misgivings.
    Of course the President is entitled to deference on his 
nominations.
    But if it is determined that a nominee is not committed to the 
goals Congress has established for the agency to which he or she has 
been nominated, it is appropriate for the Senate to withhold its advice 
and consent. This is particularly true if the nominee is to serve as 
the agency's chair.
    As a member of the Senate, charged with providing advice and 
consent, I am seeking to determine whether my concerns about Ms. Gall's 
approach to the CPSC rise to such a level to warrant rejection of her 
nomination.
    I look forward to hearing Ms. Gall's testimony today. I will pay 
particular attention to her responses to my questions and the questions 
of my colleagues. Thank you, Mr. Chairman.

    The Chairman. We are now pleased to recognize Ms. Gall.

         STATEMENT OF MARY SHEILA GALL, COMMISSIONER, 
               CONSUMER PRODUCT SAFETY COMMISSION

    Ms. Gall. Thank you, Mr. Chairman. Before I begin, I have a 
full statement that I would like to submit for the record.
    The Chairman. It will be included.
    Ms. Gall. Thank you so much.
    First I would like to thank Senator Allen for his gracious 
remarks and his tremendous support for my nomination, and 
remind me to buy some Virginia peanuts. I would also like to 
thank Senator McCain and his staff for their continued support 
and, Mr. Chairman, I would like to thank you and your staff for 
scheduling this hearing and the cooperation they have given me 
in the preparation for this hearing.
    I note that the Vice Chairman of the Consumer Product 
Safety Commission is here with me today, Commissioner Thomas 
Moore. Commissioner Moore is a life-long Democrat, a Clinton 
appointee, and actually worked for Senator Breaux for some 
years. He is here with his entire staff today to demonstrate 
their sincere support for my nomination, and I thank him for 
being here.
    I guess I better stop thanking people now or it will sound 
like the Academy Awards. I do want to say I very much 
appreciate the demonstration of faith that the President has 
given by honoring me with the nomination to be Chairman of the 
Consumer Product Safety Commission.
    As has been noted here this morning, I have 30 years of 
honorable public service in the executive and legislative 
branches. I have spent the last 10 years serving at the 
Commission as a Commissioner, embracing fully the mission of 
the Commission, and I have been delighted to work alongside an 
expert and committed and dedicated staff.
    As mentioned earlier, I was nominated by President Bush in 
1991, nominated for a second time by President Clinton. Both 
those times I was reported out of Committee without objection 
and confirmed unanimously by the Senate.
    I have been privileged to serve with two CPSC Chairmen, Ann 
Brown and Jacqueline Jones Smith. If confirmed, I want to build 
upon their successes. In addition to the work we have under way 
at the Commission now, I would like to focus attention on some 
other initiatives: some new ideas in fire safety, greater focus 
on international issues, outreach to the elderly and our senior 
citizens, and improving ways to reach hard-to-reach populations 
with our important safety messages, recall alerts, and so on.
    Our biggest challenge at the Commission is the issue of 
resources. We have a number of new laws that require us to do 
certain activities that will bring about significant 
expenditures. Some of those are new data security measures, 
telecommuting, electronic commerce, and access by individuals 
with disabilities. We also are facing some important 
expenditures for critical investments at the Commission, 
including database integration, laboratory modernization, and 
hopefully a research budget to continue our good work.
    In the 10 years I have been a Commissioner, I have cast 
almost 700 votes and some persons disagree with some of the 
votes that I have taken. That is understandable. I am sure you 
all have had occasion to have some folks disagree with some of 
the votes that you have cast. My written statement contains an 
explanation in detail of some of those votes that have been 
mentioned as criticism and I hope you will take a few minutes 
to take a look at those explanations.
    I ask that you consider my nomination in its entirety, the 
record in its entirety. I have voted with the majority 97 
percent of the time in matters of enforcement, 97 percent of 
the time. I have voted with the majority in all other matters 
presented to the Commission 93 percent of the time. With regard 
to regulations only, I have voted with the majority almost 90 
percent of the time. Clearly, I think this is a record of 
someone who is committed to consumer protection and the mission 
of the agency.
    If I am confirmed by the Senate, I will provide energetic 
and consistent leadership to ensure the agency stays on course 
with its crucial mission to protect American consumers from 
unsafe products. I would be happy to answer any questions that 
you may have.
    [The prepared statement and biographical information of Ms. 
Gall follow:]

         Prepared Statement of Mary Sheila Gall, Commissioner, 
                   Consumer Product Safety Commission
    Good morning, Mr. Chairman and Members of the Committee. My name is 
Mary Sheila Gall and I am honored to appear before you today as 
President George W. Bush's nominee for Chairman of the Consumer Product 
Safety Commission.
    I have served as a Commissioner of the CPSC since December 1991. I 
was renominated to a second seven-year term by President Clinton in 
1998, and confirmed by the Senate in 1999. As a result of my nearly ten 
years of active service at the Commission, I am thoroughly aware of its 
statutory responsibilities and procedures, its day-to-day operations 
and the regulatory, enforcement and other issues that Commissioners and 
the Chairman must confront. Prior to my service with the Commission, I 
served as an assistant secretary in the Department of Health and Human 
Services, where I oversaw 55 federal programs, a staff of approximately 
1,000 employees and an annual budget of five billion dollars. I also 
worked in the White House and for a number of Members of Congress. 
These almost thirty years of public service in both the legislative and 
executive branches of government help me to understand the Commission's 
functions and how it interacts with Congress, the regulated community 
and the other stakeholders who have an interest in the Commission's 
mission and operations.
    For Senators who are new members of the Committee, let me provide 
some background. The mission of the Commission is to protect consumers 
from unreasonable risk of death and injury associated with the 
approximately 15,000 types of products within its jurisdiction. The 
Commission's major programs are designed to (1) identify and analyze 
product hazards, (2) assist industry in developing voluntary product 
safety standards, (3) monitor compliance with voluntary standards, (4) 
issue and enforce mandatory product safety standards, (5) obtain 
recalls of dangerous products, (6) penalize companies that violate the 
law and the Commission's regulations, and (7) inform and educate the 
public about potential product risks.
    To carry out this mission, the Commission employs approximately 480 
FTE's, about two-thirds in the Commission's Bethesda, Maryland 
headquarters and Gaithersburg, Maryland laboratory, and about one-third 
in its field offices. The Commission's budget for fiscal year 2001 is 
52.4 million dollars and the request to Congress for fiscal year 2002 
is 54.2 million dollars.
    The Commission is authorized to have five Commissioners but has 
been operating with three since the mid-1980's. The Consumer Product 
Safety Act requires an explicit partisan division among the 
Commissioners. Thus when Congress created the Commission it not only 
provided that regulatory decisions should be made by a collegial body, 
and not be a single official, but that that collegial body itself 
should have members of different political philosophies. If only one 
point of view was expressed a large segment of the public would never 
have their views heard. The Commissioners are available to critique one 
another's reasoning, and this leads to better and more informed 
decisions.
    The rest of this statement is divided into two parts. The first 
will address the challenges that I see lying ahead for the Commission, 
and how I believe that the Commission can meet them. In the second, I 
address certain aspects of my record as a Commissioner. I am aware that 
there is some opposition to my nomination. I intend to address the 
issues that I have heard raised and to state why I took the positions 
that I did. I think when you read the entire record that was before the 
Commission, even people who continue to disagree with me will 
understand the basis for my actions.
               Commission Accomplishments and Challenges
    The Consumer Product Safety Commission is a strong and effective 
organization, one that gives the American taxpayer great value for the 
resources devoted to it. The Commission has grown stronger during the 
tenure of the two Chairmen with whom I have been privileged to serve. 
Chairman Jones-Smith oversaw the move of the Commission to its new 
headquarters in Bethesda, and worked with Congress to reauthorize the 
Commission. Chairman Brown has raised the visibility of the Commission 
considerably during her tenure and has proven very effective in 
disseminating the Commission's safety message, particularly in the area 
of product recalls. The Commission has accomplished a great deal, 
especially in improving the safety of children's products. I intend to 
build upon this record of success, to be an effective steward of the 
mission of the Commission and of the public monies entrusted to it, and 
to enhance the efficiency of the Commission's operations.
Imports and Exports of Consumer Products
    There are three areas of Commission operations that I intend to 
emphasize if I am confirmed as Chairman. The first lies in the area of 
imported and exported consumer products. When the Commission began its 
work in 1973, relatively few of the products over which it had 
jurisdiction were imported. Today that situation has changed 
dramatically. Moreover, U.S. manufacturers have increased significantly 
their own export markets for consumer products. The large growth in 
imports and exports means that the Commission needs to be more active 
in protecting consumers from defective products while at the same time 
facilitating the obvious benefits of imports and exports.
Consumer Product Safety Standards Harmonization
    There are two ways in which the Commission can improve the safety 
of imported and exported consumer products. First, Commission technical 
staff should participate more in the effort to harmonize international 
product safety standards through U.S. representative bodies to 
international voluntary standards-setting organizations. It can also 
take advantage of the existing activity of U.S. government 
organizations such as the National Institutes of Standards and 
Technology, the International Trade Administration, and the Technology 
Administration within the Department of Commerce. Commission staff 
participation will give voluntary standards-setting organizations the 
benefit of both the technical expertise of Commission staff and its 
commitment to product safety.
    Product standards harmonization should never be an excuse to lower 
the level of protection available to American consumers. International 
consensus is not a justification for permitting the importation of 
products that pose an unreasonable risk of death or injury to American 
consumers. I am, however, confident that the excellence of both the 
U.S. standards-setting process, and of the standards that it produces, 
are apparent in the international arena, and that the effort to 
harmonize international product safety standards is worth the support 
and encouragement of the Commission.
Communicating with Importers
    The second area through which the Commission can improve the safety 
of imports is to communicate its safety message and requirements to 
industries and governments in other countries that export to the United 
States. The Commission already makes such efforts. Commission laws and 
regulations are available to anyone with access to the Internet through 
the Commission's web site. Commission representatives travel regularly 
to the People's Republic of China, to inform its industry and 
government representatives about Commission regulations, emphasizing 
products such as fireworks, toys, and cigarette lighters. We need to 
continue this effort and to disseminate the Commission's message to 
countries that may be exporting consumer products to the U.S. for the 
first time. The Commission should focus more on imports arriving from 
Mexico. The value of imports into the U.S. from Mexico more than 
doubled between 1994 ($49.5 billion) and 2000 ($136 billion). Given 
that dramatic increase in the volume of trade, the Commission needs to 
ensure that consumer products imported from Mexico meet U.S. safety 
standards. The Commission also needs to strengthen ties with Mexican 
government and private organizations that create, enforce, and monitor 
consumer product safety standards.
    The Commission's resources available to carry out this effort are 
limited while the resource requirements of disseminating information 
internationally are immense. In order to get the Commission's message 
out within its resource limitations, we need to leverage the resources 
of other government agencies through strategic alliances to better 
inform foreign governments, industries, and trade associations of 
Commission regulations and activities.
Getting the Commission's Message Out
    Another area that I believe can be improved is the Commission's 
communications with the public. The present Chairman has done a very 
good job in publicizing the Commission's product recalls through 
television appearances. The Commission will continue to use this 
important mass media outlet to reach members of the public. The 
Commission also has ongoing a pilot project with industry to see if the 
return rates of product registration cards can be improved. This pilot 
project needs to be completed, and the Commission needs to assess all 
other ways in which companies with product recalls and the Commission 
itself can expeditiously and efficiently inform consumers.
    Beyond notice of product recalls is the Commission's more general 
information and education effort. The Commission has improved its 
effectiveness in this arena, through such activities as baby safety 
showers, many of which are carried out in cooperation with 
congressional field offices. Another successful information and 
education effort has been ``Recall Roundup,'' an annual Commission 
project to inform the public about previously-announced recalls, where 
the Commission has reason to believe that unreturned and still 
dangerous products remain in the hands of consumers. Yet another 
successful campaign of information and education has been an inter-
agency effort known as ``Back to Sleep.'' This program tells new 
parents and other caregivers to place newborn infants on their backs to 
sleep. Various studies have shown that placing young infants in this 
position reduces the incidence of deaths associated with Sudden Infant 
Death Syndrome (SIDS), some cases of which may be related to 
suffocation in a face down sleeping position. Since the advent of the 
``Back to Sleep'' campaign, the SIDS rate in the U.S. has decreased by 
about 46% since 1992, saving the lives of more than 2,600 babies every 
year. All of these efforts should be continued and reinvented when 
necessary.
    The Commission needs to do more to get its message out to 
populations that have limited access to important consumer safety 
information. Efforts to reach minority and low-income populations will 
require all of the Commission's ingenuity and creativity. I intend to 
leverage Commission resources by working with community groups, plus 
state and local governmental entities and other federal agencies. The 
Commission needs to pay particular attention to our elderly citizens. 
America's elderly are particularly vulnerable to product safety hazards 
involving fires and falls. They are more likely to have older products 
that do not meet present safety standards, possibly even products that 
have been recalled by the Commission. Older Americans, especially the 
elderly over 85, represent the fastest growing segment of the U.S. 
population. The Commission needs to enhance its present information and 
education efforts that reach the elderly and initiate new efforts to 
reach them even more effectively. The National Fire Protection 
Association and the Centers for Disease Control have a program designed 
to reduce the incidences of fires and falls among our senior citizens. 
The Commission provided much of the information used by that campaign, 
and should remain involved in it, as well as using other innovative 
means to make sure that America's elderly citizens have the most up-to-
date and useful information to enhance their safety.
Resource Challenges and Better Operations
    The Commission will be facing a number of resource challenges in 
the next few years. These challenges must be met if the Commission is 
to continue its life-saving mission activities, while at the same time 
complying with the other mandates that Congress has given to it.
Public Access to Government Materials
    Recent legislation requires Federal agencies to improve public 
access to government materials. Virtually all of the agency records and 
reports that are publicly available at the Commission will need to be 
made available in an electronic format so that the public can gain 
access through and view them over the Internet. At the same time, 
sensitive Commission materials, such as cases under investigation by 
the Compliance staff, must not be disclosed. State of the art 
``firewall'' computer software will have to be maintained and 
continually upgraded.
    There are other new government-wide mandates that have substantial 
resource implications for the Commission. The Government Paperwork 
Elimination Act requires that much of what we do presently through 
paper must be done electronically. Fulfilling this requirement will 
require virtually universal use of electronic signatures. The mandate 
known as ``Section 508'' requires that all of the equipment that the 
Commission acquires be usable by persons with disabilities. Information 
made available to the public must also be made available for persons 
with disabilities. At this time, we have no specific dollar estimate of 
the costs of compliance with these requirements, but it is likely to be 
significant.
Telecommuting
    Congress has also passed legislation requiring federal agencies to 
adopt telecommuting programs that will cover an agency's entire 
workforce by April 2004. We are developing a pilot telecommuting 
program for Commission headquarters staff. The Commission has 
substantial telecommuting experience already from its implementation of 
a telecommuting program in the field. Our program in the field saved 
money, because the Commission was able to close a number of small field 
offices and reduce the sizes of others. We achieved savings overall, 
but the implementation of the telecommuting program required a 
substantial investment in new equipment. A telecommuting program for 
headquarters staff will be different, because it will be a part-time 
program, enabling employees to work from their homes at least one day a 
week. The Commission must maintain office space for employees and 
computer stations will need to be upgraded and modernized so that the 
employee can work effectively from both home and office. Telecommuting 
at headquarters will result not in budget savings but rather in 
increased outlays.
Laboratory Modernization
    The General Services Administration (GSA) is studying the existing 
Commission laboratory facilities and operations in Gaithersburg, 
Maryland. We expect GSA to recommend that the Commission undertake a 
five-year redevelopment plan to enable the lab to continue to support 
the Commission's operations. Without this redevelopment, lab operations 
will suffer. These operations are housed in facilities that were 
designed originally to support a Nike missile-tracking radar site from 
the early 1950's, not a modern laboratory. The FY 2002 Budget Request 
does not contain funding for this redevelopment plan.
    Without additional funds to invest, all of the requirements 
described above would eventually have to be satisfied by reductions in 
the Commission's operations. We will be unable to sustain our effort to 
integrate the Commission's hazard databases, to continue to modernize 
our information technology system, to maintain a replacement cycle for 
computers, or even to sustain our present level of activity. I intend 
to work aggressively to secure the funding for these critical 
investments and activities.
Better Operations
    The Commission, like any organization, is dependent for its success 
on very important people who work behind the scenes. Since the 
Commission is a data-driven agency, its ability to collect, analyze and 
disseminate data is crucial to its effectiveness. At the present time, 
the Commission maintains five databases: epidemiology, consumer 
complaint, news articles, and compliance, which has separate databases 
for its regulated products and for its other recalls. A Commission 
employee, trying to locate all of the Commission's death and injury 
information about a particular product, must search all of these 
databases. Moreover, some of this search must be through paper 
documents. We want to integrate our databases and to convert paper 
documents into electronic format. The Commission has made progress in 
this project, but it has been hobbled by resource limitations. 
Similarly, resource limitations have prevented the Commission from 
implementing a regular program of replacing and improving information 
technology equipment.
    In addition to problems caused by lack of resources in the area of 
information technology, the Commission has not had a research budget. 
If the Commission had a research budget, it could contract out for 
research into significant consumer product safety problems that require 
substantial resources to understand and to evaluate. For example, 
residential electrical distribution systems (e.g., circuit breakers, 
panel boards and wiring) were implicated in an estimated 38,000 fires, 
resulting in 280 deaths and $680 million in property damage in 1998. 
One project that the Commission has considered is conducting long-term 
testing and evaluation of the performance of circuit breakers and panel 
boards to determine if the safety standard for these products should be 
upgraded. It is true that industry performs research, but most of it is 
for product development, rather than to evaluate the overall safety of 
classes of products and the adequacy of voluntary safety standards. The 
research contemplated by the Commission will spur research and 
innovation by manufacturers. But the preliminary work must often be 
done by a government agency, which is why most other federal health and 
safety agencies have a separate research budget. As Chairman, I intend 
to work to secure the resources so that the Commission can integrate 
databases, meet its information technology needs, and undertake 
research projects.
                                 Record
    I have been a Commissioner since 1991. In that time I have cast 
almost 700 votes. I have, in addition, made a number of public 
statements, both in connection with those votes and in other contexts. 
Given that number of votes and public statements, I am bound to have 
taken positions on specific issues with which some people may disagree. 
I urge you to consider my record in its entirety, and not just one, or 
even several, votes on issues on which you find that you reach a 
different result.
Voting Record
    My voting record at the Commission shows that I do not hesitate to 
support recalls when products are dangerous, and to impose penalties 
when businesses have violated Commission regulations. On questions of 
enforcement, such as recalls, subpoenas and civil and criminal 
penalties, I voted approximately 97% of the time with the majority. My 
only disagreements were four votes: the amount of two civil penalty 
settlements; the timing of the issuance of a subpoena and special 
order; and the timing of the filing of an administrative complaint. I 
have always supported staff recommendations that an administrative 
complaint be filed seeking to have a product recalled. Similarly, I 
have always supported civil penalty and referrals to the Department of 
Justice to seek civil or criminal penalties.
    My voting record on regulatory matters does not differ a great deal 
from my record on enforcement matters. I have voted with the majority 
in approximately 93% of the votes that I have taken. There have been 
several votes I have cast against proceeding with regulation that have 
been criticized. I will address those votes and opinions below.
Baby Bath Seats
    The controversy surrounding baby bath seats is perhaps the best 
example of where I believe my opponents' criticism is misguided. Baby 
bath seats and rings are products designed to facilitate the bathing of 
a slippery, squirmy infant. They entered the U.S. market in the early 
1980s. Unfortunately, some caregivers left infants placed in such bath 
seats or rings unattended in tubs of water, with the tragic result that 
the infants drowned. In some cases, the infant ended up in the water 
because the bath seat overturned when the suction cups failed.
    In 1994, the Commission staff presented the Commission with a 
series of options, including an outright ban of the product. The staff 
recommended that the Commission issue an Advanced Notice of Proposed 
Rulemaking. Most of the discussion at that time centered on an outright 
ban of the product.
    I joined my colleague, Commissioner Jacquelyn Jones-Smith and voted 
against rulemaking. Commissioner Jones-Smith and I did instruct the 
staff to begin an information and education campaign to alert consumers 
about the hazards of leaving infants unattended in tubs, with or 
without a bath seat. I voted against beginning rulemaking at that time 
because my review of the in-depth investigations showed me that the 
presence of this product had nothing to do with the reasons that 
persons left infants unattended. The ``theory'' of the proponents of 
banning baby bath seats is that people are more likely to leave infants 
unattended in bath seats than they are without a bath seat. This theory 
had as its basis statements by persons who had left infants unattended 
in tubs with a bath seat. They said that they had left the child only 
for ``an instant'' or for ``a short time.'' When I read the in-depth 
investigations of these drowning incidents, however, which included 
police, medical examiner, emergency room, social worker and paramedic 
interview reports, they revealed that these caregivers had often left 
the victims unattended for extended periods, sometimes for over an 
hour. In one case, a baby sitter placed an infant in a bath seat in a 
stationery tub in the laundry room and left the room. The baby sitter 
admitted that she knew that the baby could turn the water faucets on. 
The baby did turn on the hot water and died of thermal burns over 85% 
of his body when hot water filled the tub. The baby sitter forgot about 
the baby in the tub until water flowed through several rooms before 
reaching the room in which the baby sitter was located. I simply could 
not find that the bath seat was in any way defective or determinative 
of why caregivers left infants unattended.
    In 2000, the Commission received a petition to ban baby bath seats. 
My review of the in-depth investigations showed the same pattern of 
infants left unattended in tubs for the same reasons, unrelated to the 
presence or absence of a bath seat. It is notable that my colleague, 
Chairman Ann Brown, who had voted to begin rulemaking in 1994 and who 
had generally favored a ban on the product, changed her position and 
said that a ban was not justified.
    The evidence before the Commission, however, revealed developments 
in the use of bath seats that caused me to reconsider the position that 
I had taken in 1994. The new data showed that infants were tipping over 
in bath seats and sliding through the leg openings even in the presence 
of caregivers. It also showed that bathtubs increasingly are being made 
of non-slip resistant material to which suction cups do not adhere. 
Finally, although progress had been made in developing a voluntary 
standard, it still did not deal with the issue of infants sliding 
through the seats, and its only attempt to address the problem of non-
skid bathtub surfaces was an inadequate labeling requirement on the 
packaging. As a result of these new developments, in May 2001, I joined 
my colleagues and voted to begin a rulemaking that has as its objective 
the development of a performance standard for baby bath seats.
    What conclusions should the Members of this Subcommittee draw from 
the bath seat example about my regulatory philosophy? As a regulator my 
task is to assess whether or not the product was defective, and whether 
it poses a substantial risk of injury to the public, the statutory 
criteria upon which the Commission is empowered to take action.
    In 1994, I found that the record would not support a ban, because 
the evidence before the Commission failed to show any characteristic of 
bath seats that induced caregivers to leave infants unattended more 
frequently or for longer periods than they did in the absence of a bath 
seat. In 2001, the evidence available to the Commission changed. The 
record still failed to show that the presence of a bath seat induced 
caregivers to leave more frequently or to stay away longer, but it did 
show that bath seats tipped over or children slid through leg hole 
openings in the presence of caregivers. Moreover, the Commission staff, 
which had not proposed any ideas for a performance standard in 1994, 
had several ideas about improving the stability/retention of bath seats 
and minimizing the hazard of infants becoming entrapped by sliding 
through the leg hole openings. I was, therefore, persuaded that 
beginning rulemaking was justified.
Baby Walkers
    In 1994, the Commission was petitioned to ban the sale of baby 
walkers. The Commission staff recommended that the Commission begin 
formal rulemaking to develop mandatory performance standards for baby 
walkers. I voted against rulemaking in this case for two reasons. 
First, the record showed that just as many babies fell down stairs who 
were not in walkers as fell down stairs who were in walkers. This fact 
suggested to me that the real problem was an open staircase. The simple 
act of closing a door or using a safety gate would protect babies in or 
out of walkers. Second, I thought that any changes needed in the 
product could best be addressed through the voluntary standards setting 
process. The Commission staff and industry worked together to develop 
voluntary standards that prevent babies in walkers from going down 
stairs. These standards appear to be adequate and compliance with them 
appears substantial.
Bunk Beds
    The question of whether and how to regulate bunk beds posed a 
different issue. In the cases of baby bath seats and baby walkers, the 
product contemplated some level of caregiver involvement and 
supervision. One should never leave an infant alone in a tub of water 
and one should always block access to hazards such as stairs that might 
threaten a child in or out of a baby walker. Bunk beds, however, 
contemplate that the caregiver will leave the child unattended while 
the child sleeps. Thus, the design and construction of the bunk bed 
must give the child a safe place in which to sleep, separate and apart 
from the actions of the caregiver. Some bunk beds had guard rails or 
end pieces with spacing that resulted in fatal entrapments of children.
    The bunk bed industry was aware of this problem and first adopted 
safety guidelines in 1978. By the time that the Commission considered 
its mandatory rule, the industry voluntary standard had virtually 
eliminated the entrapment hazard and differed from the mandatory rule 
in only minor technical points. In my experience as a Commissioner, I 
have found few voluntary standards groups that have been as responsive 
to the Commission's concerns as the bunk bed industry.
    Both the Consumer Product Safety Act and the Federal Hazardous 
Substances Act require that the Commission not promulgate regulations 
if an existing voluntary standard eliminates or adequately reduces the 
risk of injury, and it is likely that there will be substantial 
compliance with the voluntary standard. In the case of bunk beds, the 
voluntary standard had been effective and had been under constant 
revision to make it even more effective. Moreover, compliance with the 
voluntary standard in the seven years preceding adoption of the 
Commission of the mandatory standard had been in excess of 90%, and may 
have been 100% at the time that the Commission adopted the rule. It was 
my view that the statutory criteria were more than fulfilled by the 
record before the Commission, and I voted, therefore, not to adopt the 
mandatory standard. By the time that I voted, the bunk bed industry, 
threatened by inconsistent state legislation mandating bunk bed 
specifications, had changed its position and actually favored a 
mandatory standard. Since the time that the mandatory standard has gone 
into effect the Commission staff negotiated the recall of 200 bunk beds 
in October 2000 as a result of a collapsing hazard covered by the 
voluntary, but not the mandatory, standard. There will be an intensive 
program in the field to search for non-conforming bunk beds in the fall 
of this year.
    The basis of my decision against a mandatory standard for bunk beds 
was very different from the basis of the decision in baby bath seats 
and baby walkers. I did not vote against a mandatory standard because 
the product could be used safely with reasonable caregiver attention, 
or even with reasonably foreseeable misuse. I did not cite caregiver 
neglect as a basis for opposing regulation, even though the record 
showed that most of the bunk bed fatalities occurred when infants were 
placed on bunk beds, a clear misuse of the product that is warned 
against. Rather, I rejected a mandatory standard because the statutes 
under which the Commission operates require that it defer to the 
voluntary standard under these circumstances. Congress made the 
voluntary versus mandatory standards policy call when it amended the 
Commission's statutes in 1981 and the Commission must adhere to this 
Congressional direction.
Crib Slats
    The Commission has had crib spacing regulations in effect since 
1973 and they have helped to reduce significantly the number of 
fatalities associated with entrapments in cribs. The Commission's 
mandatory standard does not include criteria for structural or 
mechanical integrity of cribs. There is, however, an ASTM voluntary 
standard governing crib integrity, which was first published in 1989 as 
a result of a Commission staff request. The Juvenile Products 
Manufacturers Association (JPMA) has a third party certification 
program in place for cribs.
    Between January 1985 and September 1996 the Commission became aware 
of incidents in which the crib slats disengaged from the side rails. 
Once the slats came loose from the side rails, they were free to move, 
which could create an entrapment hazard. The Commission staff asked 
that the ASTM subcommittee consider adopting a Canadian standard that 
required crib slats to withstand a certain amount of torquing 
(twisting) force.
    Manufacturers were concerned that the Canadian standard would not 
detect the type of problem that caused crib slats to separate from crib 
rails. Eventually the Commission staff agreed, and proposed an 
amendment to the voluntary standard different from the Canadian 
standard. I voted against publishing an Advance Notice of Proposed 
Rulemaking. I did so because I believed that the Commission had not 
given the voluntary standards setting process sufficient time to test 
and to comment on the standard that the staff was then proposing. For 
most of the time that the voluntary standards subcommittee had been 
considering the issue, the Commission staff had been advocating the use 
of the Canadian standard that the staff itself eventually conceded was 
inadequate. At the time that the Commission was asked to vote on the 
ANPR, the Commission staff-proposed standard, which was much different 
than what the staff had recommended previously, had been before the 
voluntary standards subcommittee only about two and a half months. The 
subcommittee chairman had committed to considering the standard as 
early as the very next month. Manufacturers needed time to test and 
evaluate the staff-proposed voluntary standard. Under the circumstances 
I believed that it was premature for the Commission to begin rulemaking 
while the voluntary standards setting process appeared to be actively 
considering and in the process of adopting a standard. I did note in my 
statement that there was a definite problem with crib slats, and that 
mandatory rulemaking remained an option if sufficient progress was not 
made on the voluntary standard. The ASTM subcommittee did adopt a 
voluntary standard that the Commission staff found acceptable and which 
became effective in March 2000. The Commission staff is presently 
monitoring the extent of compliance with the voluntary standard in 
order to determine whether it can recommend the withdrawal of the ANPR.
    In both my decisions on bunk beds and on crib slat retention, the 
issue of deferral to voluntary standards was crucial. A preference for 
voluntary standards is not just my own personal decision as a 
Commissioner. Rather the Commission's own governing statutes require 
deferral to a voluntary standard whenever compliance with the voluntary 
standard would eliminate or adequately reduce the risk of injury 
addressed by the voluntary standard, and it is likely that there will 
be substantial compliance with the voluntary standard. Congress has 
itself adopted voluntary standards when it has chosen to legislate 
product safety standards. For example, in 1994, Congress adopted as 
interim bicycle helmet mandatory standards the following voluntary 
standards: American National Standards Institute Standard Z90.4-1984, 
Snell Memorial Foundation Standard B-90, or ASTM Standard F 1447. Thus, 
Congress itself has recognized the advantages of voluntary standards 
when it has acted in the area of product safety.
    Nor is the statutory preference for voluntary standards irrational. 
Voluntary standards are easier to adopt and to amend when flaws are 
detected, when new designs emerge, or when changing patterns of 
consumer use reveal new hazards. It is true that mandatory standards do 
have enforcement advantages. But it would be a mistake to regard 
``regulated'' as a synonym for ``safe.'' Some products that the 
Commission regulates have violation rates that are surprisingly high. 
For example approximately 33%-40% of imported fireworks violate some 
aspect of Commission regulations, and 25% of imported fireworks are 
sufficiently violative so as to be actionable. Since 1998, the 
Commission has had 48 separate recalls involving 189 models of 
cigarette lighters that violated Commission regulations. In fiscal year 
2001 alone, the Commission staff found over 14 million non-conforming 
units. So the existence of federal mandatory regulations does not mean 
that products always comply with the regulations.
Choking Hazards
    In 1979, the Commission issued a small parts regulation under the 
authority of the Federal Hazardous Substances Act to ban certain toys 
and other articles intended for use by children under three because 
they posed a choking hazard if aspirated. In 1992, the Commission staff 
recommended: (1) mandatory labels for balloons warning of choking 
hazards in children up to age eight; (2) mandatory labels for marbles 
warning of choking hazards and reminding children not to put them in 
their mouths; (3) a ban of small balls less than 1.68 inches in 
diameter marketed for children under three, and a mandatory warning 
label on all games and toys with balls less than 1.68 inches in 
diameter.
    I voted with my colleagues not to proceed with rulemaking along the 
lines recommended by the staff. I found that the statutory requirement 
that there be an unreasonable risk of injury was not present, and 
further found that the proposed regulations would do little or nothing 
to alleviate the risk that did exist. In the case of balloons, the risk 
of injury or death was low to begin with, there existed an ASTM 
voluntary standard for warning labels for balloons, and even the 
proposed mandatory regulation would apply only to about two-thirds of 
the balloons sold in the U.S. Upon my motion, the Commission did 
instruct the staff to cooperate with ASTM to improve the voluntary 
standard.
    In the case of marbles, the risk of injury or death was again low 
and the mandatory standard would have applied only to about 30% of the 
marbles sold in the U.S. (marbles sold for industrial or collector 
purposes would have been exempt). Although there was no voluntary 
standard for labeling, a number of manufacturers did provide warnings 
about the well-known hazard of very young children putting marbles in 
their mouths. The situation was similar in the case of small balls and 
small parts in toys and games for children aged three and four years: 
low risk of injury or death, coupled with widespread consumer knowledge 
of the hazards of letting children under three play with items that can 
potentially choke them.
    Industry had opposed the proposed regulations in its submissions to 
the Commission. In the aftermath of the Commission's decision not to 
proceed with regulation, the State Legislature of Connecticut passed a 
toy labeling law and other state legislatures began considering similar 
legislation. Industry attempted to have the Connecticut law struck down 
as an unconstitutional infringement on Congress's power to regulate 
interstate commerce. When court decisions upheld the Connecticut law, 
however, industry changed its position and asked for congressional 
intervention to prevent inconsistent state laws from requiring 
different labels.
    Congress subsequently passed the Child Safety Protection Act, which 
codified many of the staff recommended labels. Congress is, of course, 
free to make this policy call and need develop no record further than a 
majority of the House and Senate. Congress, for example, exempted 
products manufactured outside of the U.S. from the labeling 
requirements if the products were shipped directly to a consumer and if 
``accompanying material shipped with the product'' contained the 
warning. I accept that Congress can choose to act even when the record 
before the Commission is insufficient to support rulemaking, and I have 
supported enforcement actions under the authority of the new law.
``Nanny State''
    Questions have been raised about a statement that I made in a 
letter to the editor that appeared in the October 12, 1999 issue of USA 
Today, in which I referred to certain Commission activities as 
``proclamations issued by this agency on behalf of the federal Nanny 
State.'' My statement was in connection with a Commission press release 
about the practice of ``co-sleeping.'' (``Co-sleeping'' refers to 
adults and infants sleeping together.) I characterized the press 
release as a proclamation on behalf of the federal Nanny State because 
its basis was not a product over which the Commission has jurisdiction, 
but rather a cultural practice. It is entirely appropriate for the 
Commission to warn the public about defective products, but warnings 
about cultural practices are not within its purview. The press release 
in question also warns about the practice of placing infants in adult 
beds, which presents the genuine product hazard of entrapment between 
the mattress and the wall, and to the dangers of infants sleeping on 
soft bedding. These additional product warnings were inserted at my 
insistence.
    My statement referred to a procession of proclamations. In addition 
to the press release on co-sleeping, I have been critical of Commission 
press releases that warn against obvious hazards, such as falling off 
snowboards. Finally, the Commission's General Counsel stated to the 
Washington Post in May 1994 that the movie industry might be within the 
Commission's jurisdiction if movies depicted unsafe practices with 
consumer products, such as stunts by children riding all-terrain 
vehicles. It was press releases or statements such as these, which seek 
to lecture people about either practices (co-sleeping) or products 
(movies) over which the Commission has no jurisdiction, or which 
lecture people about obvious hazards, such as falling down while moving 
forward, that prompted my remark about the federal Nanny State.
Threshold for Commission Action
    I have been asked whether I have a higher ``threshold'' or ``burden 
of proof'' for Commission action than other commissioners. My answer is 
that all Commissioners must adhere to the statutory requirements, 
either for enforcement or regulatory actions. To order a recall, the 
Commission must find that there is a substantial product hazard or that 
a product is a misbranded or a banned hazardous substance. To issue 
regulations, the Commission is bound by detailed procedural regulations 
set forth in its governing statutes, and by findings that it must make 
in order to justify the regulations. These statutes are binding on all 
Commissioners and upon the Commission staff. Persons who do not believe 
that the statutes have been followed may seek judicial review of 
Commission decisions and actions.
    Perhaps what prompted the questions about my ``threshold'' or 
``burden of proof'' for enforcement and regulation is my practice of 
asking detailed questions at staff briefings about the cases that are 
being relied upon to support staff recommendations to go forward with 
regulation. These questions are based upon my personal reading of the 
in-depth investigations (IDIs) of incidents of deaths and injuries 
associated with the use of products. They may include police reports, 
medical examiner reports, social worker reports, hospital emergency 
room and paramedic reports, and the Commission staff's own interviews 
with the participants.
    Reading IDIs and asking questions about them is a practice to which 
I have adhered faithfully as a Commissioner. I will continue to do so 
if I am confirmed in the position of Chairman. One cannot evaluate the 
need for product regulation without understanding all of the facts and 
circumstances surrounding deaths and injuries associated with the use 
of the product. I may find that the presence of the product was 
incidental, and that the real causes of the death or injury were not 
associated with the product, but lay elsewhere. These deaths or 
injuries could not have been prevented by any conceivable product 
safety standard. If regulation of the product will not reduce the risk 
of death of injury, then the Commission is not justified in proceeding 
with regulation.
                               Conclusion
    One of the rewards of public service is the privilege of working 
every day with people who share the goal of helping others. This has 
been my experience during my more than nine years of service at the 
Commission. The hard-working, dedicated, career staff at the Commission 
fuels the engine that allows a small agency to operate effectively. 
What provides me with the greatest personal satisfaction is the fact 
that our work at the Commission helps protect America's families.
    Mr. Chairman, I believe that my service and record at the 
Commission demonstrates a consistent, compassionate and responsible 
commitment to protecting our nation's consumers from unreasonable risks 
posed by defective consumer products. I believe that I can do even more 
as Chairman of the Commission. I am attaching two letters to this 
testimony in support of my nomination, one from my fellow Commissioner 
Thomas Moore, and one from the National Association of State Fire 
Marshals. I ask that they be made a part of the record. Mr. Chairman, I 
want to thank you again for this opportunity to testify before you and 
share my views with the Members of the Committee, and to discuss my 
qualifications to serve as Chairman of the Commission. I would be 
pleased to answer any questions that the Committee Members wish to pose 
to me.

                                                        Attachments
               National Association of State Fire Marshals,
                             Government Relations, January 8, 2001.

Hon. George W. Bush,
President-Elect,
Bush-Cheney Presidential Transition Foundation, Inc.,
McLean, VA.

Dear Mr. President-Elect:

    On behalf of the most senior fire official of each of the 50 states 
and District of Columbia, the National Association of State Fire 
Marshals wishes to express its support of Commissioner Mary Sheila Gall 
as Chairman of the United States Consumer Product Commission. 
Commissioner Gall has served the Commission for nearly a decade and 
well understands the workings of this important agency.
    Over the course of her tenure, our association has disagreed with 
Commissioner Gall on occasions. But, in the spirit of your 
Administration, we believe these are times to focus on areas of 
agreement. We have never doubted her concern for the safety of American 
families and the importance of individuals taking responsibility for 
their actions, be they single parents in public housing or corporate 
CEOs.
    We will work with whomever you select to Chair the Commission, Mr. 
President-Elect, but we believe that it is Commissioner Gall's turn at 
the Commission's helm.
        Sincerely,
                                          George A. Miller,
                                                         President.

                   U.S. Consumer Product Safety Commission,
                                    Washington, DC, April 26, 2001.
The Editor,
USA Today, 
Arlington, VA.

Dear Sir:

    I was dismayed to read the article in the April 25th USA Today 
giving an unfairly negative slant to the record and beliefs of: Mary 
Sheila Gall, my fellow Commissioner at the U.S. Consumer Product Safety 
Commission. As the article notes, Commissioner Gall has served at CPSC 
for ten years. She was initially appointed by President Bush and then 
re-appointed only a couple of years ago by President Clinton. As a 
life-long Democrat, and a Clinton appointee, I find it disturbing that 
Mary Gall would be attacked for her convictions and her beliefs now 
that she is being nominated for the Chairmanship of the agency.
    Reading the article one might not know that the Commission is a 
three-member decision-making body. At any one time the agency may have 
no more than two members of any political party. At the moment there 
are two Democrats, myself and current Chairman Ann Brown and one 
Republican, Mary Gall. To search for some nefarious motive for 
Commissioner Gall's selection as Chairman is to fail to understand the 
political reality. She is the only sitting Republican and the President 
has the right to name his own chairman of the agency. Characterizing 
Commissioner Gall's appointment as `political' is saying nothing more 
than the truth about Presidential appointments--they are all political.
    Perhaps it is my own naivete speaking, but I was under the 
impression that being true to one's convictions was a virtue. That 
those convictions may not be shared by everyone makes them no less 
worthy of consideration. During my six years at the agency, I have been 
impressed by Commissioner Gall's hard work, her thoughtful 
consideration of every issue and been persuaded, on occasion, by her 
arguments. And for her part, she has been willing to change her views 
after hearing her colleagues on certain matters. But whether we agree 
on an issue or not, I can find nothing in her views or her voting 
record to cause me any alarm about her assuming the Chairmanship of the 
Agency. (Anyone who looks at the totality of her record will find that 
she has voted with the Democratic majority or formed a majority with 
one or another Democrat on the Commission many, many more times than 
not.)
    One of the results of Presidential and congressional elections is 
that periodically the philosophy of government changes. Our laws are 
designed to encourage that. It is healthy for the pendulum to swing 
back and forth between liberal and conservative views. If only one view 
was ever expressed or exercised, a large segment of the public would 
never have their views heard. While I may have a different opinion than 
Commissioner Gall on some aspects of Commission business, I have no 
doubt she will listen to my views and that, however she votes, her 
decision will be well-reasoned and give expression to a valid viewpoint 
shared by many (perhaps the majority) of Americans. To attack her 
nomination as Chairman because her thoughts on government intervention 
are somewhat different than her predecessor's is to trivialize our 
system of government and Commissioner Gall's very thoughtful approach 
to it.
        Sincerely,
                                         Thomas Hill Moore,
                                                      Commissioner.

                      a. biographical information
    1. Name: (Include any former names or nick names used.) Mary Sheila 
Gall.
    2. Position to which nominated: Chairman, United States Consumer 
Product Safety Commission.
    3. Date of nomination: May 8, 2001.
    4. Address: (List current place of residence and office addresses.) 
Home Address: 6811 Dillon Avenue, McLean, Virginia 22101. Office 
Address: The U.S. Consumer Product Safety Commission, Suite 722, 4330 
East West Highway, Bethesda, Maryland 20814.
    5. Date and place of birth: July 19, 1949 in North Tonawanda, New 
York (near Buffalo).
    6. Marital status: (Include maiden name of wife or husband's name.) 
I am single, never married.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) The names of my children are Maria Rosa Gall 
(``Rosita'' age 17) and Walter Paul Gall (age 22.) I adopted my 
children as a single parent.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.) Bishop 
Neumann High School, Williamsville, New York. Attended from 9/63 to 6/
67. Received a New York State Regents Diploma 6/67.
    Rosary Hill College, Amherst, New York. Attended from 9/67 to 5/71. 
Received a B.A. in History and Government, minor in Education, 5/71.
    Trinity College, Washington, D.C. Attended from 1/70 to 5/70--
special junior year semester program. No Degree.
    Old Dominion University, Norfolk, VA (Northern Virginia Campus). 
Attended night and weekend classes from 6/96 to 12/98. Received a 
Masters of Science in Education/Special Education, 12/98.
    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

1991-Present
Commissioner
U.S. Consumer Product Safety Commission (CPSC)
Bethesda, MD

Determine policy and priorities of the CPSC which has over 15,000 
consumer products subject to its jurisdiction. Specifically, as 
Commissioner, I approve or reject petitions, promulgate regulations, 
refer matters for civil or criminal penalties, initiate administrative 
complaints, approve or reject settlements for civil or criminal 
penalties, accept or reject settlements in substantial product hazard 
proceedings, review appeals from administrative law judge 
determinations, prepare and submit testimony to Congress, approve or 
disapprove staff proposed budget requests, approve or disapprove annual 
operating plans, approve or disapprove officers of the Commission, and 
supervise and evaluate staff in my own office.
1989-1991
Assistant Secretary
Human Development Services
U.S. Department of Health and Human Services
Washington, D.C.

Administered the Human Development Services agency, the U.S. Department 
of Health and Human Services division serving children, youth, 
families, people with disabilities, the elderly and Native Americans. 
Oversaw a yearly budget of $5 billion and the activities of 1,000 
employees. Worked closely with the Administration and Congress to 
develop and implement program policies, such as Head Start expansion, 
the Americans with Disabilities Act, foster care. Chaired the White 
House Working Group on the Family and served as a member of the White 
House Working Group on Disabilities.

1987-1988
Chair
President's Task Force on Adoption
Washington, D.C.

Worked with over 130 special interest organizations and many federal, 
state and local agencies to identify barriers to adoption and methods 
to promote adoption. Presented the Task Force report to the White House 
Domestic Policy Council and to the President. Conducted White House 
press briefings and gave interviews to national media. Testified before 
Congress. Organized White House and Congressional events to highlight 
adoption issues.

1986-1989
Counselor to the Director
U.S. Office of Personnel Management
Washington, D.C.

Senior confidential advisor to the Director on administration and 
agency policy development and implementation. Worked directly with the 
White House Cabinet Councils, federal agencies and public interest 
organizations on matters pertaining to the federal civil service (3 
million civilian employees) and other national policies affecting the 
federal workplace.

1981-1986
Deputy Domestic Policy Advisor
Office of Vice President Bush
White House
Washington, D.C.

Provided policy option analysis for White House Cabinet Council and 
Cabinet meetings. Delivered oral and written briefs for the Vice 
President's issue/special interest and media use. Represented the Vice 
President at the Cabinet Council meetings and meetings with the public. 
Worked with federal, state and local government agencies. Extensive 
domestic travel with the Vice President.

1980-1981
Reagan-Bush Presidential Campaign and Transition Team
Alexandria, VA & Washington, D.C.

Contributed to the domestic issues section of the debate briefing book 
for the Reagan/Carter debates. Handled communications and policy 
transition work for the Vice President Elect. Worked with President 
Elect's transition team planning scheduling for the first 90 days in 
office.

1980-1981
Senior Legislative Analyst
House Republican Study Committee
Washington, D.C.

Analyzed legislative proposals for publication and distribution to 
Republican Members of Congress and interest groups. Conducted issue 
research, wrote floor and other speeches for Members, drafted articles 
for publication.
1979-1980
Director of Research
George Bush for President Campaign
Alexandria, VA

Provided oral and written briefings to the candidate on foreign and 
domestic issues. Traveled with candidate and provided briefings for the 
candidate, his family, campaign staff and supporters. Supervised full-
time staff and volunteers. Wrote daily news summary for candidate.

1971-1979
Legislative Aide
Individual Members of House and Senate
Of United States Congress
Washington, D.C. and Buffalo, N.Y.

Employed by Senator James Buckley (C.R., N.Y.), Representatives Jack 
Kemp (R., N.Y.), and Tom Coleman (R., Missouri). Work included drafting 
bills and amendments, floor speeches, casework, and supervision of a 
nine-county Senate office in upstate New York.

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.) All listed above.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.) None.
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.) I am a member of St. John's Church in McLean, VA. 
I taught Sunday School there for four years. Prior to St. John's, I was 
a member of the St. Thomas More Catholic Church in Arlington, VA. I 
currently teach Sunday School at St. James Church in Fall Church. I 
have served, in a voluntary capacity, as a soccer coach, Cub Scout den 
leader, homeroom mother for my children's schools, member of the Parent 
Teacher organizations of each school, etc. Also previously served on 
the National Committee for Adoption, Special Needs Adoption Committee 
and the North American Council for Adoptable Children. I was a hotline 
volunteer for the National Wildlife Rescue League in 2000.
    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate. I was elected a 
member of the Republican City Committee of Alexandria, VA in the late 
70s. I was also elected as a delegate to the State Republican 
Conventions in the late seventies. These were not ``public office'' 
elections and I did not campaign or spend any money.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. No campaign contributions 
of $500 or more.
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)
Scholarships:
1. LFull four year teaching scholarship for D'Youville College, 
Buffalo, N.Y. (turned it down).

2. LNew York State Regents Scholarship.

3. LScholarship from Rosary Hill College, Buffalo, N.Y.
Honors/Awards:
Secretarial Commendation from Dr. Louis Sullivan, Secretary, Department 
of Health and Human Services.

Several service awards from Vice President Bush.

Warner Lambert Company Salute to American Family Award for Work to 
Promote Adoption.

Distinguished Service Award from National Committee on Adoption.

Father Clement DeMuth Award for Service to Children.

Christian Service Award for Outstanding Service to Children.

    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.) I wrote a story called ``Little Red Socks'' that was 
published in a book entitled, The Greatest Gifts Our Children Give Us 
(Simon and Schuster, '97).
    I chaired President Reagan's Task Force on Adoption and was 
responsible for the final report, ``America's Waiting Children'' 
(1987).
    I wrote several articles promoting adoption and some about the need 
to cherish our children. These were during my service as Assistant 
Secretary at HHS.
    There are several letters to the editor of the Washington Post 
concerning HHS issues, such as the impact of parental drug abuse on 
children. While serving as Commissioner of CPSC. I have written letters 
to the editors of major newspapers about agency issues.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated. Typically, I do not give formal speeches from a prepared 
text. I have enclosed a number of my policy statements for your 
review.*
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President? The President has nominated me as Chairman of the CPSC based 
on my over 9 years of service at the Commission. My record as a 
Commissioner demonstrates a strong commitment to the safety of the 
American public in their homes and communities. This commitment and my 
regulatory philosophy are consistent with those of the President.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? I was 
originally nominated to serve as Commissioner in 1991 based on my broad 
experience in the public sector focusing on issues relating to 
children, individuals with special needs and my experience with 
consumer safety issues. During my tenure as Commissioner, I have become 
thoroughly familiar with the statutory responsibilities and day-to-day 
operations of the Commission. This knowledge and experience qualify me 
for the position of Chairman.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Not applicable.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. As Assistant 
Secretary for Human Development Services, HHS and as Commissioner at 
CPSC I have testified before various House and Senate Committees on 
matters under my jurisdiction.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) Not 
applicable. I have nothing that could ever result in a conflict of 
interest.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. Please describe how your previous professional experience and 
education qualifies you for the position for which you have been 
nominated. I have served as an incumbent Commissioner for the past 9 
years, and I am thoroughly familiar with its day-to-day operations and 
statutory responsibilities. The chairman and the two other 
commissioners each have one vote on all regulatory and enforcement 
matters undertaken by the Commission. These matters include decisions 
to: (1) issue, withdraw or amend regulations; (2) file administrative 
complaints seeking to have products recalled; (3) issue subpoenas and 
special orders; (4) settle civil penalty cases; and (5) refer civil or 
criminal penalty cases to the Department of Justice for prosecution. In 
addition, many major decisions affecting Commission operations, such as 
the budget, hiring of senior staff, reorganization of agency program 
offices, and the operating plan require my involvement. I served 
previously as an Assistant Secretary with the Department of Health and 
Human Services. I was head of the Human Development Services Agency and 
oversaw 55 federal programs with a staff of 1000 employees and a $5 
billion budget. As an appointed federal official, I have appeared 
before the national media as spokesman for various Administration 
initiatives. I came to the position of Commissioner with over 20 years 
of public service experience.
    2. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? Based on my many years of government 
service and my work at the Commission, I believe that I have developed 
and demonstrated the skills necessary to assume the responsibilities of 
Chairman of the CPSC.
    3. Why do you wish to serve in the position for which you have been 
nominated? I wish to serve as Chairman of the CPSC because I will 
improve the safety and well being of the American public in their homes 
and communities. The Commission has done much good work in the past 
improving public safety and I am certain that it can do even better in 
the future. The Commission can, through information and education 
campaigns conducted in cooperation with industry and with public 
interest organizations, educate the public more effectively in the safe 
use of consumer products. Without in any way compromising safety, the 
Commission can work with the regulated community more cooperatively. In 
my previous service on the Commission I have made a significant 
contribution by bringing a sense of balance and a ``limited 
government'' perspective to the Commission's regulatory mission. I 
believe that I can contribute even more in the position of Chairman.
    4. What goals have you established for your first two years in this 
position, if confirmed? International trade has expanded dramatically 
since the Commission began operations in 1973. Increasing numbers of 
consumer products are made in countries outside the United States and 
U.S. manufacturers export greater numbers of consumer products every 
year. The Commission needs to be more active in seeking to improve the 
safety of products being distributed in international trade. One of the 
best ways to accomplish this objective is to enhance Commission 
participation in the technical aspects of international product safety 
standards.
    One of the major challenges of the Commission is getting notice of 
recalls and other safety information to consumers, especially the most 
vulnerable communities, who need it. The Commission needs to enhance 
its existing effort to reach consumers with notices of recalls and 
other crucial information about safe practices. I will leverage the 
Commission's resources by cooperative efforts with other Federal 
agencies, with industry, and with state and local entities that deal 
with these consumer constituencies. I would especially like to work 
with local fire departments.
    I intend to work with Congress in order to obtain the level of 
resources adequate for the Commission to meet its obligations to comply 
with requirements for: (1) public accessibility of Commission 
information; (2) availability of Commission facilities and data to 
persons with disabilities, and (3) telecommuting options for Commission 
employees. I also will continue to ensure that our staff has the 
appropriate tools to address the increasing number of technologically 
complex hazards.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. I 
will set forth my philosophical views in the context of the mission of 
the Commission: consumer product safety. We need product safety 
regulation to protect the public. But the nature of the regulations 
needs to be targeted at the true hazard. If the hazard lies in some 
defect or dangerous aspect of the product, then regulations and 
enforcement action to address and correct that hazard are appropriate. 
But where the nature of the hazard lies in careless consumer behavior 
in the presence of the product, and not with the product itself, then 
regulation and enforcement action are not appropriate. Regulation of or 
enforcement action against products when consumer behavior is the real 
problem does not promote enhanced safety because it does not address 
the underlying cause of deaths and injuries. Determining when a hazard 
is in the product and when it is not is often difficult. The Commission 
has a highly capable technical staff, and the input of consumers, the 
regulated community and other stakeholders to assist it. I have served 
as a Commissioner with a strong commitment to maintaining an 
appropriate balance in the respective roles of government, industry and 
the consuming public in attaining the critical goals of this agency.
    I believe that the Commission should adhere to risk-based policy 
making. This is a process by which the Commission balances the degree 
of risk of a hazard, the vulnerability of the population at risk to the 
hazard, the susceptibility of the hazard to remedial action and the 
cost of the remedy in deciding whether and what type of regulatory or 
enforcement action to take. A government agency must focus its efforts 
in addressing those areas where it can do the most good in the most 
efficient and effective manner possible. With regard to this 
Commission, Congress has clearly established a preference for 
Commission participation in the development of, and deferral to, 
voluntary safety standards and for the use of cost-benefit analysis 
when the Commission does undertake rulemaking. When voluntary efforts 
at product safety have proven to be a failure, then it becomes the 
responsibility of the Commission to take action, if the other criteria 
necessary to promulgate mandatory rules are present.
    Finally, I believe in the principle of strict statutory 
construction. In our system of government, it is Congress that provides 
the specific authorization for Agency action. An Agency is never at 
liberty to amend its statutory authority in the guise of 
``interpretation,'' in order to achieve a particular result, no matter 
how desirable that result might appear. The authority to amend a 
statute is reserved to Congress itself.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. The mission 
of the Consumer Product Safety Commission is to protect consumers from 
the unreasonable risk of injuries and deaths associated with the 
approximately 15,000 types of consumer products under its jurisdiction. 
The Commission's major programs are designed to identify and analyze 
product hazards, assist industry in developing voluntary safety 
standards for products, monitor compliance with voluntary standards, 
issue and enforce mandatory standards, obtain recalls of unreasonably 
dangerous products and to inform and educate the public about potential 
product risks and good safety practices.
    The Agency's operational objective, given limited agency resources, 
has been to streamline operations while enhancing productivity. We have 
implemented telecommuting for the majority of our regional employees. 
We are upgrading our computer technology and enhancing and integrating 
our databases to give our staff better access to our data systems. We 
have significantly reduced the amount that the General Services 
Administration charges us for lab space by consolidating our 
laboratories and we continue to work to modernize our laboratories and 
improve our technical capability.
    7. In reference to question number six, what forces are likely to 
result in changes to the mission of this agency over the coming five 
years. The overall mission of the Commission, the protection of the 
public from the unreasonable risks of injury associated with consumer 
products, will not change. There will, however, be changes that will 
affect the way that the Commission carries out that overall mission.
    One of the greatest changes will be in the growth of international 
trade. Increasing numbers of consumer products are being imported into 
the U.S. and U.S. manufacturers are exporting larger numbers of 
consumer products. These changes pose two challenges to the Commission. 
The Commission must seek to make the existence and nature of its 
regulations available worldwide to manufacturers who are sending 
products to the U.S. The Commission must also work with our trading 
partners to harmonize product safety standards so that consumers are 
protected from unreasonable risks without unnecessarily impeding 
commerce. This work will often lie in participating in the voluntary 
standards-setting process carried on by international standards-setting 
organizations.
    Channels of communication have changed dramatically since the 
Commission began its work in 1973. For example, at that time there were 
only three major television networks for consumers to watch. Today 
consumers obtain information from numerous print and electronic media 
(e.g., cable and satellite television, the Internet and specialty 
publications). Yet many of our most vulnerable populations have only 
limited access to print or electronic media. The Commission needs to 
continue to assess innovative means of communication that help the 
Commission get its message out when it has announced recalls or other 
safety information.
    The composition of the U.S. population is changing. Changes in the 
demographics in the U.S. will challenge the Commission to deliver its 
message to different dynamic communities, especially our most 
vulnerable populations.
    8. In further reference to question number six, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
board/commission and why?
Response to First Question
    There are relatively few outside forces that may prevent the 
Commission from accomplishing its statutory mission. No one opposes 
consumer product safety, although there may be differences of opinion 
in how that objective should be attained.
    The Commission will always face the prospect of limited resources. 
The Commission must, therefore, strive to use the resources allocated 
to it by Congress as efficiently as possible and strive to be as 
effective as possible in its choice of the activities that it 
undertakes to accomplish its mission.
    There are some outside forces that impact how the Agency performs 
its mission. In the past few years, the Agency has had to address a 
growing number of unforeseen serious product safety hazards involving 
very complex technological issues. We have also become more involved in 
protracted legal negotiations in order to arrive at an equitable 
solution for both consumers and industry. Addressing these problems has 
required substantial staff and financial resources.
Response to Second Question
    I consider the following to be the top three challenges facing the 
Commission.
    The Commission needs to improve consumer product safety by 
harmonizing international consumer product safety standards. This 
harmonization will involve more effective participation by Commission 
technical staff in the voluntary standards setting process carried out 
by international voluntary standards setting organizations. The 
Commission also needs to leverage the existing resources of government 
by strategic alliances with other government organizations that have an 
existing international presence (e.g., commercial officers).
    The Commission needs to work cooperatively with consumers, the 
regulated community, public interest groups and other stakeholders to 
disseminate information about recalls, and other safety messages, as 
widely as possible.
    The Commission needs to work with Congress to review the 
appropriate role of the Commission. The Commission needs to work 
especially closely with Congress to ensure that its resource level is 
adequate to permit it to accomplish its mission while meeting other 
mandates such as information accessibility and telecommuting.
    9. In further reference to question number six, what factors in 
your opinion have kept the board/commission from achieving its missions 
over the past several years? Inadequate resources and lack of 
management attention devoted to international standards-setting 
activities have limited Commission effectiveness in this area. In 
addition, the Commission has not sought to partner effectively with 
U.S. government agencies outside of the U.S.
    Unjustified criticism of companies' ``speed of reporting'' or 
disagreement with Commission staff on the details of recalls makes 
companies reluctant to report. Fair treatment would encourage 
reporting. Unjustified criticism also tends to focus public attention 
on perceived ``villains'' rather than the Commission's safety message.
    Internal disagreements as to the proper jurisdiction of the 
Commission and differences of opinion as to the most responsible 
methods of accomplishing its legitimate regulatory objectives have been 
the most serious impediments over the past few years.
    10. Who are the stakeholders in the work of this agency? The 
``stakeholders'' in the mission of this Commission are the consuming 
public and those organizations that manufacture, distribute and market 
consumer products. Other organizations with a safety-related mission, 
such as fire departments follow and participate in the activities of 
the Commission, as do a number of public interest organizations. In 
addition, the Congress and State and local safety agencies and trial 
lawyers also have an active interest in the operations of this Agency.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten. The 
primary responsibility of each member of the Commission is to protect 
the consuming public. The Commission accomplishes this responsibility 
by communicating safety-related information to the public, as well as 
taking other actions, consistent with the Commission's mission and 
procedures, designed to remove defective products from commerce and to 
ensure that consumer products in commerce do not have unreasonable 
risks associated with their use. The Chairman is the principal 
executive officer of the Commission. The Chairman is the person 
principally responsible for the efficient functioning of the 
Commission, and its compliance with the requirements incumbent upon 
government agencies. The Chairman is also the principal spokesperson 
for the Commission and takes the lead in the Commission's relationships 
with other government agencies, with the Office of Management and 
Budget, and with Congress.
    Product safety further requires the active participation of the 
consumer, industry and government. I believe that the Commission must 
work with and solicit the cooperation of both consumers and industry 
when possible in order to fulfill its regulatory mission. I encourage 
cooperative efforts between the Commission and state safety agencies.
    12. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?

In my experience, the key factors integral to sound agency management 
include:

  <bullet> clearly defined and easily understood mission statement, 
        goals and objectives

  <bullet> providing staff the tools to do their job (training and 
        equipment)

  <bullet> opportunities for upward mobility and professional 
        development

  <bullet> supportive workplace environment

  <bullet> recognition of employee achievement

  <bullet> `walking the line'--unscheduled visits to employee 
        workstations to remind them of the importance of their work

  <bullet> maintain an open-door policy

  <bullet> encourage employee `minority views' on issues without fear 
        of reprisal

    I also believe in delegation of responsibility and authority. In 
general, managers should be given sufficient authority to resolve 
matters at their designated level of responsibility, and then be held 
accountable for the results.
    I have never had an employee whom I supervised bring a complaint 
against me personally. As an HHS official, my name appeared on one 
employee complaint brought against the Agency. The employee dropped the 
complaint.
    13. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. In my role as Assistant Secretary at 
HHS, I was asked to testify before the Senate and House Committees on 
various issues under my jurisdiction. My Agency worked very closely 
with committee staff to supply information and assist with our budgets. 
As a Commissioner, I have testified before House and Senate authorizing 
committees on several occasions pertaining to issues of Commission 
authority and decisions that the Commission has made. I have also 
testified before House and Senate committees on our budget requests and 
other issues under the Commission's jurisdiction. I have maintained a 
working relationship with Members of Congress and committee staff. 
Committee staff and Members' personal staff often call upon my office 
for assistance. It is my belief that an open line of communication 
between Congress and the Commission, including the office of the 
Chairman is key to the effective functioning of the Agency.
    14. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your board/commission 
comply with the spirit of the laws passed by Congress. I intend to keep 
the pertinent committees of Congress aware of all of the pending 
rulemaking activities under way at the Commission. I maintain an open 
door policy to allow members of the public and industry to communicate 
their concerns to the Commission and I actively seek their input. My 
staff and I have also been very diligent in working with Members of 
this Committee and other Congressional Committees of jurisdiction in 
addressing issues of mutual interest and concern. I welcome inquiries 
and other communications from all Members of Congress and intend to 
assure that congressional correspondence is answered promptly and 
accurately.
    15. In the areas under the board/commission jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. Congress last authorized the Commission in 
1990 and Congress may need to consider whether there is a need for 
legislative action.
    16. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president. I believe that Commission members 
must be independent in their judgment. At the same time the President 
has the Constitutional responsibility to ensure that the laws, 
including the laws administered by the Commission, are faithfully 
executed. The Commission should, therefore, cooperate with a 
President's Administration to the extent that it can do so without 
compromising its independent judgment. For example, the Commission has 
cooperated with the Office of Management and Budget in preparing a 
regulatory agenda and plan in response to executive orders requiring 
that it do so. I also believe that the Commission may comply with 
certain requests of an Administration without undermining its 
independence.

    The Chairman. Very good.
    Let the record show that the Consumer Product Safety 
Commission has eliminated a lot of trial lawyers. I know that 
will make a lot of people happy, but that is the greatest call 
upon any profession, is to eliminate itself: the doctors seek 
to eliminate all diseases, the ministers all sin. If we lawyers 
can get rid of injury cases, that would be the greatest honor. 
I harken when this Committee was confronted with the flammable 
blankets.
    We had many a hearing there with respect to the little 
babies burning up in the cribs with those blankets, and so we 
instituted the Consumer Product Safety Commission. Over the 
years, the agency has saved many lives. I just note that Ms. 
Ann Brown has done an outstanding job in continuing its 
mission.
    Other than that, I will yield to my colleague Senator 
McCain.
    Senator McCain. I thank you, Mr. Chairman.
    Let us try to address a couple of the issues that have been 
raised, Ms. Gall, in the time that I have. The question has 
been raised about a letter to the editor of October 12, 1999, 
in which you referred to certain Commission activities as 
``proclamations issued by this agency on behalf of the federal 
Nanny State.'' Was that in connection with a press release from 
the Commission about co-sleeping?
    Ms. Gall. Yes, Senator, there were three issues that I 
addressed in that letter. First let me say that that letter 
also contained high praise for the Commission and its important 
work with regard to cigarette lighters and other issues that we 
had undertaken.
    There were three issues I was concerned about. First, a 
press release and a study from the Commission that addressed 
the issue of co-sleeping. Co-sleeping is when parents, usually 
the mother, will take the baby to bed, perhaps to breastfeed, 
and sleep with the baby in the bed. Some staffers at CPSC 
independently, not as a Commission responsibility, but 
independently had undertaken a study to review death 
certificates to see how many circumstances there were where a 
baby died when co-sleeping with a parent. They just looked at 
death certificates. They did not look at the circumstances 
associated with it, whether there was alcohol or drug-related 
incidence with the parents and perhaps that had something to do 
with it.
    I felt that it was inappropriate to issue a press release 
on a cultural practice. There was no product involvement. The 
Academy of Pediatrics, Maternal and Child Health at NIH and the 
offices at HHS never suggested, never opposed the concept of 
co-sleeping. I am sure the Senators here would never tell a 
member of their staff who may be nursing, a new mother, that 
she should not take her baby to bed and nurse the baby there. 
Certainly it would not be your business any more than it would 
be the business of the Consumer Product Safety Commission to 
tell parents how they sleep with their children. That concerned 
me greatly.
    The second item was a press release which said that if you 
go snowboarding you can fall. Well, I think it is pretty 
obvious to most folks that if you move you can fall. So I did 
not think it was necessary to use our press release to inform 
people of something that was that obvious. I felt that we 
devalued the coinage of a press release when we use it for 
something along those lines. That is what my dear father would 
say, mistaking motion for progress.
    The third issue I was concerned about was a newspaper 
article that I read. You can imagine I am drinking my coffee 
one morning at home before going to work and I read this 
article saying that the general counsel of the Consumer Product 
Safety Commission thinks that we can exert jurisdiction over 
the movie industry. Why? Because one particular movie called 
``Richie Rich'' showed a picture of a child riding an ATV.
    Now, I am the first one to say that children have no place 
on ATV's, adult ATV's. That simply is unacceptable. But I do 
not believe that automatically gives us jurisdiction over the 
movie industry. That is like saying if you show a bus speeding 
in a movie that the Department of Transportation has 
jurisdiction over the movie industry.
    Senator McCain. Ms. Gall, I have several other questions.
    Ms. Gall. All right. You see I enjoy my subject matter.
    Senator McCain. You have been criticized for voting not to 
bring a rulemaking on bunk bed entrapment hazards. It has been 
said you relied on a legal technicality to avoid providing 
needed protection for children who were dying as a result of 
getting stuck in the bunk bed railing. Can you explain this 
legal technicality?
    Ms. Gall. Sure. There were two different issues with bunk 
beds. The first one was a few years ago and it pertained to two 
fatalities in lower berth bunk beds. So the case would be that 
there would be one fatality per 40 million bunk beds. The 
second fatality was in a bed that would not be covered by a 
voluntary or a mandatory standard. So we were looking at 
something that the voluntary standard could accept.
    The issue that you are talking about, Senator, was more 
recent. It pertained to a voluntary standard that was being 
introduced automatically to be accepted by the Commission as a 
mandatory standard. Our regulations and our law tells us we 
must look first to voluntary standards before, to see if they 
cover the issue and deal with the problem and second if there 
is substantial compliance.
    When the issue was brought to the Commission in a briefing, 
there was over 90 percent compliance with the voluntary 
standard, over 90 percent. I asked the staff if they were aware 
of a single instance of where a company was not in compliance 
with the voluntary standard and they said no, at the time of 
the briefing they thought it was 100 percent.
    So our law tells us we must look to voluntary standards 
first. The proposed language was absorbing the voluntary 
standard as a mandatory standard, and I said that that was 
unacceptable. Commissioner Moore agreed with that analysis that 
that was not the basis on which to act.
    Senator McCain. I am very pleased that Commissioner Moore 
is here today and we appreciate you being here, Commissioner 
Moore, and the rest of the staff.
    In 1994 you voted with the majority not to begin a 
rulemaking on baby bath seats. And I believe it was because you 
were not sure that baby bath seats were safer or less safe than 
not using one. Do you have any answer yet to the question of 
whether drownings occur at a higher rate when baby bath seats 
are not used?
    Ms. Gall. Senator, there was a study done, the Mann study, 
which has not been peer reviewed or published, that took a look 
at the use of baby bath seats for 5 to 10 month old babies. In 
addition, our staff did its own independent research. There are 
some who believe that the data demonstrates that it may be 
safer for a baby to be in a bath seat than in a bath tub 
without a bath seat.
    I did not base my vote in either case, in 1994 or this 
year, on that basis, because my concern most recently was that 
we saw a number of cases where the caregiver was present and 
there was a near miss, where the baby was able to slide down 
through the bath seat and could have drowned if the parent had 
not been there to act.
    The biggest concern I have had is that in 1994 when we 
looked at bath seats we had 12 or 13 cases; all except one, the 
parent was absent at the time. Many of these were egregious 
cases. Now, I know most people have heard that it is the mother 
turned away for just a moment to get a towel or answer the 
phone, but that was not the case. These were very serious, 
egregious cases of being away from the baby for prolonged 
periods of time.
    Fast forward to 2001, we now have 70 cases where in many 
cases again these are egregious cases where children are left 
alone for long periods of time. But we did see that there were 
now 40 cases where babies had a near miss with the parent 
actually there. So that was the basis on which, along with some 
other factors, I decided that we had to move forward to begin 
mandatory standards to address this issue.
    Senator McCain. Thank you. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Senator Lott, we are delighted to have our 
Leader here. Senator Lott, do you have a statement or anything 
which you would like to make? I know you have got other 
responsibilities on the floor.

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Well, thank you very much, Mr. Chairman. I do 
not want to break in line here, but I do have a statement I 
would like to submit for the record, and I do want to say how 
pleased I am to offer my support to Mary Sheila Gall. I have 
known her for a long time and I appreciate the work she has 
done and the service she has given to her country. I also 
appreciate the kind of person she is as an individual and her 
work on things unrelated to her government service on issues 
such as adoption. The fact that she has two adopted children is 
a side of her personality that people do not really see, so I 
wanted to mention that.
    Mr. Chairman, I do not want to go through her long record 
of service, but I do want to note that she has been on the 
Consumer Product Safety Commission for 10 years and that she 
was reappointed to a 7-year term by President Clinton in 1999. 
I also want to remind my colleagues that she has been confirmed 
by the Senate without a single dissenting vote, I believe, 
twice.
    She has lengthy experience working on Capitol Hill for 
Senators and for Congressmen from two different States. She 
worked in the Reagan Administration in a critical position and 
the Bush Administration in critical positions. She served as 
Assistant Secretary of HHS, and I think she has done exemplary 
work at the Consumer Product Safety Commission.
    I know there will be some people that will be critical of 
some of the positions that she took. I would note that I 
believe some of those positions she took actually occurred 
before the last vote that confirmed her unanimously, and that 
on this Commission it is not always easy to come to a 
conclusion. There are sometimes very strong arguments on both 
sides. There are difficult questions and you have to weigh them 
and come to the best decision within your own judgment, within 
your own conscience.
    I do not quite understand why there is this mounting 
opposition to this confirmation now, and I want to question 
anybody's reasoning in opposing her. She clearly is qualified, 
even though I saw some Senators suggest yesterday that she was 
not qualified to be Chair of the Commission she has served on 
for 10 years. With her personal record, and through probably 25 
years of service to government, I think she certainly is 
qualified. I wanted to be here to personally offer my support.
    Thank you for letting me interject my thoughts at this 
point, Mr. Chairman. I look forward to further supporting this 
nomination.
    The Chairman. Very good.
    Senator Kerry was next here.
    Senator Kerry. Mr. Chairman, thank you very much.
    Ms. Gall, I would like to review with you the area that 
Senator McCain just inquired about with respect to bunk beds.
    Ms. Gall. Sure.
    Senator Kerry. From the period of 1990 to 1998 the 
Commission received reports of 89 bunk bed-related deaths. Of 
this number, 64 percent involved entrapment, 24 involved 
children being hung from the beds by objects such as clothing, 
bedding, and belts, and another 8 were falls from the beds. 
CPSC's statistical survey found that about 31,400 children were 
treated in emergency rooms for bunk bed-related injuries.
    Now, although there was a voluntary standard in place, to 
which you have referred, the field staff visited 55 retail 
outlets in 39 cities, examining 58 manufacturers' bunk bed 
models, and they made the following findings: Of the 58 models, 
23 were found to be in noncompliance with the voluntary 
standard. That is almost 50 percent of the voluntary standard 
not working. Seven firms were repeat violators. Five 
manufacturers were discovered to have significant entrapment 
hazards associated with their products, three of whom, more 
than 50 percent, were clearly aware of their voluntary 
standard. All in all, the staff found 630,000 beds in 
noncompliance.
    You interpreted the law and said the following. I quote 
you. You said: ``Our statute provides that the `Commission 
shall not promulgate' a mandatory rule unless an existing 
voluntary standard: 1) `is not likely to result in elimination 
or adequate reduction of such risk of injury' or 2) is `not 
likely' to have `substantial compliance.' '' You then hung your 
decision, the sole dissenting vote, on the notion that you 
thought there was at least it appears, presumptive, of 
substantial compliance. Correct?
    Ms. Gall. Yes.
    Senator Kerry. Now, the law actually says otherwise. You 
actually applied the law incorrectly. The law says ``it would 
eliminate or adequately reduce the risk of injury addressed 
and''--not ``or''; ``and''--``is likely there will be 
substantial compliance.''
    Ms. Gall. Yes, that is correct, that is correct.
    Senator Kerry. So your decision was based on only 
substantial compliance when the staff in fact recommended that 
children are dying, they are being seriously injured in high 
numbers in the presence of the voluntary standard, and that 
evidence was sufficient because it was not accomplishing what 
the law said, doing away with the injury. Therefore, they 
wanted to move to a mandatory standard.
    How do you justify, number one, misinterpreting the law; 
number two, ignoring the evidence of the Commission with 
respect to the injuries that were continuing to be committed?
    Ms. Gall. Well, first of all, I did not misinterpret the 
law. The law says that a voluntary standard must do two things. 
It must adequately address the problem at hand--that is not 
exact language, of course--and second must have substantial 
compliance.
    Senator Kerry. But that is not what you said in your 
statement. In your statement you said otherwise.
    Ms. Gall. OK, all right. Well, thank you----
    Senator Kerry. Do you acknowledge then that you were 
incorrect?
    Ms. Gall. It must be both of those things together.
    It is true that we found a significant number of beds that 
were out of compliance, and that demonstrates two things: 
first, that our staff has the capability to identify problem 
beds; and second, it has the capability under a voluntary 
standard to take action under section 15. Second, it 
demonstrates that we are able to work with people who are in 
violation and bring them into compliance with the voluntary 
standard.
    Senator Kerry. Well, with all due respect, Ms. Gall, I am 
sorry to interrupt you, but you are not, in fact, answering my 
question.
    Ms. Gall. Well, I am getting there.
    So what the staff had proposed was the exact language of 
the voluntary standard to be incorporated as the mandatory 
standard. If we thought that the voluntary standard was not 
adequate to address the problem, why would we propose that as 
the language for the mandatory standard, point number one.
    Point number two----
    Senator Kerry. Well, because for the following four 
reasons: because the staff said, number one, by making it 
mandatory it would allow them to pursue civil penalties for 
violations; number two, it would facilitate the recall of 
defective beds; number three, it would increase compliance; and 
number four, it would prevent the importation of noncomplying 
beds by foreign manufacturers--all four of which things you 
could not do under the voluntary----
    Ms. Gall. Actually, Senator, we did identify noncomplying 
beds, as you noted, and we did take action against those 
noncomplying beds. So that is incorrect.
    Senator Kerry. Because they voted to make it mandatory, and 
you voted against it.
    Ms. Gall. No, this was before. This was before, Senator.
    If I may continue, what they proposed was the voluntary 
standard to be incorporated as a mandatory standard. To say 
that the mandatory standard would automatically increase 
compliance from over 90 percent to 100 percent is not 
justification for moving in that direction because the law does 
not say that. The Congress told us to look to voluntary 
standards first. The Congress said if those were adequate and 
if there was a high rate of compliance, that was what we were 
to do.
    To change that interpretation of the law to say that 
automatically a mandatory standard is going to have a higher 
rate of compliance than a voluntary standard is not what the 
law states, number one, and number two, is not necessarily 
true. We have mandatory standards at the Commission. We would 
like to think that they have 100 percent compliance, but in the 
last year we had over a million cigarette lighters stopped at 
the docks that were not in compliance with the mandatory 
standard. We have fireworks, where we have about a rate of 56 
percent compliance with the mandatory standard.
    We are working hard to improve that, but that does not 
necessarily mean there will be a higher rate of compliance if 
the standard is mandatory rather than voluntary, and that is 
not what the law tells us to do.
    Senator Kerry. Well, my time is up. It raises a very 
serious question, if I may say, and I will just say this very 
quickly. See, this is what underscores the question of sort of 
a philosophy or a point of view. If two members of the 
Commission were prepared to move to mandatory and the staff was 
saying overwhelmingly we are not protecting these children 
adequately, the voluntary standard has not worked over 8 years, 
but you hung your hat on a substantial compliance concept, 
erroneously putting it into one segment of a two-part law. You 
effectively turned away from the mandatory promulgation and 
based it on a percentage.
    Now, indeed percentages are statistics, but for the 10 
percent, you can have 10 percent of a large number of people 
which is too many of our children being submitted to a 
particular risk. The question is which way were you willing to 
fall in that balance.
    Ms. Gall. But Senator, first of all, I was following what 
the law said. Commissioner Moore agreed with me that the 
general counsel's interpretation was incorrect.
    Second, making something a mandatory standard does not 
guarantee a higher rate of compliance than having a voluntary 
standard. If we have 90 percent of people in compliance with a 
voluntary standard, we have a mandatory standard on another 
issue where there is 56 percent of compliance, or we have a 
million cigarette lighters coming into the country that are not 
in compliance with the mandatory standard, I think that 
demonstrates that, while we try to go for 100 percent 
compliance with a mandatory standard, we do not always reach 
that. And the law tells us we must look to voluntary standards 
first.
    The Chairman. Senator Burns.
    Senator Burns. I am going to pass this first round.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Ms. Gall, every Senator here has acknowledged that there is 
a role for individual responsibility and consumer misuse on 
these issues. But what we are concerned about is whether you 
are going to skew the balance toward saying that the consumer 
is at fault rather than looking at product shortcomings. I want 
to review with you three statements that you made that suggest 
that you will skew the balance against the question of 
investigating whether the product is part of the problem and 
give you a chance to respond.
    On the baby walker issue, you said: ``. . . the problem 
here is not with the walker, but with the failure of those 
entrusted with caring for small children. . . .'' On the gas-
fired water heater you said almost the same thing: ``. . . the 
problem before us is one of consumer behavior rather than a 
defective product.'' In the baby bath seats issue you said, 
again virtually the same thing: ``The problem is not with the 
product, but with the use of the product by the adult.''
    So in three significant cases you said that the problem is 
with the consumer rather than the product. Here is what 
troubles me because, like my colleagues, I think there is a 
clear and key role for individual responsibility and the 
question of consumer misuse has already been talked of. But 
what concerns me is that you voted not to even look at the 
question of whether a product's shortcoming is part of the 
problem as well.
    In other words, you were not voting on the baby bath seats 
initially on a ban, which is what you told me, and I was 
troubled when you said that. You were voting against 
investigating whether there was a potential product 
shortcoming.
    So my question to you is, if you get to be the Chair are 
you going to investigate only when a product is so unsafe that 
it is a problem even when you have perfect consumer behavior 
every time in the marketplace?
    Ms. Gall. Well, first of all, Chairman Brown talks about 
the Federal safety triangle. There is a role for government, 
for industry, and for the consumer, as you have noted.
    With regard to baby walkers first, my concern was that 
there were about 18,000 babies per year going flying down the 
stairs in baby walkers. There were the same number of babies 
the same age falling down the stairs who were not in baby 
walkers. Obviously, I am concerned about both groups of babies, 
and the simplest way to address that of course is to put up a 
baby gate or to close a door, as the Senators who have young 
children here acknowledge, that that is a safety measure you 
have to take when you have young children around the home.
    With regard to baby walkers, I felt that it was 
inappropriate to move forward on a mandatory standard. However, 
I recommended that we work closely with the voluntary standard 
community and the Juvenile Products Manufacturers Association 
to develop any necessary work to address some of these issues 
with baby walkers. In point of fact, it did not take a 
mandatory standard to correct and to improve baby walkers so 
that they have either braking mechanisms or they are now 
stationary. It did not take a mandatory standard.
    Unfortunately, as we have these discussions about various 
issues, just as with the Senate, at the Commission there is no 
one size fits all solution to every issue that comes before us. 
There are lots of different ideas about patients bill of rights 
and prescription drugs and so on that come to the Senate in a 
mix. We have to think at the Commission outside those blinders 
of it must be a mandatory standard all the time and look at the 
best way to address an issue.
    Sometimes it is a mandatory standard. Sometimes it is 
working with the voluntary standards community. Sometimes it is 
sitting down, as with gas-fired water heaters, it is sitting 
down with industry, bringing them all together. Gas-fired water 
heaters is a success story, Senator.
    Senator Wyden. Well, Ms. Gall, the time is short. In each 
one of those statements, though, you did not say what you just 
said.
    Ms. Gall. Sure I did.
    Senator Wyden. No, ma'am. I quoted you. In three 
proceedings you in effect blamed the consumer. What I want to 
make sure is that if you are Chair of this Commission that you 
are willing to at least investigate--I am not talking about 
what the remedy is--to at least investigate whether or not 
product shortcomings are part of the problem as well, because 
in three proceedings you said you would not even take the 
initial steps to investigate whether there are product 
shortcomings.
    My second question to you is would you approach your job 
differently if you are confirmed as Chair than you did, say, as 
a member? Everybody has got a right to change, and I have 
certainly made changes on my views over the years. But, I would 
like to have you say for the record whether you are going to 
handle your position as Chair the way you handled your 
assignment during your previous 10 years.
    Ms. Gall. Senator, I would just like to follow up quickly. 
I did agree to work with the voluntary standard community with 
baby walkers and it was successful. With gas-fired water 
heaters, we called industry together. I worked very closely 
with industry. They had to develop new technology and they have 
done so. It is now being field tested and we will have some 
wonderful news for you in the near future.
    With regard to bath seats, I voted based on the facts and 
the law before me at the time. I did so again, changing my mind 
because there was new evidence, in the recent vote that we 
took. I look at the evidence and I look at the law. I will not 
change the way I conduct business by looking at the evidence 
and looking at the law.
    With bath seats, in 1994 we had the extreme cases. As I 
mentioned to you, some of them were very extreme, where 
children were left for long periods of time, but the bath seat 
functioned properly. It was attached to the tub, it was sitting 
upright. There were extreme circumstances.
    Again this year, there were extreme circumstances. You 
know, I think very few of you would agree to regulate when 
there is an issue, for example, of a mother who is drunk, she 
puts her child in a bath seat in the tub, turns the water on, 
goes downstairs; the water fills the tub completely, overflows, 
floods the bathroom floor, seeps through the bathroom floor to 
the living room ceiling below. There is no mandatory standard, 
there is no performance standard, there is no ban, that will 
protect that baby in that kind of circumstance. That is an 
egregious case.
    That was the kind of thing we saw frequently with the cases 
before us in 1994.
    Senator Wyden. My time is up. I only want to say, Ms. Gall, 
what troubles me is that when we create this balance between 
consumer use and product shortcoming, it still looks to me like 
your reaction is going to be to first blame the consumer rather 
than to initiate an effort to examine whether product 
shortcomings are part of this as well.
    I look forward to the next round, Mr. Chairman.
    The Chairman. Next we will have Senator Allen.
    Senator Allen. Thank you, Mr. Chairman.
    Having come and gone, I am not sure what was being covered, 
but I think everything from car seats to bunk beds have been. 
Let me ask you something that is maybe not in the various 
safety matters, but I was looking at your response to the 
second question as far as the top three challenges facing the 
Commission. The first one that you brought up was ``The 
Commission needs to improve consumer product safety by 
harmonizing international consumer product safety standards,'' 
and more participation with the technical staff and so forth. 
Then you get into ``leveraging of existing resources of 
government by strategic alliances with other government 
organizations that have an existing international presence.''
    Yesterday I met with the Secretary of Commerce on some of 
the issues. I was reading on the issues as far as international 
trade, and I read just yesterday how there is actually some 
pretty good positive comments coming out of Great Britain with 
the U.S. counterpart on having not just a NAFTA for North 
America, but having the Americas and Europe harmonizing trade, 
which would be beneficial, I think clearly beneficial to 
Americans, to be able to get our products into Europe. There 
are some very good products out of France and Germany and 
Britain and the Netherlands, the Swiss, and Austria and 
elsewhere that we would like as well.
    Now, the key to that I think, in the event that there is 
that harmonization and that we can get our products easily into 
Europe and European countries can get their products into our 
country, clearly one of the things that they talked about is 
the safety standards. Clearly, your agency would have to be 
involved in that.
    Ms. Gall. That is right.
    Senator Allen. You made that a number one priority, which I 
think is very good because it means jobs and opportunities for 
this country. How do you see your agency or this agency or this 
Commission working with your European counterparts? Where would 
you see any problems or where do you see--do you think that 
their regulations of consumer protection would be so difficult 
that we could not be able to agree with them, or do you see 
that as fairly easy, although with some negotiations, in 
harmonizing their safety standards with those of the United 
States?
    Ms. Gall. Well, first of all, we have had limited 
experience at the Consumer Product Safety Commission on 
addressing those issues. We have not done much in the last 
several years. Many of the safety organizations in Europe are 
voluntary standard-setting organizations. Some individual 
countries of course have mandatory standards as well.
    We believe that our safety standards here in the United 
States, at least certainly the ones involved with the Consumer 
Product Safety Commission, are the best in the world and we 
would never consider lowering the standards to accommodate 
European standards. So let me say that first.
    Second, we would probably be very closely involved with the 
Trade Representative, State Department, Commerce, and so on. 
But I think we need to go beyond that because we have new 
markets emerging, countries who are bringing their goods into 
the United States for the first time. We need to work with 
those countries to let them know what our standards are and 
what we expect when we import goods from their countries.
    One area I think we need to address is Mexico. We have had 
a doubling of imports from Mexico in the last 10 years. There 
are consumer products, everything from textiles to small 
appliances and toys and cigarette lighters, coming in through 
the Mexican borders. So that is an area I would like to see us 
open up communications with Mexico.
    We have an ongoing good relationship with Canada and we 
will continue that, of course. But the harmonization of 
standards I think is a very important issue.
    There are other international issues that we need to take a 
look at as well. We have had the opportunity in the last couple 
years to do some research with our European counterparts. There 
have been concerns raised here in the United States and in 
Europe about the use of diosononophthalates in polyvinyl 
chloride, which is used to soften toys, and there have been 
some concerns raised about whether or not those chemical 
compounds are toxic to organs within the body and perhaps 
cancer-producing.
    We issued a report saying that we had taken a look at these 
issues and we felt that DINP was safe. But our American 
companies voluntarily removed it from their products that 
children would mouth, such as teething rings and pacifiers and 
those kinds of things.
    But that kind of exchange when we are both addressing the 
same issue, concerns about chemicals in products, is something 
that is very healthy. We developed a methodology that the 
Europeans are going to adopt as they do their testing for their 
products. So that exchange, that international exchange, is a 
healthy consequence of some of the work that we do at CPSC. But 
again, the harmonization is a very important issue.
    Senator Allen. I do not have much time left.
    Ms. Gall. I'm Irish; I tend to talk a lot.
    Senator Allen. I know that you look at having industry 
voluntarily come up with standards. I think that what you will 
find in this area is that sometimes you will find that the 
industry, wanting to enter say the European market or the 
Europeans wanting to enter our market, whether it is on 
tractors or chain saws or appliances or whatever it may be, 
they are going to agree to maybe a stricter standard because 
they just want to please everyone with it, but it is good for 
business and it is good for consumers as well. So your 
voluntary approaches may have industry actually saying, here is 
what we want to do, which is maybe further than we may want to 
constrain them.
    The Chairman. Very good.
    Senator Boxer.
    Senator Boxer. Ms. Gall, I am going to make a couple of 
comments and then at the end I am going to ask a question about 
recalls and your philosophy on that.
    Ms. Gall. All right.
    Senator Boxer. I want to pick up on what you said about an 
example you gave of a drunk mother--it could be a drunk mother 
or a drunk father--who puts a child, let us say, in a baby bath 
seat, walks downstairs and, to use your example, forgets about 
the child and so on.
    How do I feel about that? I would go after that mother or 
that father with the full backing of law enforcement. But you 
know what else? I would make that baby bath seat the safest it 
can be. If it can be made safer, do everything to protect that 
child. That child should not be punished because that poor 
little innocent has a neglectful parent, mother or father.
    So that is one place where I do not see the two being 
incompatible. You go after the negligent parent, you make that 
baby bath seat the safest it can be.
    You have said to me privately, and you repeat it today, you 
voted 97 percent of the time with the other Commissioners. You 
said in my office that----
    Ms. Gall. Right, on enforcement.
    Senator Boxer. Let me finish.
    --I am not extremist. Now, we have looked at most of the 
votes in the Commission. Most of them are noncontroversial, Mr. 
Chairman, such as voting to publish a notice in the Federal 
Register, appoint staff, accept settlement agreements, or to 
commend a company for taking certain actions.
    But you see, what troubles me is this kind of dual message 
we get from you. You say that; on the other hand, you said in 
your testimony before this very Committee in 1999 when you were 
up to be back on the Commission, quote, quote from you: ``The 
other Commissioners and I do not always agree. In fact, a lot 
of the time we do not agree.''
    So it seems to me there is a kind of a changing deal here. 
Sometimes you do not agree with them and now you say you agree 
with them, and I am very, very troubled by this conflict.
    I want to talk to you about this education campaign that 
the Commission embarked upon to let parents know that if they 
do take a child into bed with them there are certain risks. It 
was an education campaign. It did not have to do with recall of 
a product. It did not say the bed was faulty. It just let 
parents know that there are 64 deaths every year from 
suffocation and strangulation when this occurs.
    Now, clearly it is up to a parent, but I found that to be 
important for parents to think about. You could roll over on a 
child, the child could slip down between the mattress and the 
guard rail. These are things that are important for parents to 
know.
    Well, how did you react? You not only did not agree, but 
you wrote a big article in the USA Today. I have it. I would 
ask unanimous consent to place this into the record.
    The Chairman. It will be included.
    [The material referred to follows:]

        Infant-Sleeping Study a Case of Agency's `Over-Reaching'

     Mary Sheila Gall, Vice Chairman, U.S. Consumer Product Safety 
                      Commission, Washington, D.C.

                      USA Today, October 12, 1999

                (Copyright 1999, Gannett Company, Inc.)

    USA TODAY's article addressing the latest warnings from the 
U.S. Consumer Product Safety Commission (CPSC) on the perilous 
hazards of children co-sleeping with their parents requires 
that I respond (``Study advises against parent-infant `co-
sleeping,' '' Life, Sept. 30).
    Philosophically, I am troubled by an official report in 
which this agency instructs mothers on whether they should be 
``co-sleeping'' with their children.
    Frankly, as the only current Republican member on the 
commission, it has been increasingly frustrating, in recent 
years, to witness the procession of proclamations issued by 
this agency on behalf of the federal Nanny State.
    Specifically, I was unable to find a defective consumer 
product identified in our ``study'' as the causation of this 
hazard. Quite simply, there wasn't any product, defect or 
jurisdiction--just babies sleeping with their parents.
    This may well be a controversial practice, but it is 
apparently a practice that many leading authorities have 
proclaimed actually promotes family bonding.
    But the lack of any subject-matter jurisdiction over human 
behavior apparently did not get in the way of this agency's 
running with an attention-grabbing headline.
    In point of fact, this CPSC ``study'' was never intended to 
be issued as an official government research effort. This was 
originally an unofficial, independent effort produced by 
several employees of the consumer product safety agency.
    I should note that I always have supported this sort of 
independent research by members of our staff--but only as their 
own personal work product, produced on their own time, and not 
as an agency-sanctioned or agency-funded effort.
    This staff study was deemed retroactively to be an official 
CPSC study--only after it was completed and written and on the 
verge of publication by a prestigious professional 
organization. While I personally admire these staffers for 
their initiative, I voted against proclaiming this to be an 
official CPSC study.
    Why? Very simply--it was not.
    I have been a member of this commission for almost eight 
years and am very proud of this agency's diligence on behalf of 
the American consumer. Its agenda does provide a valuable 
public service.
    Our recent efforts on smoke detectors, child-resistant 
cigarette lighters and fireworks are only a few illustrations 
of how the consumer protection agency can indeed save lives.
    I also should note that I have consistently advocated 
personal responsibility, criticizing attempts to declare a 
particular product defective when the only ``hazard'' has been 
the bizarre use of a product by the consumer. But, here, there 
simply is no product--defective or otherwise.
    The only peril I can detect in this particular episode is 
over-reaching by a federal regulatory agency.

    Senator Boxer. In which you wrote, among other things, and 
let me quote it directly: ``Infant sleeping study, a case of 
agency's overreaching.'' You wrote, and I am just quoting 
because of time a couple of the things: ``Frankly, as the only 
current Republican member on the commission''--which I find--I 
did not think we think of ourselves when we are on a 
commission, but fine--``it has been increasingly 
frustrating''--your service on the Commission--``in recent 
years to witness the processing of proclamations issued by this 
agency on behalf of the federal Nanny State.''
    Then you go on and say: ``While I personally admire the 
[sic] staffers for their initiative, I voted against 
proclaiming this to be an official CPSC study.''--in other 
words, studying if kids die if they are brought into bed with 
their parents. You say: ``The only peril I can detect in this 
particular episode is over-reaching by a federal regulatory 
agency.''
    Well, that is incredible to me when you look at the fact 
that there are 64 deaths each year, but the only peril you see 
is overreaching.
    I am a believer that information is very, very important, 
and I worry because, again, being on the Commission is one 
thing; being the Chair, you impact the staff, you have 
tremendous influence over the staff. I worry about a chilling 
effect on the staff when they are told not to give information 
to the public.
    Now, obviously people will make that decision, but you 
know, a breast-feeding mother might just say: I never thought 
of that, so I am going to bring my baby into bed with me and 
when I am done I am going to change that baby's diaper and put 
her back into her crib that has safety standards, and maybe 
that would in fact save lives--64 kids a year.
    So it greatly troubles me that not only would you oppose 
the Commission informing parents, but you go so far as to write 
an op-ed piece mentioning that you were the only Republican and 
you are worried about the direction of the Commission.
    I wanted to ask you about recalls. It is my understanding--
please correct me if I am wrong--that the way a recall works is 
the staff will recommend a recall and they will sit down with 
the product, the maker of the product, the manufacturer, and 
together they will come to some conclusion about a recall; is 
that correct? You do not directly vote on recall, is that 
correct?
    Ms. Gall. No, we do not. We are informed along the process 
and give direction if necessary.
    Senator Boxer. Well, I had heard a tape of one of these 
discussions with the Commission, Mr. Chairman, where you, Ms. 
Gall, are talking about a baby walker. It involved the Safety 
First baby walker, where children were getting their teeth 
caught in a seam on the handle of the baby walker. You know how 
kids teeth on everything, that toddlers would teeth. What would 
happen is they would put their teeth down and literally their 
teeth would pop out and they would lose their teeth on this 
``Safety First'' baby walker.
    I was listening to your questions and I was frankly 
stunned, because your line of questioning was, and I am quoting 
directly from your question: ``The teeth we are talking about 
are baby teeth, right? Would that damage be permanent?''
    In other words, your whole approach to it was to sort of 
belittle the fact that these kids were losing their teeth, and 
we know that in fact if baby teeth are lost prematurely it 
impacts on the speech development of the child and all the 
rest. So just your approach to these things is very worrisome.
    My time has run out, so we can either ask you to respond to 
that baby teeth question or we can wait until the next round, 
Mr. Chairman.
    The Chairman. Well, let the witness respond. Go ahead, Ms. 
Gall, any response you have.
    Ms. Gall. Thank you very much.
    That was in a closed compliance meeting, so it is 
interesting that someone gave you that tape. But the essence of 
the discussion was this. I wanted to understand the extent of 
the injury that was caused. I supported the recall.
    Senator Boxer. Did you say that? Did you say you supported 
it?
    Ms. Gall. I may not have said that when you heard the tape, 
but the agency knows that I supported the recall for that 
product.
    I was asking questions to establish the amount of the 
injury. I did not know what the impact of losing baby teeth 
would be on permanent teeth and that was the question I was 
asking.
    The Chairman. Good.
    Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    Thank you, Ms. Gall, for the information you are providing. 
You have corrected the record in a lot of instances in today's 
hearing and I think you are acquitting yourself quite well.
    As a grandmother of five, I want to compliment you on the 
vote to rescind the infant sleepwear rule requiring that 
pajamas be flame-resistant and therefore polyester. Our 
grandchildren have suffered from heat and have not worn pajamas 
at all because they are so hot in the summertime because they 
could not be all cotton. I know that that has been twisted and 
made you to look like you were not for the flame-retardant 
safety. You have, in fact, been able to look into it, get the 
facts, and determine that actually the flame-resistant 
sleepwear did not make that much of a difference.
    I appreciate your willingness to stand up, and a lot of 
mothers and grandmothers in the southern States especially 
appreciate it in the summertime when they want cotton next to 
their children's bodies, not polyester.
    Did you want to elaborate on your reasoning behind that and 
clarify what I think has been a distortion of your record on 
that point?
    Ms. Gall. Thank you very much, Senator. Both Commissioner 
Moore and I agreed in our concern that parents wanted, and 
grandparents wanted, to place their children in safe cotton 
alternatives, and we discovered that there were many burn 
injuries with large size tee shirts, adult size tee shirts that 
children were wearing to bed because that was the cotton 
alternative.
    So we looked for a safe cotton alternative for parents to 
use. The tight-fitting sleepwear that we proposed as a safe 
alternative retards the spread of the flame. It is designed for 
a single point ignition of a small flame, if a child is playing 
with a cigarette lighter or matches or whatever. It is less 
likely to catch because it is snug-fitting.
    We also maintained the flame-resistant sleepwear such as 
nightgowns and other kinds of pajamas, so that people have the 
alternatives available to them. The cotton alternative is very 
carefully labeled so that a parent knows that he or she can 
make that choice and clearly understand the parameters of the 
choice they are making.
    The other point to note is that the Canadians and several 
other countries have adopted this same type of sleepwear and 
none of those countries have experienced burn injuries related 
to the safe cotton alternative. Theirs was less stringent than 
our alternative that we devised, and we too have not seen the 
burn injuries that we saw previously.
    We still continue to see burn injuries with children in tee 
shirts, but we are hoping that now that we have provided this 
alternative parents will not put the children in tee shirts, 
but will put them in the safe cotton alternative instead. It 
appears to be quite a success story. Unfortunately, it has 
been, as you noted, distorted to make it sound as though we 
want children to burn to death.
    There is no alternative for sleepwear in a whole-house 
fire. Really, there is not any fabric that will protect a child 
in a whole-house fire. But this is to give children a chance if 
they come across a small single point ignition, matches, 
cigarette lighter, and so on.
    Senator Hutchison. Thank you very much for that.
    I just want to ask if you think common sense plays a role 
when you are in a regulatory position and where you would apply 
the common sense, as I think you did in this particular 
instance? Are there places where you think common sense should 
be more a part of the regulatory processes that you as 
Chairman, if you are confirmed, would be able to affect?
    Ms. Gall. Well, first of all, we look at the law, we look 
at the evidence. But I think common sense certainly comes into 
play when we are talking about consumer behavior. I mentioned 
an extreme case earlier about the drunk mother who leaves the 
water running and the child in the tub. That is an extreme 
case. There is very little that we can do about that, and I am 
encouraged to hear that Senator Boxer agrees with me that that 
is the kind of thing we need to go after in terms of the parent 
behavior.
    To follow up on your point, Senator Boxer, about the bath 
seats, we are taking steps, as I noted to you earlier, to look 
at rulemaking for bath seats. We are concerned if we devise too 
safe a looking bath seat that that will encourage parents to 
leave children for longer periods of time. So it is a delicate 
balance. You have to look at both sides.
    We have learned from air bags in the front seat passenger 
side and the impact on young children that, while something may 
sound good, we have to do that delicate balance. Certainly 
common sense plays a role in looking at consumer behavior.
    There is a role for addressing through a mandatory or 
voluntary standard consumer foreseeable misuse. Gramma leaves 
her pills out on the kitchen table because she cannot open the 
child-resistant top to her medicine, so she leaves her medicine 
out on the table. Her grandchild comes along and thinks the 
medicine is candy, takes it, and is poisoned. When we noted an 
increase in the number of cases where we saw children being 
poisoned by their grandparents' medicine because the caps were 
left off, we moved forward with providing adult-friendly, 
child-resistant caps that have a two-step cognitive process 
where you can remove the cap easily, so that we do not have the 
experience of medicines being left out and open.
    There are a number of other issues where I believe we have 
to address, the law tells us to address, foreseeable misuse. So 
it is a balance and it is common sense, that is true.
    Senator Hutchison. Thank you very much.
    Ms. Gall. Thank you.
    The Chairman. Very good.
    Senator Breaux.

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Thank you, Mr. Chairman.
    Ms. Gall, thank you for coming before the Committee and 
answering these questions and your statement. I think that the 
fact that you were appointed originally by President Bush, 
reappointed by President Clinton, and now appointed by 
President George W. Bush is important to show that you had the 
support in a bipartisan fashion over the years.
    I would make the point, however, that it is one thing to be 
appointed as a member of a Commission and it is another thing 
to be appointed to chair that Commission, because the Chair 
obviously has a great deal more responsibility in setting the 
tone, setting the policy, and setting the schedule for a 
commission to operate. That is true in all of our commissions.
    So it is not inappropriate, I think, for us to explore 
further your philosophy in how you would take the Commission, 
in what direction. I am particularly interested in your 
comments in a number of cases with regard to your position on 
mandating design changes to products when in fact your opinion 
is that the accident was caused by the negligent use of that 
product and/or by a lack of supervision in using those 
products.
    It would seem to me that in the baby walker case you said 
that in normal use in a protected environment, under 
appropriate supervision, there is no evidence that the design 
or the manufacture of the walkers present an unreasonable risk 
of falls. In the baby bath case you said that it is clear that 
irresponsible actions of those entrusted with caring for these 
children have almost without exception caused their death.
    My concern is that we do not live in a theoretical world 
where everybody does things properly and appropriately and in a 
supervised manner. If everyone drove cars in a responsible 
fashion we would not need seat belts, we would not need air 
bags, we would not need cars that are built to higher safety 
standards. But the fact is in the real world people operate 
machinery and use equipment and products in an unsafe manner. 
That is particularly true among seniors, that is particularly 
true among children, who do not have the capacity to always act 
in a responsible manner. We as a society know that.
    So my question I think is, it seems to me that your 
position has been consistent in not mandating design changes 
when, in your opinion, the cause of the accident is the 
negligent use of the product. It would seem to me that we have 
to take into consideration that products in fact are used in a 
negligent manner, that they are in fact used without 
supervision, that this is a fact of life, and therefore, when 
we can redesign a product to take that into consideration we in 
fact should do that.
    That does seem to be your position in a very consistent 
manner, and I would like you to talk to me about that.
    Ms. Gall. Sure. Thank you. First of all, let me take one 
example, gas-fired water heaters. It was true, at least in my 
view it was true, that consumer misuse had a great deal to play 
in that issue. We noted in the data of the in-depth 
investigations that young men between 18 and 26 were storing 
gasoline--predominantly young men, not always--were storing 
gasoline improperly, not putting covers on it and so on, where 
the vapors would escape and go across the room. The hot water 
heater worked appropriately, the way a hot water heater is 
supposed to work, but when it was exposed to vapors from 
improperly stored gasoline or gasoline that was being used to 
clean hands, for example, or whatever at the time, that the 
vapors would build up and cause a fire incident.
    That required a multi-prong approach. The gas manufacturers 
did a very in-depth education, information campaign that was 
widely recognized as a model for industry, so that was one 
point. We worked very closely with them on that.
    Senator Breaux. My question to you is directly--I know we 
can cite examples, but I have given you two examples where some 
would argue that the redesign of a product can take into 
account the improper use of that product, and it is not going 
to be adequately supervised, that people are going to misuse 
the product.
    Ms. Gall. I am getting to that.
    Senator Breaux. Your position has been in those two cases 
that you feel that if the negligent use of the product caused 
the accident, we should not consider redesigning those 
products. Am I correct in saying that or not?
    Ms. Gall. Let me continue on with the gas-fired water 
heater.
    Senator Breaux. Just tell me what you believe.
    Ms. Gall. I believe that we need to take a look at 
products. We also need to take a look at behavior. Some 
behavior is extreme, and you cannot devise a voluntary or 
mandatory standard to address extreme behavior. We can look at 
foreseeable misuse and we can address issues related to 
foreseeable misuse, and I have done that quite often.
    Senator Breaux. But you did not do it in the two baby 
cases, the baby walker and the baby bath case. You said that if 
it was used properly it would not be a problem.
    Ms. Gall. Well, Senator, my concern was not only for the 
children in the walker, but the children who fell down the 
stairs who were not in the walker, and that is why I felt it 
was important, first of all, that parents close doors and 
engage safety gates.
    Senator Breaux. But parents do not do that sometimes.
    Ms. Gall. But let me finish, Senator. I did support working 
with industry to devise a voluntary standard and to redesign 
product. I did not feel it was necessary to go forward on a 
mandatory standard because we had a good track record with this 
industry.
    When we do not have a good track record with the voluntary 
standards on a particular issue, we do not have a good track 
record with industry devising a response, then we have to move 
forward on a mandatory standard, and I have done so with bath 
seats, cigarette lighters, a whole host of other issues.
    But to get back to gas-fired water heaters, since that was 
one of your examples, we did call together----
    Senator Breaux. I did not mention that. That was your 
example.
    Ms. Gall. Well, someone's example. We did call all the 
industry leaders together. We have worked with them on devising 
new technology. There was not anything we could do a mandatory 
standard about at the time. The technology did not exist. So we 
have worked with industry. We have done a tremendous amount of 
research with industry. They have devised some new designs. 
That shows how we can work together without having a mandatory 
standard forcing the issue.
    I just disagree that we require that all the time to get 
the job done in working with industry.
    Senator Breaux. Thank you.
    The Chairman. Thank you.
    We will recognize Senator Edwards. He has got to preside 
here momentarily. Senator Edwards.
    Senator Edwards. Thank you, Mr. Chairman.
    Good morning, Ms. Gall.
    Ms. Gall. Good morning. It is a long morning.
    Senator Edwards. It is still morning.
    I wanted to follow up on some answers you gave to Senator 
Kerry a little earlier today. He made reference specifically to 
your dissenting vote against issuing a Federal safety standard 
for bunk beds. In 1999, you were the sole vote against issuing 
a safety standard for bunk beds.
    Ms. Gall. Right.
    Senator Edwards. The two of you talked about two components 
in the law that are necessary in order to find that a voluntary 
standard is adequate.
    Ms. Gall. Right.
    Senator Edwards. The voluntary standard for bunk beds had 
been in place since 1992, I believe; is that correct?
    Ms. Gall. Yes. There had been changes throughout, but----
    Senator Edwards. But it had been there for 7 or 8 years.
    Ms. Gall. Yes.
    Senator Edwards. The two requirements in the law, one of 
which you made reference to when you made your decision, was--
it is actually the second requirement--that there be 
substantial compliance with such voluntary standards. Some 
would argue that 630,000 recalls over the course of 7 or 8 
years is not substantial compliance.
    But, I want to focus on the first requirement, which is 
that you have to find that the voluntary standard would 
eliminate or adequately reduce the risk of injury. Now, a 
voluntary standard, as of the time of that vote, had been in 
place for 7 years. Since 1990, 89 children had died in bunk 
bed-related accidents, 57 from entrapment.
    My question to you is, did you find in making that decision 
and rendering that vote that there had been adequate 
compliance, number one; and number two, that the voluntary 
standard eliminated or adequately reduced the risk, even in the 
face of 50 some odd children dying while the voluntary standard 
was in place?
    Ms. Gall. First of all with regard to the number of 
children who had died, obviously every death is a tragedy, 
especially when it is a child. Of those 57 deaths, most of them 
were beds that would not be covered by a mandatory standard 
because they were institutional beds that were taken and used 
by individuals.
    Senator Edwards. But you would concede that some children 
died during that period of time, would you not?
    Ms. Gall. I concede they had.
    Senator Edwards. My question is if children are--excuse me, 
I am sorry. If children were dying during that period of time, 
whatever the number is, and maybe we could argue about that, 
but whatever the number is, if children died while the 
voluntary standard was in place--and in fact by 1999 it had 
been in place for 7 years--if children died during that period 
of time, from your perspective did that voluntary standard 
eliminate or adequately reduce the risk of injury?
    Ms. Gall. Senator, my point about the----
    Senator Edwards. Can you answer that question and then I 
would be glad to hear your explanation.
    Ms. Gall. I would be happy to. First of all, the deaths 
would not be covered by the voluntary or the mandatory 
standard. That is the first point. These were homemade beds, 
they were altered beds, they were institutional beds that had 
been removed from dorms, never would have been--let me finish, 
Senator, please. They never would have been covered by either 
the voluntary or mandatory standard. That is one point.
    Senator Edwards. Yes, ma'am, but were you saying----
    Ms. Gall. The second point is the adequacy----
    Senator Edwards. Excuse me, I am sorry. Are you saying that 
all those children who died who fell in the categories you just 
talked about--none of the children who died would in fact have 
been covered by the standard? For example, sitting two rows 
behind you is Lyn Starks, who lost her daughter, I think in 
1997, her 3 year old child in 1997, 5 years after this 
voluntary standard had been put in place. Would you say to her 
that this standard adequately protected her daughter from the 
risk of injury, excuse me, from this bunk bed?
    Ms. Gall. Senator, what I am saying is that a significant 
number--I am not saying every single death--was associated with 
a bed that would not have been covered, number one.
    Number two, with regard to the adequacy of the standard, if 
the staff felt that the voluntary standard was inadequate the 
question is why would they propose that to be a mandatory 
standard. Why would they do that if they thought it was 
inadequate?
    Senator Edwards. I do not know, but two of your colleagues 
apparently----
    Ms. Gall. That is the question----
    Senator Edwards. Excuse me. Two of your colleagues 
apparently thought that it was important to have a mandatory 
standard. They laid out the fact that 89 deaths had occurred, 
57 by entrapment, that Ms. Starks had lost her child in 1997, 
her 3 year old daughter, 5 years after a voluntary standard had 
been put in place.
    Let me ask you about a second area if I can. One of the 
responsibilities of the Commission is you have authority over 
whether or not to pursue legal action against companies that 
manufacture defective products, correct?
    Ms. Gall. Right.
    Senator Edwards. I want to ask you about an area that I do 
not think you have been asked about before, which is 
sprinklers, sprinklers to avoid fires, put out fires, 
sprinklers in homes, dormitories, hospitals, that sort of 
thing. You opposed the filing of an administrative complaint, 
and I think you alone opposed it, against the sprinkler company 
that had been found to be manufacturing sprinklers that did not 
operate properly. They were in homes; they were in schools; 
they were in hospitals; they were in dormitories.
    The result of the complaint, I think, was a resolution 
where a huge number of these defective sprinklers were 
recalled. However, you were the sole dissenting vote against 
the Consumer Product Safety Commission taking action against a 
company that had manufactured sprinklers, put them in homes, 
hospitals, dormitories, all over this country. The result of 
the legal action that was taken was a successful resolution. 
These sprinklers were recalled.
    Am I correct about that? Were you the sole vote against it?
    Ms. Gall. Senator, I have twice voted against an 
administrative complaint with one reason and one reason only, 
and that is I would like to see these matters resolved before 
going to administrative complaint, because my concern is if we 
have protracted legal battles that go on for years the 
products, the unsafe products, remain in the home or in the 
school. I had asked that we----
    Senator Edwards. But, in fact, in this case there was, as a 
specific result of the action being filed by the Commission, 
which you opposed, there was a specific resolution recalling 
all of these defective sprinklers. In the mean time, if you did 
not take legal action and you were just engaging in discussion, 
these sprinklers stay in place, these defective sprinklers stay 
in place, and the risk of families, students, and patients in 
hospitals being hurt as the result of a fire continues, does it 
not?
    Ms. Gall. My point was this. In both cases my point was 
this----
    Senator Edwards. If you could answer my question first, and 
then I would be happy to hear your point.
    Ms. Gall. Senator, my point was that if we set a date 
certain by which time we are unable to negotiate a settlement 
that would remove the unsafe product from the home quickly, 
then I would approve of an administrative complaint. My effort 
in both cases was to go back and try one more time, one more 
time to try and get a settlement, so we would not have to 
potentially go into protracted legal battles.
    Every single administrative complaint that we have filed--
and I have supported all of them except two--thank God, has 
resulted in a settlement that got the unsafe products out of 
the home. But every time we go for an administrative complaint 
the potential exists that those products can remain in the home 
or in the school for years as we go through these battles.
    I would prefer to see us settle these matters as quickly as 
possible to remove those unsafe products from the home.
    Senator Edwards. Thank you, Mr. Chairman.
    Thank you, Ms. Gall.
    The Chairman. Thank you.
    Senator Smith.

                STATEMENT OF HON. GORDON SMITH, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Smith. Thank you, Mr. Chairman.
    Thank you, Ms. Gall, for being here. Is it your view that 
there are businesses out there that sell and run, that are 
flim-flam operations?
    Ms. Gall. I think for the most part industry wants to make 
a safe product because they want to sell more of them. But we 
have had occasion to see that there have been some bad actors. 
We have had problems with imports coming into the United States 
where the child-resistant feature on a cigarette lighter was 
deliberately disengaged. That is a case where I think we have 
to go after people with criminal penalties and have a severe 
response and a quick response.
    We are often able to stop those products from crossing the 
border with our good help from U.S. Customs. But occasionally 
they get to the shelves, and that is harder for us to stop once 
they have reached the store shelves.
    We have had experience with bad actors, but for the most 
part I think companies try to manufacture a sound product.
    Senator Smith. But there are some bad actors.
    Ms. Gall. Yes.
    Senator Smith. That is why your Commission exists. That is 
why we have trial lawyers what seek civil justice. That is why 
we have criminal laws to go after those with criminal intent, 
and those things are ongoing. But it is your experience that 
most in business are trying to produce products that are safe, 
affordable, and that serve their purpose, and they want to sell 
the American consumer not one day, but every day if they can?
    Ms. Gall. That is right.
    Senator Smith. What percentage of the bad actors, the sell 
and run types, do you think are out there?
    Ms. Gall. Well, we see those with cigarette lighters 
occasionally. We see them with fireworks occasionally. We have 
had a number of criminal penalties related to fireworks and to 
the cigarette lighters. Small, inexpensive import toys 
sometimes are a very serious problem for us and we work 
aggressively to stop those from coming into the country, and 
when they are on the store shelves we work aggressively to go 
after them with recalls.
    Senator Smith. You are a mother; you care about safety in 
products in the home?
    Ms. Gall. Of course.
    Senator Smith. I wonder if you can tell me, because I am 
new to this Committee, what difference will there be in your 
role as a member of the Commission, which I understand you will 
continue to be whether or not confirmed to be the Chairman or 
not. You will continue until 2006; is that correct?
    Ms. Gall. That is right.
    Senator Smith. What different role would you have, what 
influence change would you have, if you were the chair?
    Ms. Gall. Well, certainly Chairman Brown has done a 
terrific job with highlighting public attention on the 
Commission and she has vigorously enforced the law and she has 
made a particular project of going after children's potential 
hazards. That will not change. I strongly support those 
initiatives.
    Senator Smith. The current Chairman is a Democrat?
    Ms. Gall. Yes.
    Senator Smith. And supports your nomination?
    Ms. Gall. She has not publicly supported my nomination. In 
private she has supported my nomination, but not in public. 
Commissioner Moore, the Vice Chairman, has supported publicly 
my nomination.
    In addition to carrying on the mission as Chairman Brown 
has, I also have highlighted in my opening remarks some areas 
of interest that I would like to pursue with regard to senior 
citizens and with regard to fire safety and some other issues 
as well, as well as critical investments that we need within 
the agency to do our jobs and do them well.
    Senator Smith. Do you have an adequate budget in your 
agency?
    Ms. Gall. That is a loaded question, is it not? I think 
that we need to have some additional funds to meet the needs of 
the new laws that have been imposed on the Commission and also 
to fund a research budget. We do not have a research budget. We 
need to do that. There are opportunities for studying circuit 
breaker fires, some wiring issues, that we do not have the 
capability of doing right now, that I would like to see us get 
involved in.
    Industry does research, but it is product development 
primarily. We would be interested in doing safety-related 
research and working with industry to address those issues.
    Senator Smith. I think what every Senator who is going to 
vote on your confirmation is really struggling with is do you 
have a different threshold than other members of the Commission 
for when, or burden of proof, if you will, for when you 
regulate or when you resort to voluntary. Is your standard 
different from others?
    Ms. Gall. Well, I look at the evidence and I look at the 
law, and I assume that my fellow Commissioners do the same. I 
also take into account consumer misuse and abuse, foreseeable 
misuse and abuse, when determining whether or not to proceed 
with a mandatory standard. I also look to see what voluntary 
standards are out there and whether or not they are adequate to 
address the problem at hand and if there is substantial 
compliance. If that is the case on both counts, then I look 
first to the voluntary standard, as required by law.
    Senator Smith. You are usually consistent with other 
Commissioners on that kind of approach?
    Ms. Gall. Yes, I believe so.
    Senator Smith. One of the Commission's most important 
functions, I have learned, is that of compliance. Can you 
explain how you have supported the Commission's compliance 
efforts?
    Ms. Gall. The staff does the day to day negotiations on 
recalls. I have supported all the recalls. I have supported, 
with two exceptions, administrative complaints, and I have 
explained why, because I wanted to make one last effort to 
settle before going to administrative complaint. I have 
supported enforcement issues, votes, 97 percent of the time.
    One instance I felt that, rather than going for a subpoena, 
we should either request the information or go for a search 
warrant if there was a concern that the information would not 
be forthcoming, and so I took a different direction than my 
colleagues on that one instance.
    But for the most part, overwhelmingly I have supported 
compliance activities and in fact have sometimes pressured the 
staff to go for criminal penalties in situations that I thought 
were particularly egregious, for example the deliberate 
disengagement, as I mentioned earlier, of cigarette lighter 
child resistance. I feel that when there is deliberate intent 
like that that we should aggressively pursue a criminal 
penalty.
    Senator Smith. Thank you, Ms. Gall.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Bill Nelson. Thank you, Mr. Chairman.
    I asked your staff to provide us with examples of deaths of 
elderly Floridians particularly that were occasioned by space 
heaters and other kinds of unfortunate accidents. I would like 
for you to talk to us a little bit about how you would propose 
to deal with a vulnerable population like the elderly.
    Ms. Gall. Well, in the past 7 years we have done some 
terrific work with AARP and others, but it has been primarily 
focused on grandparents as caregivers. That is an important 
consideration, certainly, as I mentioned earlier about 
medication, children being exposed to medication not in a 
proper container. We often see grandparents as primary 
caregivers of young children these days. That is on the 
increase.
    So that work has been very important. But my concern is 
that when we look at fire data and other data related to 
injuries and deaths we see that we are not reaching the 
elderly, we are not reaching the elderly poor, and that is a 
concern of mine that I would like to pursue. If you look at the 
census data, you see that the elderly are on the increase. In 
fact, those over 85 will double in the foreseeable future. So 
that is a particular interest of mine, especially the elderly 
poor that are less likely to have up to date wiring in their 
homes, they have pre-standard furniture in their homes, they 
are more likely to smoke and so that is a potential fire hazard 
there.
    So there are a whole host of these kinds of things that I 
think we need to address.
    Senator Bill Nelson. Exactly. You have identified, I think, 
very correctly that they are a very vulnerable population. My 
question is how do you propose to deal with that? Talk to me, 
for example, about how you would go about educating the 
elderly?
    Ms. Gall. Well, there are two important things. Obviously, 
we can use the traditional resources: the Office of Aging, the 
AARP, and we reach a number of elderly that way. The elderly 
poor are another circumstance, just like new immigrants are 
another circumstance. They are difficult to reach with safety 
messages.
    So I would propose that we use some creative, outside the 
box, shall we say, approaches to meeting, to providing them 
with safety information. I am in the process of developing 
those and, if confirmed by the Senate, I will pursue that.
    Senator Bill Nelson. Give me some ideas. What is outside of 
the box?
    Ms. Gall. I think, as with other cases that we have seen in 
the past with new immigrants, government agencies are not 
traditionally in close contact and have an authority basis for 
the elderly. You can reach them perhaps through a message in 
the Social Security envelope when the check comes, but there 
are non-traditional, non-government approaches that can be 
used.
    For example, working with Congressional offices to identify 
leaders in those communities and to work through some non-
traditional leadership roles to reach the elderly poor through 
day care settings and so on, where elderly may be coming into a 
day care setting, a senior day care, those kinds of activities.
    Also, providing information, I think, on the web for those 
who care for older citizens. We do not have that kind of 
information in one place where someone who is either caring for 
them or someone who is running a senior day care center or a 
social service provider or a family member needs to be able to 
go to one place to get the kind of information they need. So I 
would like to set up something like that as well.
    Senator Bill Nelson. What would you propose with regard to 
minority populations of elderly, where there is a language 
barrier?
    Ms. Gall. Well, again, that is why you have to be creative 
and you have to go right to the source in that community to 
find those who speak the language and who have the contacts, 
whether that is through a church community or other local 
resources, where you can address the language problem. Again, 
that is an issue with new immigrant populations as well that I 
am concerned about not receiving the kinds of information we 
need to get across.
    Senator Bill Nelson. You talked about outside of the box. 
What kind of additional resources are you going to need in 
order to do this?
    Ms. Gall. Well, I am a great believer in leveraging 
resources, in working in partnerships with State and local 
agencies and with nonprofit organizations and so on. I have not 
defined a particular budget, but, believe me, you will know 
about it when I do. I think it would require some additional 
resources, but I do not have a dollar figure for you at the 
moment.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    On the second round, Senator Burns.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. I have sat here and listened to the dialog 
this morning, and what a novel thing it is to have a person up 
that has 10 years experience with the Commission and still has 
a sense of humor.
    Ms. Gall. Senator, you have to to get through this.
    Senator Burns. How novel it is to have product knowledge 
and understand the human being and still approach it with a 
common sense type thing of trying to solve problems without 
going into court. Sometimes that is the most desirable way, is 
working with organizations.
    I think there have been some examples here that have been 
pretty far-reaching this morning. So I am going to support this 
nomination. After listening--I sat here just to listen this 
morning more than to ask question, to be right honest with you, 
because I am not real sure after hearing all this that I 
could--we did not have bath seats for kids. I think our kids 
got a bath in the kitchen sink. We could not afford it. And I 
am not sure I could raise kids any more. I do not know what it 
is all about.
    But I know that I guess when we lost our daughter when she 
was 15 years old and we had an unfortunate accident, I guess I 
could go through a lot of things and probably blame somebody 
else. It is easy to do that under those circumstances.
    But I like your approach. I know there are going to be 
three votes on that Commission and the desires of the 
Commission I would imagine will be seen by a majority of two to 
one. I served on a three-panel commission on a county and I was 
not always on the majority. But nonetheless, I am going to 
support this, and your answers, and just to keep approaching 
these problems under a common sense approach. I think we need 
more of that in government.
    So I appreciate all the questions that everybody else asked 
and I am going to take that into consideration. But I 
appreciate your positive attitude, approach to some very 
serious problems we have in product safety. We cannot make them 
safe enough and then on the other hand be able to afford them 
at all. So I appreciate what you do.
    Thank you, Mr. Chairman, and that is my statement and I am 
sticking to it.
    The Chairman. Good.
    Ms. Gall. Thank you.
    The Chairman. I participated in the initiation of the 
Consumer Product Safety Commission. Once again, it was the 
flammable blankets. This has saved, as you indicated otherwise, 
it saved a lot of legal procedures.
    Senator Burns. You know, I sat on the board of directors at 
one time of the Shriners Hospitals for Children. As you know, 
we have three burn centers. No other organization in the world 
has done more research on burns than that organization. When we 
looked at different circumstances that caused, after we dealt 
with it, what caused this thing and fire and fire retardants 
and this type thing, we finally came to the conclusion 
sometimes the fire retardant wear did more damage under certain 
circumstances than, say, just straight cotton in what we slept 
in as kids.
    So we have some experience with this. So I am glad to see 
some common sense approach to this situation.
    The Chairman. Dr. Curtis Arts is the eminent physician on 
burns, and I have worked with him.
    I just want to emphasize on my little minute here that we 
started with Love Canal and all the toxic fumes and disease and 
death that that caused up there in Buffalo, and we instituted 
the Environmental Protection Administration, and that saved a 
lot of law cases. The Consumer Product Safety Commission has 
saved a lot of law cases as well as lives and injury.
    While I have worked for some 34, almost 35, years now in 
the cancer field, it was not Dr. Koop and Dr. Kessler. On the 
contrary, it was trial lawyers who got that $368 billion 
settlement. Now, when I go to the tobacco-growing area of 
Florence, South Carolina, in the courthouse they have got no 
smoking. The trial lawyers really have saved the lives. In 
deference to my doctor friends, they have saved a lot of lives. 
But, it was not until we really brought that case and got that 
settlement that people understood the dangers of smoking.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. I appreciate your 
having a second round, Mr. Chairman, because this is really a 
signal today about how the Administration is going to handle 
consumer protection issues and, frankly, I am very troubled 
about what we have heard in the last couple of hours.
    When I and my colleagues have given you these examples of 
these cases where you essentially said it was the consumer's 
fault, your response has essentially been to cite extreme cases 
of individual irresponsibility. We talked about drunk drivers--
excuse me, drunk parents this morning, and it seems to me that 
you are overlooking the significant role that the product is 
going to play in the vast majority of mainstream cases where 
the consumer has behaved responsibly.
    How would you respond to that?
    Ms. Gall. Well, Senator, when we believe there is a defect 
or an unreasonable risk of injury through some means, then we 
address that issue. We do not always address it with a 
mandatory standard. I think that is one of the things I really 
have to get across here. Since Chairman Brown----
    Senator Wyden. That is not what----
    Ms. Gall. May I finish, Senator?
    Senator Wyden. But just so we are clear now, and I would 
like you to respond to the question, that is not what your 
record shows. Your record shows that you will not even begin 
the inquiry, and you cite this question of extreme 
irresponsibility for not beginning the inquiry. That is what I 
would like you to respond to.
    Ms. Gall. Senator, since 1994 we have gone with 23 
mandatory standards and 118 voluntary standards. That is a 
five-to-one margin of a demonstrated preference for voluntary 
standards when we think they will work. That is with Chairman 
Brown, Commissioner Moore and myself voting on those issues.
    Our statutes tell us we have to look to voluntary standards 
first. Those are the statutes that the Congress has given us.
    There is not a one size fits all solution to every problem. 
Yes, there is extreme consumer behavior. No mandatory standard 
will address that. But when there is foreseeable, foreseeable 
consumer misuse or abuse, we address it--not always by a 
mandatory standard, sometimes by a voluntary standard, 
sometimes by bringing industry in and working on the problem 
together.
    That is the way I like to do business, and that is the way 
the Commission has done business. Twenty-three mandatory 
standards, 118 voluntary standards. The record stands for 
itself.
    Senator Wyden. Could you give some examples in the last 10 
years where you opposed an industry position that industry felt 
strongly about?
    Ms. Gall. Well, I can think of one right off the bat, and 
that is the very controversial issue of child-resistant caps 
for medications and for household products that are toxic. 
Industry went to great lengths and great expense to develop 
child-resistant caps for these products, and it took a long 
period of time and a great deal of patience to come up with the 
appropriate caps.
    Then we saw, as I mentioned earlier, an increase of 
poisonings because the caps were so hard to use, especially for 
people who have arthritis or have one hand or some situation 
like that. They were very difficult to get off. I had problems 
with them myself. Sometimes I used inappropriate language when 
trying to open some of those caps.
    We sat there and we saw the increase on poisonings and we 
had to go back and develop an adult-friendly, child-resistant 
cap that has a two-step cognitive process where you twist and 
pull open. That was expensive. Industry was not interested in 
doing that for the most part. They had to come up with new 
designs, because it is not just caps on medicine, it is also 
tubes and other kinds of individual blister packs and so on. We 
had to come up with this child-resistant, adult-friendly.
    We get trounced in our appropriations hearing for doing 
that. There was tremendous pressure from industry, segments of 
industry, not all industry. So we went ahead and did it anyway.
    Senator Wyden. In 10 years there was once where you voted 
against industry?
    Ms. Gall. No, I am citing that as one example. I am citing 
that as one example.
    Senator Wyden. Could you give me a couple of others?
    Ms. Gall. Well, there was some resistance on efforts on 
some other products where industry has come around after we 
have negotiated with them and so on, and I do not particularly 
care to mention those particular industries, however, given 
that we are in a delicate situation with them, where there was 
strong initial resistance and we were able to bring them around 
and have us work together in a non-threatening approach.
    I think that is the best way to do business. You can club 
people over the head with an advanced notice of proposed 
rulemaking or you can sit down with them and work something out 
and get a good result.
    Senator Wyden. I think we ought to hold the record open on 
this point, Mr. Chairman. But the witness has said that in 10 
years at the Consumer Product Safety Commission she voted 
against industry in one instance.
    Ms. Gall. I am not saying that, Senator. I am saying that 
is one example. I would be happy to provide you additional 
examples for the record.
    Senator Wyden. Why do you not tell us those. Why do you not 
tell us those this morning? Why do you not give us those this 
morning?
    Ms. Gall. I think I understand what you are getting at. You 
have to understand from my perspective that there is initial 
resistance with industry on a number of issues that we deal 
with, but when we come to the table and we work together and 
they understand that we mean business, then we are able to come 
up with a result, after we negotiate internally among the 
Commissioners, we are able to come up with a workable result. 
That is the way it is supposed to work.
    Senator Wyden. I want to wrap up with this, Mr. Chairman, 
because I think this is right at the heart of the question. 
There is no question that one size does not fit all, and you 
need creative solutions. What has troubled me the most about 
what you have said today and in the past is that when you will 
not even initiate an inquiry in most instances you cannot get 
industries to the table in order to start looking for these 
kind of practical solutions.
    Ms. Gall. I disagree with that, Senator. I disagree with 
your premise.
    Senator Wyden. That is what happened in the baby walker 
case. With all due respect, that is how you finally began to 
make some progress there.
    Ms. Gall. I disagree with that.
    Senator Wyden. I came here today open. This has been an 
area I have specialized in since my days with the Gray 
Panthers. I think your views on consumer protection regrettably 
are not in the mainstream.
    Mr. Chairman, I appreciate the second round.
    The Chairman. Very good.
    Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman, very much.
    Ms. Gall, thank you for praising my very strong belief that 
negligent parents should be held accountable. I have a long 
record on this. I have gone after deadbeat dads in welfare 
reform. I have gone after parents who leave guns unsupervised, 
unlocked, so kids can get their hands on them.
    But, unhappily, you do not have a similar record going 
after dangerous products, because I think you have got to do 
both. You have got to take a firm stand against people who 
would neglect their children and also make the safest possible 
products. I do not see that balance in your record.
    Let us be clear. Voluntary standards cannot be enforced. 
They cannot be enforced and that is important.
    Now, I am troubled by many of these inconsistencies that 
keep coming back up in your testimony. Again, you cite 97 
percent of the time you voted with your fellow Commissioners, 
and yet, in your own words, ``The other Commissioners and I do 
not always agree. In fact, a lot of the time we do not agree.''
    So you keep bringing up 97 percent of the time and yet I 
have pointed out how many of these votes----
    Ms. Gall. With enforcement matters, 97 percent of the time 
with enforcement.
    Senator Boxer.--how many of these votes are routine votes.
    Now, in answer to Senator Nelson's questions, you said you 
would educate the elderly. You think it is important to work 
with groups to educate the elderly. Yet, when we try to educate 
parents about placing their children in adult beds, you not 
only oppose it, but you write a letter to the editor and you 
condemn the Commission staff. I shudder to think the chilling 
effect that making you Chairman would have on that staff.
    Sixty-four kids a year, Mr. Chairman, died because of this. 
I think it is good--I am a grandmother. I think it is important 
that my daughter knows of this problem, and she can make her 
own choice on how she wants to deal with it.
    But, you condemn it. How are we supposed to believe you 
that you are going to educate seniors? You do not want to 
educate parents. You think it was an overreaching of the staff. 
But in answer to Senator Nelson, oh, you are going to educate 
seniors. I do not believe it. I do not believe it. You can have 
an opinion, but then you write an op-ed piece striking out at 
the staff for what they did, saying the only issue here was 
overreaching.
    I simply think these inconsistencies are very, very 
troubling, and I do not believe that you will educate the 
elderly because you did not want to educate the kids or even a 
grandma who might take her grandchild into bed when there is an 
infant involved. You do not want to do that. So I have a 
problem with it.
    Now, you then say, in response to Senator Edwards' 
questions about the sprinkler, oh, you did not want to take 
that issue on because it takes too long. Do you know how long 
it took to resolve that once the complaint was filed? Do you 
have that information? Tell me?
    Ms. Gall. I do not recall the number of days.
    Senator Boxer. Well, I will tell you. I will tell you. That 
complaint was filed in March, and it was resolved in October. 
So your point that, oh, when you issue a complaint it takes a 
lot of time, is disproved by the facts. It was resolved in 
October, and people were saved.
    Then you say you voted for all but two administrative 
complaints. How many were there in the last 8 years, do you 
know?
    Ms. Gall. I believe there were about 10 or 11.
    Senator Boxer. In the last 8 years--we just checked--there 
were 3. There were 3 according to the Commission.
    Ms. Gall. I think there were more than that, but anyway.
    Senator Boxer. It is not ``but anyway.'' I mean, I am 
really frustrated.
    I think, Mr. Chairman, we have a witness here who is 
recasting herself and saying, well, 97 percent I voted with the 
Commission, I only voted twice against administrative actions, 
complaints, when in fact there were only 3 in the last 8 years, 
to make us believe that she is in the mainstream. Now, we got 
this information from the Commission staff, that there were 
only 3 in the last 8 years.
    So I have to say this is a deeply troubling nominee.
    I want to talk to you about the baby walkers in the time I 
have remaining. You voted against a rule for baby walkers 
because caregivers were failing to provide ``adequate 
supervision.'' We have gone over that, and I have told you I 
agree we want to give adequate supervision to our children; but 
a child does not choose its parents and if there is a real 
problem and the parent does not supervise, we want the safest 
products possible for the child, to protect the child.
    You know, with the bunk beds you said the parents should 
not put the kids in the upper bunk. Try controlling a kid from 
climbing up into the upper bunk in the middle of the night. It 
is not easy in the real world. A kid does not read the warning. 
You know on the mattress label they always have a warning. Kids 
do not read that. They do not read the warning with the 
product, and they may climb up onto the top bunk.
    Well, here is what we know. As a result, you voted against 
a rule for baby walkers and yet the injuries dropped 60 percent 
in 5 years as a result of the redesign. You voted against the 
rulemaking proceeding. Now, as a result 11,300 injuries to 
babies have been prevented each year. Would you change your 
vote, knowing that?
    Ms. Gall. Senator, I voted in opposition to the ANPR, but I 
supported and worked with industry to make the changes.
    Senator Boxer. You voted against a rulemaking----
    Ms. Gall. May I finish, Senator?
    Senator Boxer.--is that correct?
    Ms. Gall. I voted against an ANPR at the time and moved 
forward to support making changes, working alongside with 
industry.
    Senator Boxer. Mr. Chairman, anyone who knows anything 
knows the reason industry sat down was because of that 
rulemaking.
    Ms. Gall. I disagree with that.
    Senator Boxer. Well, you can disagree, but that is a fact.
    We have the safest products in the world because we have 
people who serve on these commissions who care, who are 
fiercely fighting. And when they slack off, we do have trial 
lawyers what come in, much maligned as they are. We have the 
safest products in the world because we have a system that 
protects consumers.
    If we have the head of the Consumer Product Safety 
Commission, Mr. Chairman, who is anything less than vigilant 
and a fighter and an advocate--Ms. Gall, I say you are on the 
Commission as a balance. You wrote you were the only 
Republican, you disagreed with your colleagues. It is healthy, 
it is healthy. I do not mind that. That is fine. But to make 
you the head of this Commission, it seems to me to be wrong, 
because we need a fighter. We need someone who is going to get 
out there and advocate, not someone who says, well, the 
rulemaking had nothing the do with the fact that the people 
came to the table. I think that is why the people came to the 
table.
    So I just want to make sure I am right. Knowing that 11,600 
kids each year--let me correct that--11,300 injuries to babies 
have been avoided, would you still vote against that 
rulemaking?
    Ms. Gall. I believe that the juvenile products group----
    Senator Boxer. Could we have a yes or no?
    Ms. Gall. Senator, may I please----
    Senator Boxer. Could we have a yes or no?
    Ms. Gall. May I finish? I am very frustrated as well, 
because I would like to comment on a couple things you said.
    First of all, we were able to work that out without a 
mandatory standard. That is the important thing to remember. A 
mandatory standard is not always the answer. We are able to 
work cooperatively with industry on many occasions. That is 
point number one.
    Point number two, I truly believe in educating seniors 
about the dangers of consumer products, how to upgrade their 
consumer products. I do not believe in educating parents about 
cultural practices that are their own business in the privacy 
of their homes. We are not the Consumer Cultural Practices 
Commission. We are Consumer Product Commission. We need to 
confine our role, which is a big role because we oversee 15,000 
consumer products. We need to address the concerns about 
consumer products, not about private cultural practices.
    Let me say again, the American Academy of Pediatrics and 
the maternal and child health folks at NIH never stated that 
co-sleeping was dangerous in any way. We were trounced in the 
press repeatedly, with articles in The New York Times, Time 
magazine, Newsweek and others who criticized us heavily for 
that co-sleeping study. I will just leave that at that.
    I do believe in working with people to inform them about 
safety issues related to consumer products.
    With regard to baby walkers, I disagree with you. I have to 
be honest about it, I have a longer degree of experience in 
dealing with juvenile products people and the industry itself. 
They were more than willing to work with us. It did not take a 
mandatory, the initiation of a mandatory standard to work with 
them, just as it did not take the initiation of a mandatory 
standard to solve issues related to gas-fired water heaters. 
Industry came together, we asked them to work with us, they 
did. That is a success story. It does not always take a 
mandatory standard or the beginning of a mandatory standard. 
Our staff can initiate investigation about products without 
beginning rulemaking.
    My response to you is we use common sense. The 97 percent 
that you are quoting was with regard to enforcement. I have 
clearly stated that to you several times. It is with regard to 
enforcement issues. With regard to all issues before the 
Commission, including some of the things you cited, Senator 
Boxer, my record is 93 percent at the time. That includes 
everything, from budgets, operating plans, civil penalties, and 
so on, 93 percent of the time; 97 percent of the time with 
enforcement issues.
    When it comes to regulatory matters, it is about 87 to 90 
percent support for regulatory issues. This is not an extreme 
record, Senator.
    If I am confirmed, I will aggressively act as the leader of 
the Commission. Let me also say for the record that the 
Chairman plays an important role as the administrative leader 
at the agency, the point person for Congress, the point person 
with regard to the media. But the Commissioners play important 
roles as well. We vote yes or no on civil penalties, 
administrative complaints. We deal with the daily operations of 
the Commission: budgets, operating plans, monitoring of 
voluntary standards, hiring of the top people at the agency, 
reviewing performance plans, reviewing requests for increases, 
salary increases. We have to vote on press releases. We have to 
vote on all the issues that pertain to the Commission.
    I have 10 years worth of experience in dealing with all of 
those issues. So I hope that I will be confirmed by the Senate 
and reported out by this Committee.
    The Chairman. I yield you my time. Go ahead.
    Senator Boxer. Thank you so much.
    Mr. Chairman, let the record show that Ms. Gall did not 
answer my question as to whether she would cast the same vote 
against a rulemaking that dealt with baby walkers, which we all 
know the other Commissioners voted for.
    Ms. Gall. I would be happy to answer that, Senator.
    Senator Boxer. Well, excuse me. You had time to talk. That 
was my question. Instead of answering yes or no, you went on 
and on. The bottom line is you did not answer it. I am sure 
that the Chairman will give you the chance to answer it.
    But, I want to point out that as of this point in a direct 
question, Ms. Gall refused to answer would she cast the same 
vote. What she said was, I work with industry. Well, why do you 
think industry came to the table? Because the other 
Commissioners had the guts to say that 11,300 injuries a year 
to babies is too much to take. Yes, industry came to the table. 
Good, good for those Commissioners. And then you got in the 
act, good, good, good. But as Chairman of the Commission, you 
should be the one leading the charges.
    I would finish and say this. What troubles me tremendously 
is the fact that you voted against agency action on the bath 
seats, again claiming negligent parents. You reversed your vote 
in 2001 as controversy against your nomination was building. 
Seventy-eight children have died using these baby bath seats.
    You also voted against a rule for bunk beds. About ten 
children die every year from entrapment. While your primary 
reason for opposing the rule was to defer to voluntary 
standards, which had not worked, and the record will show that, 
you also voiced your views that the real cause of death was the 
parents inappropriately placing children under 4 years old in 
the upper bunks.
    So it seems to me that this approach is repeated and 
repeated and repeated and repeated. I do not want to do 
anything on my watch that is going to punish children because 
they cannot read the warnings or is going to punish elderly 
people because maybe they are not as swift as they once had 
been.
    This has been an extraordinary experience for me, this 
hearing. I think, if anything, we can see here that, while 
someone may provide a balance on a commission as a 
commissioner--and I do not question your integrity in any way. 
You are doing what you believe in. You believe that industry 
should fix itself, you believe that parents are to blame, and 
that is what you believe and you have a right to believe it.
    But, you do not believe in making products safe. That is 
what I think about your record. You do not believe in doing 
what it takes to make products safe, and you would rather let 
it go to industry to deal with it. I think that is a problem 
when considering your nomination to be the Chairman of a 
commission whose mission is making products as safe as they can 
be.
    Thank you.
    The Chairman. Ms. Gall, you have every opportunity to 
respond.
    Ms. Gall. Thank you, Mr. Chairman.
    Well, as might be stating the obvious, I disagree with 
Senator Boxer's characterization of my record. I believe you 
need to address consumer product issues based on the issue 
before you. I do not believe that there is an automatic 
requirement to go to a mandatory standard every time in every 
issue, just as there is not a one size fits all answer for 
every issue that comes before the Senate.
    My vote with regard to bath seats changed because the 
evidence before us changed. I looked at the evidence and at the 
law and I based my decision on that and that alone. Perhaps if 
Senator Boxer had observed me over the last 10 years, she would 
know that any implications about my nomination are false with 
regard to how I voted that time.
    I must say that the people who have criticized my 
nomination have stated that repeatedly, and that simply is not 
true. I looked at the evidence and I looked at the law. The 
evidence had changed and consequently my vote changed. I would 
think that the fact that I am willing to change my vote based 
on the evidence before me would be a good thing, not a bad 
thing.
    Obviously, Senator Boxer and I view things differently. 
Apparently she believes that a mandatory standard, the 
beginning of a mandatory standard, is a must in every 
circumstance. I disagree with that. I know that there are times 
when it is necessary, and I have done so when it is necessary.
    I have supported child-resistant cigarette lighters when we 
saw the circumstances, the data, the evidence, and what the law 
instructs us to do. I also did so with multi-purpose lighters, 
those lighters you use to light charcoal on a grill. They are 
long, they have the long nose and the trigger mechanism, and 
children really like those. So I voted for a child-resistant 
mechanism for those. I have supported poison prevention 
packaging throughout the history of my role at the Commission.
    So really, if you take a real look at my record, you will 
see that I am willing to address issues that come before the 
Commission with an appropriate fix. That is not always the 
beginning of a mandatory standard. Sometimes it is. But if you 
look at the record of the Commission, 118 voluntary standards 
and 23 mandatory. I think that tells you something about the 
record of the Commission and the fact that we must look to 
voluntary standards first before we address the issue of 
mandatory standards.
    The Chairman. Very good.
    We have the statement of the Honorable Rosa DeLauro. It 
will be made a part of the record, and I am going to furnish 
you a copy, too, Ms. Gall, so you can respond, and do it as 
promptly as you can. [Refer to Appendix.]
    The Chairman. I have not talked with Senator McCain, but it 
would be the hope perhaps of the Committee to look at this 
nomination and vote on it before we leave for the August break. 
I am not sure of that.
    Otherwise, the Committee is indebted and appreciative of 
your appearance here this morning, and the Committee will be in 
recess subject to the call of the chair. Thank you all.
    [Whereupon, at 11:54 a.m., the Committee was adjourned.]
                            A P P E N D I X

              Prepared Statement of Hon. Rosa L. DeLauro, 
           U.S. Representative from the State of Connecticut
    Thank you Mr. Chairman and members of the Committee for allowing me 
to be here today to share my concerns about the nomination of Mary 
Sheila Gall to chair the Consumer Product Safety Commission.
    Ms. Gall, who has served on the Commission since 1991, has 
repeatedly voted against stronger consumer product safety regulations 
throughout her tenure. Given a choice between consumer safety and the 
manufacturers, Ms. Gall came down on the side of the manufacturers, 
deciding in favor of products that are dangerous and put our children 
at risk. She has a history of blaming consumers when injuries result 
and she has shown a clear reluctance to impose mandatory safety 
standards when evidence shows that voluntary standards are not enough 
to reduce safety hazards and prevent injuries.
    Accordingly, I am here today to urge my Senate colleagues to reject 
her nomination. I speak from my own experience on this issue. Over the 
years, as a member of Congress, I have introduced legislation on 
children's sleepwear flammability standards, upholstered furniture 
standards and I have fought against dangerous candy products that posed 
serious choking hazards to our children.
    Mary Sheila Gall's record speaks for itself, but I would 
respectfully like to highlight a few key points in Ms. Gall's history 
that illustrate that she does not have the interests of children and 
families in mind.
    On the children's sleepwear issue, Ms. Gall voted in 1996 to 
eliminate the fire-resistant standard for infant sleepwear putting 
millions of additional children at risk of injury. This 25 year old 
standard had been credited with helping reduce the average death rate 
from clothing ignition for children younger than 14 from 60 deaths each 
year to only four per year. This was the most effective measure taken 
to protect children from injury in the event of a house fire. In her 
statement, in support of repealing the standard, Ms. Gall said that 
non-flame resistant sleepwear did not pose an ``unreasonable risk.'' 
Ms. Gall's vote put millions of children at risk of death or injury and 
put her odds with the National Fire Protection Association. The 
Association strongly opposed her position, saying that Ms. Gall put the 
burden of safety standards on consumers.
    Fire-resistant pajamas is a common-sense standard, and I have 
introduced legislation to instruct the CPSC to return to the strict 
fire safety standard that governed children's sleepwear for a quarter 
of a century. We cannot allow children to be put into bed wearing 
pajamas that pose a fire hazard.
    Ms. Gall's position with respect to baby baths is also 
disconcerting. From 1983 to 2000, 69 infants died and 95 were injured 
in accidents involving baby bath seats. In 1994 Ms. Gall voted against 
the regulation of baby bath seats, saying ``infant drowning . . . 
resulted not from the design or manufacture of the product, but rather 
from irresponsible behavior of the care-givers.'' On August 9, 2000, 
Ms. Gall voted to publish a Federal Register notice to invite 
interested persons to comment on a petition to regulate baby bath seats 
and rings, all the while publicly commenting that, ``Infant drownings 
that occurred while a baby bath seat or ring was present resulted not 
from the design or manufacture of the product, but rather from the 
irresponsible behavior of the caregivers in leaving an infant alone in 
the tub . . . I have reviewed these incidents as they have been 
reported and have found nothing that causes me to alter the opinion 
that I expressed in 1994.''
    Mr. Chairman and members of the Committee, since 1972, American 
families have relied on the Consumer Product Safety Commission to 
regulate unsafe products and protect them from potentially hazardous 
ones. In regulating potentially dangerous products, I believe the 
American people prefer us to err on the side of caution. They do not 
want products that endanger their lives sold in the stores where they 
shop. The Chairperson of the Commission must be a leader who will 
demand the strictest safety standards for consumer products. Yet, Mary 
Sheila Gall's record as a CPSC Commissioner indicates an overt 
hostility toward the commission's mission.
    Her impact on this nation's children doesn't stop at sleepwear and 
bath seats. In a statement dated June 30, 1994, Ms. Gall, in opposition 
to the proposed government regulation of baby walkers, once again 
blamed parents and babysitters for accidents that had occurred. In some 
instances that may have been true. But didn't she think that there 
might be a way to build a safer baby walker--one that would not fly off 
down the hall or down the stairs the moment a parent turned around. 
Parents will be the first to agree that sometimes they get distracted, 
but that is no reason not to try to make a safer walker. This proposed 
regulation was supported by the American Academy of Pediatrics, the 
National Association of Pediatric Nurse Associates and Practitioners 
and the American Medical Association. The American Medical Association 
wrote in a letter to the Commission, ``We believe that this product 
should be taken off the market. . . . baby walkers account for higher 
numbers of injuries annually than does any other type of nursery 
product.'' Her opposition to the rule demonstrated an astounding lack 
of sensitivity toward child safety.
    Time after time, Mary Sheila Gall has voted against consumer 
protections and for manufacturers of unsafe products. Ms. Gall 
questioned the need, when crayon makers agreed to remove asbestos 
fibers from their products. She voted against safety standards for 
bicycle helmets, opposed labels to warn consumers about indoor charcoal 
burning, endorsed the move to block rules on flame resistant furniture 
and opposed bunk bed standards to prevent strangulation--since 1990, 57 
children have died by entrapment in bunk beds.
    Mr. Chairman, I have fought very hard to protect consumer safety 
during my tenure in Congress. I am here today, because safety for this 
nation's children is something that I deeply believe in. The 
Chairperson of the federal agency charged with protecting consumer 
safety has an important job to do in protecting the health and safety 
of the nation. How many children have to be harmed or killed in burning 
sleepwear because we failed to enact strict flammability standards. In 
my opinion, if we could prevent one child's death--just one child--then 
a regulation is warranted. She could be your child or your grandchild 
or your neighbor's child. I urge you to consider Ms. Gall's record, her 
reluctance to use the authority invested in her as a member of the 
Commission. And consider whether we ought to have her as the head of 
the nation's consumer protection agency.
    Thanks for the opportunity to testify today.

                                <greek-d>

</pre></body></html>
